<html>
<title> - COLORADO'S ROADMAP FOR CLEAN ENERGY ACTION: LESSONS FROM STATE AND LOCAL LEADERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                  COLORADO'S ROADMAP FOR CLEAN ENERGY
                     ACTION: LESSONS FROM STATE AND
                             LOCAL LEADERS

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             AUGUST 1, 2019

                               __________

                            Serial No. 116-8

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
   
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-993 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------  
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                              ----------                              

                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                            
                            
                            C O N T E N T S

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
 Hon. Kathy Castor, a Representative in Congress from the State 
  of Florida, and Chair, Select Committee on the Climate Crisis:
     Opening Statement...........................................     1
     Prepared Statement..........................................     3
 Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
     Opening Statement...........................................    16

                            WITNESS: PANEL 1

 Hon. Jared Polis, Governor, State of Colorado
     Oral Statement..............................................     7
     Prepared Statement..........................................     9

                           WITNESSES: PANEL 2

 Hon. Suzanne Jones, Mayor, City of Boulder, Colorado
     Oral Statement..............................................    24
     Prepared Statement..........................................    26
 Hon. Wade Troxell, Mayor, City of Fort Collins, Colorado
     Oral Statement..............................................    34
     Prepared Statement..........................................    36
 Cary Weiner, State Energy Specialist and Director, Colorado 
  State University (CSU) Extension and Rural Energy Center 
  Colorado State University
     Oral Statement..............................................    38
     Prepared Statement..........................................    39
 Chris Wright, Chief Executive Officer and Executive Chairman, 
  Liberty Oilfield Services and Liberty Resources
     Oral Statement..............................................    41
     Prepared Statement..........................................    43
 Heidi VanGenderen, Chief Sustainability Officer, University of 
  Colorado-Boulder
     Oral Statement..............................................    44
     Prepared Statement..........................................    46

                       SUBMISSIONS FOR THE RECORD

 Report, Source characterization of volatile organic compounds in 
  the Colorado Northern Front Range Metropolitan Area during 
  spring and summer 2015, submitted for the record by Mr. Neguse.    65
 Report, Process-Based and Regional Source Impact Analysis for 
  FRAPPE and DISCOVER-AQ 2014, submitted for the record by Mr. 
  Neguse.........................................................    65
 Article from CIRES UC-Boulder, ``Accounting for Ozone,'' 
  submitted for the record by Mr. Graves.........................    69

                                APPENDIX

 Questions for the Record from Hon. Kathy Castor to Hon. Jared 
  Polis..........................................................    69
 Questions for the Record from Hon. Kathy Castor to Hon. Suzanne 
  Jones..........................................................    72
 Questions for the Record from Hon. Kathy Castor to Hon. Wade 
  Troxell........................................................    75
 Questions for the Record from Hon. Kathy Castor to Cary Weiner..    76
 Questions for the Record from Hon. Kathy Castor to Heidi 
  VanGenderen....................................................    78

 
  COLORADO'S ROADMAP FOR CLEAN ENERGY ACTION: LESSONS FROM STATE AND 
                             LOCAL LEADERS

                              ----------                             


                        THURSDAY, AUGUST 1, 2019

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:10 a.m., at 
University of Colorado-Boulder, 2450 Kittredge Loop Dr., Wolf 
Law Building 401 UCB, Wittemyer Courtroom, Boulder, CO, Hon. 
Kathy Castor presiding.
    Present: Representatives Castor, Casten, Neguse, and 
Graves.
    Also present: Representative DeGette.
    Chairwoman Castor. Welcome, everyone, to the House Select 
Committee on the Climate Crisis, our first national field 
hearing. The committee will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time.
    I am Congresswoman Kathy Castor of Florida. I am honored to 
be here in the great State of Colorado.
    Without objection, Representative Diana DeGette, the 
gentlewoman from Colorado, shall be permitted to join the 
committee on the dais and be recognized for questioning of 
witnesses.
    Today we will discuss Colorado's state and local efforts to 
reduce greenhouse gas emissions and expand the deployment of 
clean energy and clean vehicles at the Select Committee's first 
field hearing. So I recognize myself for 5 minutes to give an 
opening statement.
    Thank you all for joining us today for the committee's 
first field hearing. I am excited to be in the great State of 
Colorado as the committee works to develop a national climate 
plan. We need to build on what is working in states and 
communities across this great country.
    It is appropriate that we are here on Colorado Day. It is 
the 143rd anniversary of Colorado becoming a state.
    [Applause.]
    Chairwoman Castor. Natural resources have always been a 
critical part of Colorado's economy. Today, in this century of 
the climate crisis, those resources also include the 
intellectual and entrepreneurial resources. We have seen some 
of these in the past couple of days at the National Renewable 
Energy Lab, NCAR, NOAA, and with scientists and students here 
at UC-Boulder. They are doing the cutting-edge research on the 
climate crisis and the solutions to tackle the crisis. We are 
also honored that our recent House of Representatives 
colleague, now Governor Polis, is spending part of his first 
Colorado Day as governor with us.
    When we say the states are the laboratories of democracy, 
we mean that literally here. Colorado is home to some of the 
leading research in climate change and clean energy. And one of 
the most important things we can do as policymakers is make 
sure that clean technology can move from the lab to the market. 
That is what creates jobs, that is what cuts pollution, and 
that is what makes America the leader in clean energy. We need 
to build the clean energy economy to solve the climate crisis.
    Colorado in particular has been a leader in the clean 
energy revolution. In the 2019 legislative session, the 
Governor and the Colorado legislature have added to Colorado's 
clean energy legacy by enacting several bills focused on 
deploying more energy efficiency, renewable energy, and 
electric vehicles. Equally important, they also created new 
programs to support the energy workforce, the clean energy 
workforce. Today we will be learning more about those policies 
and their benefits from a variety of perspectives to inform the 
Select Committee's work.
    The climate crisis is the challenge of our lifetime. When 
we confront it, it makes us realize that we are all in this 
together and that it will take creativity, innovation, and 
persistence by everyone to solve it. Those same qualities are 
what helped America land the first person on the moon. 
Recently, we celebrated the 50th anniversary of the Apollo 11 
mission. Those first steps on the moon proved that America can 
do anything when we work together. I have always found an extra 
measure of inspiration in Apollo because I am from Florida, and 
because when I first came to Congress I had the honor of 
inheriting John F. Kennedy's office in the Cannon House Office 
Building.
    A lot of people don't know this, but JFK was also the first 
president to receive a warning about how humans were changing 
our climate. Every president since then has received starker 
and starker warnings from the scientific community about the 
consequences of carbon pollution and climate change.
    Landing a man on the moon and returning him safely to Earth 
was a grand challenge. Making Earth's atmosphere safe for 
everyone is now a grander one for all of us.
    We don't have time to waste. We need to act as swiftly as 
possible. Our next moonshot is solving the climate crisis. I 
know we can do it. And I know Colorado is going to help us lead 
the way.
    [The statement of Ms. Castor follows:]
                               __________

              Opening Statement (As Prepared for Delivery)

                    Rep. Kathy Castor (D-FL), Chair

           U.S. House Select Committee on the Climate Crisis

  Colorado's Roadmap for Clean Energy Action: Lessons from State and 
                             Local Leaders

                             August 1, 2019

    Good morning and thank you for joining us for our first field 
hearing. I'm excited to be in the great State of Colorado because as 
this committee works on a national climate plan, we need to build on 
what's working in our states.
    We are here on Colorado Day--the 143rd anniversary of Colorado 
becoming a state. Natural resources have always been a critical part of 
Colorado's economy. In the 21st century, those also include the 
intellectual and entrepreneurial resources we have seen in the past few 
days visiting national and state scientists, who are doing cutting edge 
research on the climate crisis and solutions for it. We are also 
honored that our recent House of Representatives colleague, now 
Governor Polis, is spending part of his first Colorado Day as governor 
with us.
    When we say the states are laboratories of democracy, we mean that 
literally here. Colorado is home to some of the leading research in 
climate change and clean energy. And one of the most important things 
we can do as policymakers is make sure clean technology can move from 
the lab to the market--that's what creates jobs, that's what cuts 
pollution, that's what makes America a leader in the clean energy 
economy we have to build to solve the climate crisis.
    Colorado in particular has been a leader in the clean energy 
revolution. In the 2019 legislative session, the governor and Colorado 
legislature have added to Colorado's clean energy legacy by enacting 
several bills focused on deploying more energy efficiency, renewable 
energy and electric vehicles. Equally important, they also created new 
programs to support the energy workforce. Today we will be learning 
more about those policies and their benefits from a variety of 
perspectives to inform the Select Committee's work.
    The climate crisis is a huge problem. When we confront it, it makes 
us realize that we're all in this together. And that it will take 
creativity, innovation and persistence by everyone to solve it.
    Those same qualities are what helped America land the first men on 
the moon. Recently, we celebrated the 50th anniversary of the Apollo 11 
mission. Those first steps on the moon proved that America can do 
anything when we work together. I've always found an extra measure of 
inspiration in Apollo because I'm from Florida, and because when I 
first came to Congress, I had to honor of inheriting John F. Kennedy's 
former office.
    A lot of people don't know this, but JFK was also the first 
president to receive a warning about how humans were changing our 
climate. Every president since then has received starker and starker 
warnings from the scientific community about the consequences of carbon 
pollution and climate change.
    Landing a man on the moon and returning him safely to Earth was a 
grand challenge. Making Earth's atmosphere safe for everyone is an even 
grander one.
    The Apollo program was a national effort that mobilized our 
scientific and engineering capabilities in the federal government, 
academic institutions and private industry. The climate crisis requires 
that same commitment and more. As we will hear today the solutions have 
already started with our state and local governments. We need to act as 
swiftly as possible to follow your lead.
    Our next moonshot is solving the climate crisis. I know we can do 
it. And I know Colorado is going to help us lead the way.

    Now I am going to yield the balance of my time to another 
inspiration for all of us, the great representative of this 
community, Congressman Joe Neguse.
    Good morning, Joe.
    [Applause.]
    Mr. Neguse. Well, I first want to say thank you to Madam 
Chairwoman Castor for selecting Boulder as the location for the 
very first field hearing of the Select Committee on the Climate 
Crisis. And welcome to Boulder to my colleagues. It is such an 
honor to be able to join the committee in visiting my home 
state, my home district, my home town, and my alma mater, CU 
and CU Law School.
    So I want to thank everyone here today, the witnesses who 
will be testifying, the many activists and local leaders who 
have helped in so many different ways in the fight against the 
existential threat of climate change.
    I in particular want to recognize my fellow committee 
members, Representative Casten from the great State of 
Illinois; the Ranking Member, Representative Graves from 
Louisiana; Representative Buddy Carter from Georgia, who 
unfortunately had to leave last night but joined us for much of 
the trip; and, of course, the dean of our delegation, 
Representative DeGette. Thank you all for being willing to 
spend your time here in Boulder.
    I can think of no better place than Boulder, Colorado, and 
Colorado as a state, to host the first field hearing of the 
Select Committee on the Climate Crisis. It is the epicenter of 
climate research in the United States. It has been an honor to 
be able to visit with a number of scientists over the course of 
the last two days at NREL and at NOAA and at UCAR and NCAR and 
CIRES and so many other of the wonderful Federal research 
laboratories that we have here in our state that we are so 
lucky and blessed to be able to call home.
    So I look forward to today's proceedings. This climate 
emergency requires us to take comprehensive and bold action, in 
my view, and, I believe, in the view of the members of this 
committee, and I am so grateful for the Chairwoman's leadership 
on that front.
    With that, I would yield back.
    Chairwoman Castor. Thank you, Congressman Neguse.
    At this time, I will recognize our Ranking Member, Garret 
Graves of Louisiana, for an opening statement.
    Mr. Graves. Thank you, Madam Chair.
    I want to thank all of you for being here to participate in 
your government. This is what the United States looks like, and 
I really do appreciate every single one of you being here to 
share your thoughts, to participate, and to ensure that you are 
being represented.
    Governor, I want to thank you for being here. I had the 
chance to serve on the House Natural Resources Committee with 
your governor, certainly a very well-equipped, bright guy. And 
I have to tell you, I miss you, I miss working with you on the 
committee. We had a number of amendments that we were able to 
work on together. But congratulations to you, and I have no 
doubt that you are going to do great things here, so thank you 
for being with us.
    Congressman Neguse, I want to thank you as well. The short 
trip--I arrived just yesterday morning. This place has been 
amazing, it really has. The people have been amazing.
    Mayor, I want to thank you very much for being here and for 
welcoming us as well.
    Climate change. I represent south Louisiana. We have to get 
this right, but we have to get this right. I want to explain 
what I mean there.
    First of all, we are in Boulder, Colorado. So we can sit 
here and we can talk about the symptoms of climate change and 
what is going to happen here and what has happened here. Let me 
tell you about where I live.
    We have lost 2,000 square miles of our state, 2,000. How 
big is that? If it were the State of Rhode Island, we would 
have 49 states today, alright? This isn't some place where 
birds and fish live. This is people. This is homes. This is 
businesses. This is history.
    Our tourism department years ago--we have this area called 
the Atchafalaya Basin. It is one of the only open river 
floodplains undisturbed in the nation, and it is just teeming 
with wildlife. It is amazing. Bears and alligators and deer, 
just a really amazing place. But they kicked off this tourism 
campaign, and they said the Atchafalaya Basin, America's 
foreign country. And I was like, oh, that is awesome. And it 
is, it is awesome.
    But you know what? That is south Louisiana, the place, the 
people that I represent, the culture, the music, the food, the 
people. There is nowhere else. And to watch that disappear, 
literally--we lose a football field of land approximately every 
hour, a football field every hour.
    So sea rise is one of the contributing factors. There are a 
few others. It is one of the contributing factors for our loss. 
You can look and you have seen the International Panel on 
Climate Change, the IPCC. You looked at their projections of 
sea rise. We don't have the Flatirons. If we have a slope in 
Louisiana, it goes from here to there. So when sea rises, it 
inundates. It inundates our homes, it inundates our businesses, 
it inundates our history, it inundates our ecosystem.
    Actually, I worked on an amendment in one of our 
committees--I think Joe was about to throw something at me--
where I tried to get Cajuns deemed an endangered species. 
[Laughter.]
    It didn't work.
    So from home, from the people I represent, we have to get 
this right.
    Now, let me explain the other reason we have to get this 
right. We have had people, experts, come before our committee 
who have said we can cut every bit of emissions, every single 
bit of emissions from the United States today, everything, and 
it is not going to change the trajectory of warming.
    This place, Boulder, is amazing. Yesterday I had the 
opportunity to go to the National Renewable Energy Lab. I had 
the opportunity to go to the University Corporation for 
Atmospheric Research. I have been to CIRES before. I have been 
to the Earth System Research Laboratory before. This place is 
going to be absolutely key in solving the problem, and what I 
mean by that is the experts, the facilities, the scientists 
that you have here, the innovation, the moon shot that the 
Chair just talked about.
    But when you look at what some places have done, up in the 
northeast, some of the efforts to go very, very aggressive, 
they have actually caused energy prices to triple those 
compared to my home state. In my home state, we can't afford 
it. We have a high rate of poverty. We can't afford a tripling 
of energy. They have actually carried out policies that have 
required the importation of natural gas from Russia. They have 
caused folks to burn wood in stoves in their homes. They have 
caused the burning of heating oil.
    In California, we have increased our dependence upon oil 
from Saudi Arabia. Let me say that again: We have increased our 
dependence upon oil from Saudi Arabia.
    Here is a little-known fact. In the United States today we 
have reduced emissions greater than the next 12 countries 
combined, the United States has twelve countries combined. So 
we can continue down this path of making this an incredibly 
polarizing issue and make it this big partisan fight, or we can 
recognize that we are all in this together, not just in 
Boulder, not just in Colorado, not just in the United States, 
but the globe, because as the United States has been the world 
leader in reduced carbon emissions greenhouse gas emissions by 
a billion tons, China during that same period of time has 
increased by 4 billion tons, more than offsetting every bit of 
progress we have made here in the States.
    Let me say it again. This place, Boulder, Colorado, the 
scientists, the experts, the facilities you have here, this 
place is going to lead the innovation not just for Boulder, not 
just for Colorado, not just for the United States, but for the 
world. And we are going to have to keep working together and 
stop this ridiculousness about all the partisan fighting that 
we are seeing on this issue and virtually everything else, 
because we are all in this together.
    It doesn't matter if you are Republican, Democrat, green, 
purple, blue, white, whatever. When your land is being taken, 
when your home is going underwater, when your business is going 
underwater, when your history, your culture is going 
underwater, it doesn't matter. It doesn't matter what label. It 
affects every single one of us.
    So let me say it again, Madam Chairwoman. I want to thank 
you for choosing Boulder, Colorado. Joe, Congresswoman DeGette, 
I want to thank you very much for hosting this today. 
Congressman Casten, thanks for coming. And most importantly, I 
want to thank you all for being here to participate in your 
government, and we have got to work together to figure out a 
solution that gets it right and gets it right.
    I yield back.
    [Applause.]
    Chairwoman Castor. Thank you. Thank you, Mr. Graves.
    Now we will move on to our witnesses.
    We have two panels today. The first panel is the Honorable 
Jared Polis, and I yield to Congressman Neguse to introduce the 
Governor.
    Mr. Neguse. Thank you, Madam Chair. I am proud today to 
introduce the Governor of Colorado, Jared Polis.
    Before being elected governor, Jared Polis served as a 
board member and Chair of the Colorado State Board of 
Education. He was then elected to represent Colorado's 2nd 
Congressional District, which I am honored to serve today.
    The 2nd District stretches from Larimer County and the 
Wyoming border to the central mountains at the heart of 
Colorado's tourism economy, to Boulder and the U.S. 36 high-
tech corridor.
    In his time in the United States House of Representatives, 
then-Congressman Polis was a strong advocate for finding 
solutions to environmental issues. He was a national leader for 
protecting our treasured public lands and addressing climate 
change.
    After 10 years of honorable service in the United States 
House of Representatives, he successfully ran for governor last 
year, in 2018, on the platform of full-day kindergarten for 
all, reducing health care costs, and transitioning to 100 
percent renewable energy by 2040.
    As the Governor of Colorado, Jared Polis has made 
significant progress towards these goals during his first seven 
months in office, and he has left incredibly large shoes for me 
to fill as the congressman for this congressional district.
    I am thrilled to welcome him to the Select Committee's 
first field hearing to share his testimony and his experience. 
Please welcome our Governor of Colorado, Jared Polis.
    [Applause.]
    Chairwoman Castor. And without objection, the witness' 5-
minute testimony will be entered into the record.
    At this time, Governor, you are recognized to give a 5-
minute presentation.

  STATEMENT OF THE HONORABLE JARED POLIS, GOVERNOR OF COLORADO

                    STATEMENT OF JARED POLIS

    Governor Polis. Good morning, Madam Chair, Ranking Member 
Graves, Representative Neguse, Representative Casten, 
Representative DeGette. I had the pleasure of serving with many 
of you for a number of years. And today, on Colorado's 143rd 
birthday, which Madam Chair so kindly recognized, I am honored 
to welcome you to Colorado for a very important field hearing 
to discuss climate change, an existential threat to our 
security, our health, our economy, our public lands and 
ecosystems, and our very way of life.
    Colorado's climate has warmed substantially over the past 
30 years, and even more than that over the last half century. 
Time is quickly running out to take bold action to reverse and 
alter the current trajectory.
    In Colorado, we know this hotter, more erratic, drier 
future isn't some dystopian vision. It is impacting us right 
now. It is impacting our dwindling water supply, impacting our 
farming and ranching communities, our outdoor recreation 
industry, our wildlife and ecological diversity. It is causing 
more frequent, more devastating, and more expensive national 
disasters, which also costs the Federal government money.
    If we want to preserve our way of life for future 
generations, we need to take bold action to address the climate 
crisis.
    We have more than just a moral imperative to combat climate 
change. In Colorado, as an example, and, of course, across 
America, we also have an economic imperative to lead the global 
green energy revolution, to make the future work for us.
    We have a choice. We can be a leader in renewable energy, 
or we can let other countries develop the technologies, create 
the jobs, and reap the rewards of the renewable energy future.
    In Colorado, as you have seen over the last couple of days, 
we chose to lead. I ran on a platform of achieving 100 percent 
renewable energy across our great state by 2040 because I know 
that that will preserve our way of life and grow our economy 
well into the future. This commitment was inspired and informed 
by the 14 towns and counties across our state that have also 
adopted the call of getting to 100 percent of their electricity 
from renewable energy by 2040, or in many cases even sooner.
    That is why my administration released our Roadmap to 100 
Percent Renewable Energy and Bold Climate Action. You have a 
copy of that in front of you as an exhibit. This Roadmap 
outlines how we will drive innovation and build Colorado's 
economy by continuing and growing our leadership in green 
energy development.
    We have taken significant strides during my first seven 
months in office to put us on the path to achieving this bold 
goal. But the truth is that through price reductions and 
technological advances, the shift towards renewable energy is 
already happening, and that is good news.
    The Bureau of Labor Statistics reports that the two fastest 
growing jobs in the United States right now are wind turbine 
technicians and solar panel installers. In Colorado, our 
largest utility, Xcel Energy, announced last fall that they 
would retire 660 megawatts of coal a decade early and replace 
it with more than 1,800 megawatts of wind, solar, and battery 
storage. In doing so, they estimate over $200 million in 
savings for customers with no impact on reliability.
    This effort is just a piece of Xcel's broader commitment to 
reduce emissions 80 percent by 2030 and produce 100 percent 
carbon-free electricity by 2050, a commitment that our state 
legislature, working with us, codified in statute this past 
spring.
    Other electric providers across Colorado--Holy Cross 
Energy, Platte River Power Authority, and a number of other 
rural electric cooperatives--have also followed suit, and 
Colorado is proud to have the very first municipal utility in 
the entire nation to have already achieved 100 percent 
renewable energy, the Aspen municipal utility.
    It is undeniable that companies see a profitable future in 
renewables, and given the dire stakes, it is our job as 
policymakers to accelerate the transition towards a cleaner, 
greener, more sustainable, and more affordable energy future.
    Let's take transportation, the nation's largest source of 
greenhouse gas emissions. My very first executive order set 
into motion the establishment of a Zero Emission Vehicle 
Center, an investment in electric charging infrastructure, to 
make it easier for consumers to choose electric vehicles.
    We also, for the grid, unlocked financing solutions, 
including securitization, to help reduce the cost of retiring 
coal-fired plants. We also passed Senate Bill 181 to put health 
and safety first and give local residents a say in what happens 
in their communities when it comes to oil and gas drilling 
operations, in addition to setting up a process to minimize 
fugitive emissions of methane and other pollutants from oil and 
gas activities.
    We don't have to choose between creating good jobs and 
saving our air, our water, and our way of life. We can and we 
must do both by growing our renewable energy sector.
    When it comes to renewable energy and climate action, I 
believe that Colorado has a lot to show the rest of the nation, 
and I have no doubt that we can take bold action at the Federal 
level as well. I was glad to see the House pass H.R. 9 to keep 
America in the Paris Climate Agreement, and I hope the Senate 
follows suit.
    The United States does not back down from a challenge. We 
are a nation of leaders, of doers, of dreamers. In America, we 
get to choose our own destiny. Thank you for allowing me to 
testify this morning, and I look forward to answering your 
questions.
    [The statement of Governor Polis follows:]
                              ----------                              


               Written Testimony of Governor Jared Polis

                          Governor of Colorado

              House Select Committee on the Climate Crisis

 ``Colorado's Roadmap for Clean Energy Action: Lessons from State and 
                            Local Leaders''

                             August 1, 2019

    Good morning, Chairwoman Castor, Ranking Member Graves, and the 
members of the House Select Committee. Thank you for the opportunity to 
testify in front of you all today here in the great State of Colorado 
for your committee's first field hearing.
    My name is Jared Polis and I serve as the 43rd governor of the 
State of Colorado, and as such I welcome you to our great state for 
this important Congressional field hearing. I was born and currently 
live here in Boulder, and before serving as Governor, I represented 
Boulder, Fort Collins and the rest of Colorado's 2nd District in the 
House of Representatives for a decade. I am proud to see our Colorado 
Representatives Neguse and DeGette here today protecting Coloradans by 
leading our nation's efforts to combat the climate crisis on the Select 
Committee.
    Today, I will provide an overview of Colorado's urgent efforts to-
date to achieve 100% renewable energy and bold climate action. It is my 
hope that other states and the federal government can draw lessons from 
Colorado to achieve substantial and permanent reductions in pollution 
and other activities that contribute to the climate crisis.
                  coloradans leading on climate action
    Since 2004, Colorado has been among the states leading the clean 
energy transition. Not only do we have a moral imperative to combat 
climate change to protect the health of our communities and our 
environment, we also have an economic opportunity to lead the global 
clean energy revolution.
    We have a choice: we can be a leader in renewable energy, or we can 
let other countries develop technologies, create the jobs, and reap the 
rewards of a renewable energy future. In Colorado, we have chosen to 
lead.
    Renewable Energy Standard: In 2004, Coloradans approved Amendment 
37, which established the first voter-approved state renewable energy 
standard, originally set at 10% by 2020 for our investor owned 
utilities. Subsequent legislation increased this to 30%.
    Clean Energy Utilities: Since 2004, the State's largest electric 
utility, Xcel Energy, has increased its renewable energy from zero to 
roughly 3,600 megawatts of wind and solar installed today. Part of this 
clean energy is supplied by almost 50,000 Coloradans that have solar 
installed on their rooftops. HB10-1365--the Clean Air Clean Jobs Act--
established a process to bring the state into compliance with federal 
Clean Air Act requirements by retiring, retrofitting, or repowering 900 
megawatts of coal-based power generation from Xcel's Colorado system. 
After recent state Public Utilities Commission (PUC) approval of the 
Colorado Energy Plan, Xcel plans to retire two more coal units a decade 
early and projects that by 2026, nearly 55% of the electricity it 
provides to customers will be from renewable resources. The Colorado 
Energy Plan was not driven by a legislative mandate, but rather by the 
remarkable reductions we have seen in the cost of wind and solar. 
Recent bids for new utility scale renewables have come in at about two 
cents per kwh for wind combined with battery storage and about 3 cents 
for solar--while simply operating existing legacy coal plants is over 4 
cents per kwh. A study released earlier this year by Vibrant Clean 
Energy concluded that Colorado could close every coal plant in the 
state, replace them primarily with new wind and solar, and dramatically 
reduce greenhouse gas emissions from electricity generation--all while 
saving ratepayers more than $2.5 BILLION and having a net increase in 
jobs.
    Utilities across the state are committing to an ambitious 
transition towards renewable energy because they know this is where the 
industry is headed--in Colorado and across the nation--and, they want 
to thrive as part of the 21st century, clean energy economy. We share 
that vision for the state. Xcel Energy has committed to an 80% 
reduction in emissions below 2005 levels by 2030 and is striving to 
reach 100% by 2050. We worked with Xcel and the legislature this spring 
to codify the goal of an 80% reduction by 2030 and create a pathway for 
approval of a plan by the state PUC. As part of the same bill, SB19-
236, Colorado now requires the use of a social cost of carbon in 
utility planning to make sure that we are considering the very real 
costs imposed by carbon pollution. This is an analytical framework that 
will allow us to more precisely consider all costs and better inform 
our decision-making when deciding on generating resources, as well as 
investments in energy efficiency, electric vehicle (EV) infrastructure, 
or beneficial electrification. SB 236 also, for the first time, brings 
our largest rural utility, Tri-State Generation and Transmission, into 
PUC jurisdiction of their electric resource planning. Tri-State 
recently announced intentions to develop a Responsible Energy Plan, 
designed to establish pathways to comply with the state's carbon 
reduction and renewable energy goals. We look forward to engaging with 
Tri-State in their planning processes and at the PUC to continue to 
progress to an affordable and reliable clean energy future. Other 
utilities across the state are also showing leadership. Holy Cross 
Energy, the electric utility for several mountain communities in 
central Colorado, recently adopted a goal of 70% renewable energy by 
2030 and now expects to achieve that goal 9 years ahead of schedule. 
Platte River Power Authority in Northern Colorado has also recently 
adopted an energy policy calling for a 100% zero carbon energy mix by 
2030.
    Clean Energy Local Action: Fourteen Colorado towns and counties 
have already taken the initiative and adopted the goal of getting 100% 
of their electricity from clean renewable energy: Denver, Pueblo, 
Boulder, Fort Collins, Summit County, Frisco, Aspen, Glenwood Springs, 
Breckenridge, Longmont, Lafayette, Nederland to Golden. These diverse 
communities know that protecting Colorado's way of life means doing our 
part to combat climate change, and that swiftly adopting renewable 
energy in our electricity sector and then extending the impact of that 
clean electricity across the economy will protect the health of our 
communities, create good-paying jobs, strengthen our economy, and keep 
rates low for customers. Our rural electric co-ops are also taking bold 
steps. In June 2019, Poudre Valley Rural Electric Association announced 
a new goal to provide 80% carbon-free energy to its members by 2030, 
joining three other electric coops in Colorado to establish a clean 
energy or carbon reduction goal. Delta Montrose Electric Association 
also recently announced an agreement to exit Tri-State in order to 
pursue higher levels of local, renewable energy generation.
    Clean Transportation: Colorado is also taking the lead on moving 
towards clean transportation. While electricity generation is our 
largest single source of emissions, transportation is a close second. 
And while electricity generation is already on a path towards deep 
emissions reductions, transportation is not. Added to this, cars and 
trucks are one of the two largest sources of ozone precursors, which 
contribute to smog on our front range. That is why Colorado has stepped 
up to support cleaner vehicles and transportation systems. But we need 
the federal government to step up too. The biggest single step that the 
federal government has taken on climate was adoption of federal clean 
car standards that will cut emissions per mile in half by 2025, while 
saving consumers hundreds of billions of dollars in fuel costs. In 
2017, a national consulting firm studied Colorado and concluded that a 
large-scale transition to EVs by 2050 would create a net savings of $43 
billion for Coloradans. Unfortunately, the current administration is 
trying to roll back these standards, despite near unanimous opposition 
even from the automobile industry.
    Last year, Colorado adopted Low Emission Vehicle standards, which 
will reduce emissions by over 2 million tons a year of carbon pollution 
compared to the proposed rollback--while saving our consumers hundreds 
of millions of dollars. We are also in the midst of considering 
adoption of zero emission vehicle (ZEV) standards, which will require 
automakers to make more EVs available to Colorado consumers.
    And, I am proud to announce that earlier this week, state agencies 
announced an agreement with the Alliance of Automobile Manufacturers 
and the Global Automobile Alliance, which together represent over 99% 
of the vehicle market in Colorado, to support a ZEV standard that works 
for the state and for the industry. The proposal will not only increase 
ZEV adoption and provide air quality benefits, but also will drive 
early ZEV adoption and ensure the automakers can implement the 
regulation efficiently. We are hopeful that this signifies a new era of 
common-sense cooperation between states and the automobile industry, 
working together to reduce emissions.
    This progress builds on the fact that Colorado already has the 
fourth highest EV market share in the nation. Some people may think of 
EVs as something we only see in coastal states or heavily urbanized 
states, but, in fact, the mountain west has emerged as an EV hotspot. 
Colorado, Utah, Nevada, and Arizona have consistently been in the top 
ten states for EV market share, and I am proud that the governors of 
every mountain west state--Arizona, New Mexico, Utah, Nevada, Wyoming, 
Idaho, Montana and Colorado--have joined together in an eight state 
Regional Electric Vehicle West Memorandum of Understanding, 
collectively committing to build fast charging along every interstate 
highway connecting our states. Colorado signed a contract with the 
company ChargePoint in April of this year, and by June 30, 2020, we 
should have 33 fast charging stations along major highway corridors. 
When combined with fast-charging stations planned by Electrify America, 
the program will provide fast-charging every 30-50 miles along 
Colorado's major transportation corridors.
    Colorado currently has the highest ZEV incentive of any state in 
the country ($5,000 per ZEV tax credit), which the legislature recently 
extended through 2025. Financial incentives are important to increasing 
ZEV sales and are a factor in Colorado having higher sales than all but 
three other states.
    Colorado is also building out a direct current fast charger network 
through the state's major corridors to address ``range anxiety'' 
allowing the use of EVs for longer trips.
    While Colorado is already developing robust electric charging 
infrastructure, we passed legislation this year that requires electric 
utilities to file transportation electrification plans with the PUC 
every three years starting in 2020 to further expand that 
infrastructure.
    The State is spending the maximum allowable amount of the 
Volkswagen Settlement funds on light-duty EV charging infrastructure 
(15% or $10.3 million), and an Executive Order I signed in January, 
directs State agencies to allocate all remaining Volkswagen Settlement 
funds to support vehicle electrification, including electric buses and 
school buses. In the executive order, I established a target of nearly 
a million EVs on the road in Colorado by 2030.
    Just as with electricity generation, technological advances in the 
transportation sector are making it possible for us to reduce emissions 
while saving money. Even with today's electric grid in Colorado, 
powered by nearly 25% renewable energy, it's far more efficient to 
drive electric vehicles powered by more efficient utility-scale power 
production than a distributed, small scale internal combustion engine. 
Our analysis shows that widespread electrification of our 
transportation system will save consumers money because of lower fuel 
costs, will drive down the cost of electricity because it makes the 
grid function more efficiently, and do all this while cleaning our air 
and achieving deep reductions in climate pollution.
    Move Towards Zero Emissions Buildings: While our electricity and 
transportation sectors are the top two sources of climate warming 
pollution, fuel use in buildings in our residential, commercial, and 
industrial sectors is not far behind and is an area where we need to 
make substantive progress. Achieving the state's emission reduction 
goals will require significant reductions in emissions in this sector. 
Integrating more energy efficiency with the expanded use of clean 
electricity as an alternative to burning fossil fuels in buildings 
could bring consumer cost savings, enhanced electric grid operations, 
and reduced emissions. This past spring, we passed HB19-1260, which 
requires that local jurisdictions adopt one of the three most recent 
versions of the International Energy Conservation Code, at a minimum, 
when updating any other building code. We are also working with local 
stakeholders to develop next generation building codes that address 
energy efficiency, building electrification, distributed renewables, 
and EV charging.
    Reducing Emissions from Oil and Gas Development: As we work to 
reduce the use of fossil fuels in our electricity, transportation and 
building sectors, we must also mitigate methane emissions from oil and 
gas extraction and the natural gas fuel cycle. In 2014, Colorado became 
the first state in the nation to enact regulations requiring oil and 
gas companies to detect and reduce methane emissions. Looking forward, 
as part of the passage of SB19-181 (historic oil and gas reform 
legislation that protects public safety, health, welfare, and the 
environment and reinforces local government's regulatory authority over 
the surface impacts of oil and gas development), the Air Quality 
Control Commission will soon be adopting additional rules to further 
minimize emission of methane and other pollutants from the oil and gas 
production process.
    Other Emissions Sources: As we look to the required emission 
reductions demanded by the latest available climate science, there is 
no single sector our strategy that will allow us to achieve our goals. 
In addition to the numerous progress and activity that I have already 
outlined, we must continue to convene diverse stakeholders to advance 
economic and environmental progress in other sectors, such as 
agriculture, waste management, and our industrial sector.
                         2019: a year of action
    The 2019 Legislative Session brimmed with incredible clean energy 
achievements and was arguably the most productive session in the 
history of this state on clean energy and climate action. We have 
adopted strong economy-wide targets, outlined in HB19-1261, for 
reducing greenhouse gas pollution, with goals of 50% reduction below 
2005 levels by 2030 and 90% by 2050, which will lead to coordinated 
action by the Air Quality Control Commission and other state agencies 
to implement measures to progress towards those goals.
    We have empowered the PUC to facilitate a rapid transition to 
renewable energy across the state that includes working with our 
largest utility to invest in renewable energy and reduce greenhouse gas 
pollution 80% by 2030. We're building a regulatory framework that will 
enable the PUC to work with our second-largest utility to transition 
from coal-fired power to cheaper, cleaner sources of energy.
    We are making it easier for individual Coloradans to participate in 
this work by expanding access to energy efficiency and community solar 
gardens. And, as we continue our work to clean up our electricity 
sector, Senate Bills 77 and 239 and House Bill 1159 will further 
support the electrification of our transportation sector.
    As I previously mentioned, we have put public safety, health, 
welfare, and the environment first in the oil and gas sector, and 
empowered local governments to make decisions about oil and gas 
operations. We are starting rulemaking to implement the direction of 
Senate Bill 181 to minimize methane and other emissions from oil and 
gas development.
    We have unlocked creative financing solutions to help reduce the 
cost of retiring coal-fired power plants and we will establish a Just 
Transition Office tasked with aligning and delivering programming and 
funding to communities and workers impacted by a transition away from 
coal-fired electricity, in addition to disproportionately impacted 
communities who have borne the costs of pollution.
    In addition, through Senate Bill 96, my administration and the 
legislature took steps to ensure a more consistent and robust tracking 
and reporting of Colorado's greenhouse gas emissions, which is 
foundational to effectively implementing a wide range of policies and 
programs designed to allow the state to cost-effectively meet its 
emission reduction goals.
    We have worked together combining shared values with incredibly 
diverse strengths to prioritize the future of our great state. We have 
proved that we can take bold, decisive action on climate and clean 
energy. This legislative session has put Colorado on the right path.
                     coloradans delivering results
    My Administration is inheriting and building upon many years of 
Colorado's clean energy leadership working to reduce greenhouse gas 
pollution, improve air quality, and save money for Coloradans.
    Shifting to clean energy has been an economic engine in Colorado. 
According to one analysis,\1\ Colorado has roughly 57,000 clean energy 
jobs including 34,342 Energy Efficiency jobs, 7,819 solar jobs, 7,320 
wind jobs, and 2,713 clean vehicle jobs.
---------------------------------------------------------------------------
    \1\ U.S. Energy and Employment Report 2019. Colorado. Last accessed 
on 7/29/19. https://static1.squarespace.com/static/
5a98cf80ec4eb7c5cd928c61/t/5c7f4096e79c70c65fe31745/1551843478412/
Colorado.pdf.
---------------------------------------------------------------------------
    In 2004, Colorado's electricity generation mix was 75% coal and 
roughly 25% natural gas. In 2017, the most recent year for which we 
have data, Colorado has 54% coal, 22% natural gas, and 20% renewable 
energy. That is a 20% increase in renewable energy and a 21% reduction 
in coal energy generation. During the same period, from 2004 to 2017, 
Colorado has seen a 13% decline in carbon emissions from electricity 
generation in the state.
    In 1990, electricity generation accounted for 43% of Colorado's 
greenhouse gas emissions. By 2015, the last year for which there is 
available data, electricity accounted for just 34% of the state's 
greenhouse gas emissions.
    In July, the Colorado Department of Public Health & Environment 
released the draft Greenhouse Gas Inventory 2019 Update.\2\ Colorado 
greenhouse gas emissions increased between 1990 and 2010 and decreased 
between 2010 and 2015. While we need to make much more progress to 
achieve our goals, we should also celebrate that this is the first time 
that the inventory shows a decline in emissions. Emissions are 
projected to continue decreasing, dropping below 2005 levels by 2030. 
Figure 1 shows a graphical summary of estimated Colorado greenhouse gas 
emissions by sector, including projections to 2020 and 2030.
---------------------------------------------------------------------------
    \2\ Colorado Department of Public Health & Environment. DRAFT 
Colorado Greenhouse Gas Inventory 2019. Last accessed on 7/29/19. 
https://drive.google.com/file/d/1120Ldxmec GTuf7uil9l6YmjOQonYOnxV/
view.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        roadmap to 100% renewable energy and bold climate action
    My administration is committed to pushing Colorado forward on the 
path to achieving 100% Renewable Energy by 2040. In June, when I signed 
seven climate and energy bills at a community solar garden, I released 
my administration's Roadmap to 100% Renewable Energy by 2040 and Bold 
Climate Action.\3\ This pledge is motivated by the moral imperative to 
fight climate change and curb pollution of our air and water and, as a 
governor of the great State of Colorado, to protect and preserve what 
is special to us here in the West.
---------------------------------------------------------------------------
    \3\ Office of the Governor of Colorado. Roadmap to 100% Renewable 
Energy by 2040 and Bold Climate Action. Last accessed on 7/29/19. 
https://drive.google.com/file/d/
0B7w3bkFgg92dMkpxY3VsNk5nVGZGOHJGRUV5VnJwQ1U4VWtF/view.
---------------------------------------------------------------------------
    The clean energy transition is also an opportunity to drive 
innovation and build Colorado's economy by continuing our leadership 
role in the green-energy economy. This transition is not just about 
jobs--the transition to cleaner electricity and transportation will 
help businesses and homeowners save money by switching to lower-cost, 
clean energy resources.
    The policies adopted in this legislative session provide the 
foundation for much higher levels of renewable energy integration, but 
additional strategies will be needed to get to 100% by 2040. Given the 
shift that is already underway in Colorado's electricity sector, it has 
never been more important than now to focus on reducing greenhouse gas 
emissions from other sectors in the state. It is going to take the 
perspective, expertise, and commitment from diverse voices across the 
state to forge a renewable energy future that works for all of 
Colorado.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Together, we can do our part to fight climate change, improve air 
quality and the health of our communities, diversify and strengthen our 
economy across the state, and ensure the good-paying jobs of the 
quickly growing green energy economy are created here in Colorado.
                    colorado--a model for the nation
    When it comes to clean energy action, I believe Colorado is a model 
for the nation. I have no doubt we can take bold action at the federal 
level as well.
    I was glad to see the House pass H.R. Bill 9 to keep America in the 
Paris Climate Agreement, and I urge the Senate to take it up. There is 
no economic or moral reason for the United States--the most powerful 
economy in the world--to stick our heads in the sand while 185 other 
countries lead the way on combating climate change and developing 
renewable energy.
    The United States is not a nation that backs down from a challenge. 
We are a nation of leaders, of doers, of dreamers. In America, we get 
to choose our own destiny.
    Thank you again for allowing me to testify this morning. I look 
forward to answering your questions.

    [Applause.]
    Chairwoman Castor. Thank you, Governor, for your impressive 
testimony and your bold action since you have taken office.
    At this time, I will recognize myself for 5 minutes to 
begin the questions.
    So, to prepare for this trip, I took a look at the state of 
Colorado's energy mix over the past decades, and what struck me 
is how quickly renewable energy from various sources have 
replaced coal, really just in the past 7 to 10 years. It has 
been a remarkable switch. You are not where you need to be, 
however.
    What lessons can we draw as we develop bold climate action 
plans and policies at the national level? What are the lessons 
that you think we should write into that national climate 
action plan? What has worked here? What was the impetus? Give 
us a little guidance on where we should go nationally.
    Governor Polis. The voters in our state showed a leadership 
role by passing a state renewable portfolio standard, and 
Colorado has exceeded that in recent years. We are at about 25 
percent renewable energy for the grid. We have a different mix 
of utilities, municipal providers and co-ops, and in some areas 
of the state it is even higher, and we know that we can do even 
more.
    At the same time that we have grown our renewable energy, 
we also have in the Xcel service area some of the lowest 
electricity rates in the nation for consumers and businesses. 
We have also incorporated friendly policies to support 
distributed solar energy, including making sure that the feed-
in rate is fair for people, and have allowed innovative 
financing mechanisms and leveraged Federal financing mechanisms 
like the PACE financing mechanism, which, if expanded to 
residential in an easier way, would further facilitate 
distributed solar.
    So we look forward to continuing to work with the Federal 
Government, as well as our mixture of utilities, to help get 
them to the next level of renewable energy.
    Chairwoman Castor. I listened very closely to the Ranking 
Member, and he is very intelligent on these issues. But one 
place where I tend to disagree with him and that your testimony 
raised is, as we transition to clean energy, it doesn't 
necessarily mean higher energy costs for our neighbors and for 
businesses. Would you expound on that point? Because in your 
testimony you said it has actually helped to lower electricity 
costs.
    Governor Polis. Yes, renewable energy is less expensive 
today. So coal-powered plants often produce energy at 20 or 30 
percent higher costs than renewable energy. It is really a 
question of how we can distribute those sunk costs that exist 
in the capitalization of coal into saving money with renewable 
energy. Technologies are improving, prices are going down. In 
the long run we don't only save money but we are also saving 
money that would have been used to recover from climate-related 
natural disasters and health issues caused by both poor air 
quality as well as climate change.
    So it has really been a matter of working with the various 
forms of utilities we have to accelerate the retirement of 
costly coal assets, to recognize savings for consumers sooner, 
and environmental benefits sooner.
    Chairwoman Castor. And government can't do this alone. Give 
us a few examples of the collaboration between the State of 
Colorado, local communities, and the private sector.
    Governor Polis. So, many of our local communities have led 
the way, and you will be hearing from some. But we have 14 
cities and counties across our state with even more aggressive 
goals for 100 percent renewable energy than the state as a 
whole. I mentioned that we have one municipal utility already 
at 100 percent. We have a second in Steamboat Springs that has 
announced their plans to get to 100 percent this year or early 
next year.
    And they found a partner in the state. So it is working 
with the local communities, the municipal providers, the rural 
electric coops, and of course through our regulatory authority 
at the Public Utilities Commission, our investor-owned 
utilities, to help make sure that this transition benefits 
customers, benefits workers, and also leads to the quickest 
possible transition to clean energy.
    Chairwoman Castor. Thank you, Governor.
    At this time I recognize the Ranking Member for 5 minutes 
for questions.
    Mr. Graves. Thank you, Madam Chair.
    Governor, thanks again for being here. It is great to see 
you again.
    Yesterday we were at the National Renewable Energy Lab, 
just to give those folks a shout-out again. One of the efforts 
that they are working on right now is looking at how you 
position the wind turbines for renewable energy, both the 
configuration, the pitch and yaw of the blades, and everything 
else. They have been able to increase the energy generation by 
14 percent just by changing the angles. I mean, it is really 
impressive.
    You noted that the energy production costs from some 
renewables is cost competitive. When you look in a vacuum just 
at generation, one of the challenges we have is that you are 
going from these large-scale coal, gas, whatever-fired energy 
plants to perhaps distributed facilities by having a wind farm 
over here and having a solar farm over here. The cost of 
generation is one thing, but we have to fundamentally rethink 
our electric grid.
    How do we do that? I mean, the cost of that potentially is 
going to dwarf the cost of building some of the renewable 
energy facilities. How do we address those costs of the grid 
infrastructure?
    Governor Polis. Well, firstly, I am thrilled that your 
committee was able to see some of our Federal dollars at work 
at the National Renewable Energy Laboratory (NREL) and other 
facilities, as well as university grants across the country. 
The Federal government is leading the way in cutting-edge 
research to improve the efficiency of renewable energy 
generation, as well as storage, which is the second part of the 
question.
    For a reliable grid, as we increasingly incorporate solar 
and wind energy, the exponential reductions in storage costs 
have an enormous boom. And often when utilities are pricing out 
solar and wind, they are adding in that storage component.
    So, in fact, in a recent RFP where Xcel priced out wind 
plus storage, it still came in at about 20 percent less than 
existing coal power, not to mention new coal power, which would 
cost even more. Nobody is building new coal. But wind plus 
storage to ensure reliability of the grid priced out at a 
better cost.
    So those technologies continue to improve. We appreciate 
the investment not only of NREL but also of sources like ARPA-
E, which have invested in storage technology companies, 
including some here in Colorado, and that is a very appropriate 
role for the Federal Government, to support the basic research 
that will help lead this transformation.
    Mr. Graves. I would love to continue working with you on 
the infrastructure side of it. I think it is an under-
appreciated component. But when you look at electrification of 
vehicles and other things, some estimate that (and I know that 
Colorado has been one of the leaders there) you are looking at 
a doubling or tripling of the capacity, the demand for 
electricity. Our existing grid simply can't handle it. It is 
not designed for this generation network. It is not designed 
for that volume or capacity of electricity.
    One other thing. In your testimony, you note that since 
2010 Colorado has doubled the renewable energy production here, 
and has quadrupled crude oil production here. If you look 
globally--and we have had witness after witness come before our 
committees that have talked about how just stopping oil and gas 
production does not in any way decrease demand, it just means 
that the production will come from somewhere else. And in 
talking to experts, things like trucks, rail, ships, the large 
ships, we don't have the technology today to be able to fuel 
those through renewable energy sources. The power is too great, 
so we don't have alternatives.
    So what role do you see the United States playing in 
recognizing that there is continued demand for conventional 
energy sources? What role do we play in that, recognizing, just 
like you noted, you all have been one of the leaders in 
reducing emissions, fugitive emissions from methane and others. 
As we are going to hear later, natural gas has actually been 
one of the leading causes of our emission reductions in the 
United States.
    How do we look at this globally and recognize some of the 
resources here, and use them appropriately?
    Governor Polis. First, on your previous question, I want to 
be clear. Electric vehicles and our plans to aggressively 
increase their use are also an important part of load balance 
and distributed storage. So they have benefits to the grid in 
terms of having more electric vehicles in use in terms of when 
and how they charge and/or store electricity in a distributed 
manner.
    Yes, we are leading the way in Colorado with our efforts 
around Senate Bill 181 to reduce emissions in our extraction 
industry. It takes additional steps to minimize emissions of 
methane and other pollutants from the oil and gas production 
process. In fact, the Federal methane rules were initially 
modeled after some of the work of my predecessor, John 
Hickenlooper.
    The new efforts that passed this legislative session, in 
addition to further protecting public safety, health, and 
welfare in the extraction industry, also reinforced the local 
government's authority over surface impacts of oil and gas 
development and helped create a better balance between the 
existing markets and the need to act on climate change.
    Chairwoman Castor. Thank you.
    Representative Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you, Madam Chair.
    Thank you, Governor.
    I also want to thank CU-Boulder. My parents are both CU 
buffs. They met and fell in love in their junior year, so I can 
say with absolute clarity that but for CU-Boulder, I would not 
be here today. [Laughter.]
    [Applause.]
    Mr. Casten. I want to thank you, Governor, for raising the 
point about the economics of clean energy, and I want to pick 
up on a conversation we had briefly last night. Anything you do 
meaningfully to lower the cost of energy and lower 
CO<INF>2</INF> are synonymous, because you can't lower 
CO<INF>2</INF> without burning less fuel, and fuel isn't free. 
And if anybody grapples with that, all you have to do is ask 
yourself if you have a solar panel on your roof, do you ever 
wake up in the morning and say, ``Boy, the price of electricity 
is down today, I should probably turn off my solar panel''? But 
at a coal plant, there is somebody whose job every day, 
sometimes multiple people whose job it is to say, ``What is the 
forward price of power, and does it make sense for me to run 
tomorrow?''
    We have seen in the last decade a steady reduction in the 
amount of power from coal because it is not economic, and it is 
being squeezed out by sources that are much cheaper to run. 
Now, that is an opportunity. There are some challenges within 
there, but one of the challenges that I really want to give you 
a chance to talk about is that in the regulated utility model, 
the way we electrify our whole country, utilities earn a return 
on their invested capital. If you retire an asset before you 
fully return the capital, you bring forward all the unamortized 
capital expense.
    So there are a number of utilities who, in thinking about 
whether they will retire an uneconomic asset that once it is 
retired will lower CO<INF>2</INF> emissions, that decision has 
the impact of increasing electric rates.
    You have done something really innovative here to address 
that problem, and I just would like you to tell us about it, 
and with the specific idea of if what you have done might be 
applicable to Federal policy.
    Governor Polis. Yes, and I would encourage you to look at 
additional Federal policies, including tax policies, that 
encourage financial innovation, because I think what you hit 
upon and is very true is that this is largely a matter that 
through innovative financial mechanisms we can solve. The clean 
energy is less expensive today. The question is how do you 
account for the stranded assets in costly coal and other forms 
of non-renewable energy.
    So in Colorado, we move forward with, now under new 
legislation, allowing for securitization of stranded assets. So 
effectively we can borrow against the future savings stream to 
accelerate the retirement of coal assets today, and to help 
fund a just transition for workers who work in coal-fired 
plants, and recognize savings for ratepayers sooner rather than 
later.
    Mr. Casten. Could we do that federally?
    Governor Polis. There could be Federal policies that 
facilitate states doing that, and we would be happy to look 
into what some of those might be and give you some 
recommendations.
    Mr. Casten. Thank you.
    The second question, and you know this all too well--and I 
take the point that while Americans have been leaders on a 
whole host of issues in climate, our Federal government not so 
much. We have seen cities and states step up to fill the 
leadership void as the Federal government has backed away. I 
was involved in setting up the Regional Greenhouse Gas 
Initiative in New England a decade ago. California, of course, 
followed with AB-32.
    Let's plan for success in this moment. Let's assume that 
the exceptional leadership on this panel is able to persuade 
our colleagues in Washington to finally take the kind of bold 
leadership that we need at the Federal level, and let's assume 
that once we do that we push a standard that is even more 
ambitious than what has been done in the states.
    As you have sat on both sides of this question, how should 
we be thinking about that in a way that expands on ambition but 
at the same time doesn't frustrate the fact that many people in 
the states have already made long-term commitments to reduce 
CO<INF>2</INF> or have binding contracts with renewable 
portfolio standards? How can we align that with state policy?
    Governor Polis. We hope that your hypothetical becomes 
reality, and we are celebrating the success of your committee's 
initiatives sooner rather than later.
    Our challenge at the state level is not too different 
because we have many local jurisdictions within the state. So 
how do we make sure that we encourage and facilitate 
communities like Boulder and communities like Aspen and Summit 
County that have even more aggressive climate goals with local 
buy-in than the state and then work to make sure that the whole 
state moves along as well?
    It is really a matter of both. Of course, I hope that the 
Senate acts on House Resolution 9 with regard to rejoining the 
Paris Climate Accords. I hope that we set bold goals at the 
Federal level, as well as partner with states and communities 
who choose to pursue a renewable energy future even faster. So 
we really have the same issue in many ways at the state level, 
where we have over 14 communities with aggressive goals. We 
have a specific initiative to partner with them and help them 
achieve their goals for their area of jurisdiction, as well as 
making sure we bring along the rest of the state.
    Mr. Casten. Thank you.
    I yield back.
    Chairwoman Castor. Congressman Neguse, you are recognized 
for 5 minutes.
    Mr. Neguse. Thank you, Madam Chair.
    Thank you again, Governor, for being here today, for 
spending so much time with us, and for your testimony and your 
leadership.
    I also appreciate you recognizing the local leadership. One 
of the reasons that I advocated for the Select Committee to be 
located here for its first field hearing was because of the 14 
cities and towns across our state who have made this commitment 
to a bold, 100 percent renewable energy transition. So looking 
forward to their testimony as well, and I appreciate the 
exchange because I think there are already a number of 
different areas in which the committee, I suspect, will follow 
up, that this will be the beginning of a conversation, not the 
end, for regulatory reform, something that I know interests the 
Ranking Member and me as well in terms of modernization and so 
forth.
    I want to talk a little bit about the legislative session 
this past year. A lot of the conversations we are having right 
now in Washington are around the just transition and how do we 
make sure that folks who are working in conventional energy and 
fossil fuel production can transition to a stable job. My sense 
of it is that the legislature actually took some steps this 
past session on this front: House Bill 19-1314, Just Transition 
From Coal-Based Electrical Energy Economy (that you signed into 
law a few months ago). I am wondering if you can share some 
lessons learned from that particular piece of legislation, how 
it is being implemented, and perhaps takeaways that we can 
glean at the Federal level.
    Governor Polis. I believe that Colorado is the first state 
in the nation to formally establish an Office of Just 
Transition to take a look at all of the programs and funding 
within relevant state agencies specifically through the lens of 
supporting communities and workers that are impacted by a 
changing energy sector. There are enormous opportunities in 
clean and renewable energy. The challenge is how do we align 
those opportunities with people who work in the fossil fuel 
sector.
    We are convening broad perspectives to inform what kinds of 
programs and funding we should be doing to do right by 
Coloradans. There are workers with unique skills and expertise 
in energy. Many of that ports over to the clean energy economy 
or other fast-growing sectors, and we need to make sure that 
the workers are part of building our clean energy economy.
    We also have to look at the impact on communities that are 
disproportionately related to coal. For instance, in Craig, 
Colorado, the largest employer is the coal plant there. We want 
to make sure that we can create a future that works for Craig 
rather than keep our head in the sand and allow the larger 
economic forces to hurt not just the workers but continue to 
hurt the climate.
    Mr. Neguse. I appreciate that, Governor, and I think that 
might be an area in which we could follow up with your policy 
team in terms of replicating some of what you have done at the 
Federal level. Your point about there being immeasurable 
opportunities in the renewable energy sector is well stated and 
something we heard yesterday when we were touring one of the 
Federal labs in particular, just about the growth potential and 
a manufacturing facility that is being opened in Ohio, in the 
heartland of America, for solar built here in the United 
States, so a lot to follow up on that front.
    I want to also ask you about another bill that was passed 
this session, and that is Senate Bill 19-236, which you 
mentioned in your written testimony. This is around the social 
cost of carbon and ensuring that that is playing a role in 
utility planning at the Public Utilities Commission and the 
Department of Regulatory Agencies. I am curious if you can 
expound on the bill, the basis for the bill, the impetus for it 
and how it is being implemented, and whether it has had an 
impact yet in terms of the ERPs being filed by the regulated 
monopolies.
    Governor Polis. Sure. Again, first to further elaborate on 
your previous question, when you look at, for instance, areas 
that have high employment and coal power production, inevitably 
they lay along rail lines. So you look at what other types of 
opportunities in advanced manufacturing can have a sustainable 
competitive advantage because of the location, because of the 
availability and training of the workers, because of the access 
to rail for moving products.
    You mentioned the social cost of carbon. A traditional 
approach in any economics course taught here at the University 
of Colorado or other universities talks about economic 
externalities and how do you measure them, right? So the issue 
with coal power production is that the true cost of coal--
namely, the climate cost, air pollution cost--is not factored 
into the price that is received. So it is simply an effort at 
the state level to make sure that our regulators include the 
social cost of carbon, trying to account for the externalities 
of production through coal power.
    Mr. Neguse. I know my colleague, Representative Casten, is 
working on a bill similar to what Colorado has done, so we look 
forward to partnering on that front.
    Governor Polis. We would appreciate Federal examination of 
economic externalities, environmental and climate related, and 
using the social costs of carbon in evaluating those at the 
Federal level would be a big step forward.
    Mr. Neguse. Thank you. Thank you, Governor.
    I yield back the balance of my time.
    Chairwoman Castor. Thank you.
    Well, I am pleased to welcome my colleague from the Energy 
and Commerce Committee, who I have served with for a number of 
years, a real outspoken advocate for climate solutions. Thank 
you, Congresswoman DeGette, for coming over and joining us this 
morning. You are recognized for 5 minutes.
    Ms. DeGette. Thank you so much, Madam Chair, and thank you 
for letting me waive on to this committee.
    And thanks also to my wonderful and new colleague here from 
the 2nd Congressional District. I am really proud of him for 
being a member of the Select Committee.
    As the Chair said, I am a member of the House Energy and 
Commerce Committee with you, and the Natural Resources 
Committee with Congressman Graves and Congressman Neguse. These 
are the two committees that are going to be writing the 
legislation based on this committee's findings. So I was really 
honored to be asked to join you today, and I am very proud of 
our wonderful governor who I served with for many years in 
Congress, and I am glad you are here today because Colorado 
really is one of the national leaders in addressing climate 
change.
    I want to talk about one specific issue that we are 
grappling with, and that is Colorado's methane waste standards. 
You know, methane is the primary ingredient of natural gas, and 
as such, it is used to heat and provide electricity to tens of 
millions of American homes. But when methane is wasted in the 
environment, it is 80 times worse than carbon dioxide in its 
short-term impact on the climate.
    Now, Colorado has strong methane waste prevention rules, 
and the EPA and BLM emulated our rules under the Obama 
Administration. But now the Trump Administration is gutting the 
EPA and BLM methane rule. So I am working on legislation to 
pass the Methane Waste Prevention Act that reinstates this 
important rule at the national level.
    Governor, I am wondering if you can tell us how important 
it would be for Congress to enact strong methane waste 
prevention requirements at the national level to help 
supplement what Colorado is doing.
    Governor Polis. You know, the Methane Waste Prevention Act 
would reinstate the Methane Waste and Pollution Prevention 
Standards that were established by the BLM and EPA in 2016, in 
addition to requiring the Bureau of Land Management to issue 
new rules to further reduce the waste of natural gas from 
Federal leases and to enhance reporting requirements for new 
and existing wells.
    As you know, emissions of methane and other pollutants 
associated with fossil fuel development contribute to the 
threat of climate change, as well as air pollution, and also 
are a waste of valuable resources belonging to the American 
public. Congress should, at the very least, reinstate the 
standards established in 2016 that I would add are in many ways 
based on Colorado's first-in-the-nation emission rules. We are 
going further in Colorado with Senate Bill 181, which takes 
additional steps to minimize emission of methane and other 
pollutants from the oil and gas production process.
    Ms. DeGette. And has the implementation of those standards 
gone pretty smoothly?
    Governor Polis. Absolutely. Colorado continues to have 
strong growth in all economic sectors, and as I said, we are 
using that as a building block for additional efforts for 
methane reduction and other pollutant reduction with the new 
legislation that was passed this last session.
    Ms. DeGette. Thank you. One of the other issues that I have 
been reading about and is an interesting issue is trying to 
take carbon out of the atmosphere, and one of the ways we do 
that is actually through protecting national forests and other 
public lands.
    [Applause.]
    Ms. DeGette. And the Colorado Parks and Wildlife Department 
estimates that the total economic contribution of outdoor 
recreation is about $62 billion statewide, and it has created 
more than 500,000 jobs. Of course, it also protects forestry 
and other places that can really help with carbon reduction.
    I am wondering if you can talk for a minute about investing 
in sustainable economic drivers like outdoor recreation in 
places like Colorado.
    Governor Polis. So, we formed a Climate Cabinet, which is 
an interagency working group of all the agencies working on 
climate, not just the agencies you might expect like the 
Department of Energy and Transportation, but Department of 
Agriculture and Department of Natural Resources, because you 
are absolutely right. Among the many reasons for protecting our 
public lands, of course, is that they are enormous economic 
drivers of jobs in Colorado, a big part of our quality of life 
and why we choose to live here, yet another purpose is carbon 
sequestration.
    Ms. DeGette. That is right.
    Governor Polis. It makes for healthy forests and healthy 
soil.
    Ms. DeGette. And as you know, Governor, Congressman Neguse 
and I have a set of companion bills. One of them used to be 
your bill when you were in Congress, the CORE Act. The other 
one is my Colorado Wilderness Act that, if passed together, 
these bills would protect about a million acres of Colorado 
wilderness and BLM and Forest Service land.
    Do you think we should be doing more in Colorado to protect 
our incredible outdoor recreation resources?
    Governor Polis. Yes. I would encourage the Committee on 
Natural Resources to continue their work on establishing 
additional wilderness areas both in Colorado as well as other 
areas of the country. The economic benefits to Colorado of our 
public lands, protecting the famed training grounds of the 10th 
Mountain Division in Camp Hale, and also as part of the overall 
climate solution with regard to sequestration.
    Ms. DeGette. Thank you so much.
    Thank you, Madam Chair.
    Chairwoman Castor. Well, thank you, Governor, for helping 
us kick off our first field hearing of the Select Committee on 
the Climate Crisis. How appropriate on Colorado Day. Thank you 
very much for your testimony. Thank you for your leadership. 
Keep up the good work.
    [Applause.]
    Chairwoman Castor. Now we will move to our second panel. We 
will give them a minute to come forward.
    [Pause.]
    Chairwoman Castor. Without objection, all witness 
statements are hereby entered into the record.
    Can we come to order, please? Let's have order in our 
committee room so we can get to our next panel.
    I would like to welcome some of our local leaders who are 
going to give us their expert testimony here, so let me 
introduce them to you.
    The Honorable Suzanne Jones is the Mayor of Boulder, 
Colorado, and has served as a member of the Boulder City 
Council since 2011. In addition to serving as mayor, she is 
also the Executive Director of Ecocycle, a community non-profit 
focused on recycling, composting, and other zero-waste efforts. 
Previously, Mayor Jones was the Central Rockies Regional 
Director at the Wilderness Society.
    The Honorable Wade Troxell is the Mayor of Fort Collins, 
Colorado. Mayor Troxell was elected in 2015 and is now serving 
his second term. In addition, he is an Associate Professor of 
Mechanical Engineering and the Director of the Center for 
Network Distributed Energy at Colorado State University.
    Mr. Cary Weiner is a state energy specialist at Colorado 
State University Extension and the Director of CSU's Rural 
Energy Center. Mr. Weiner helps Colorado residents make 
informed decisions about energy solutions. He conducts economic 
feasibility assessments for on-farm renewable energy and 
conducts community and local energy assessments.
    Mr. Chris Wright is the Chief Executive Officer of Liberty 
Oilfield Services. He is also the Executive Chairman of Liberty 
Resources. Previously, Mr. Wright served as the Chief Executive 
Officer of Pinnacle Technologies.
    And Ms. Heidi VanGenderen is the first Chief Sustainability 
Officer at the University of Colorado at Boulder. Previously, 
she was appointed by President Obama to serve as the Director 
of Public Engagement and External Affairs at the U.S. 
Department of Energy. She has also served as a senior advisor 
on climate change and energy for former Colorado Governor Bill 
Ritter, where she helped develop Colorado's first Climate 
Action Plan.
    [Applause.]
    Chairwoman Castor. Welcome to all of our witnesses.
    [Applause.]
    Chairwoman Castor. Mayor Jones, you are now recognized for 
a 5-minute presentation.

 STATEMENTS OF SUZANNE JONES, MAYOR OF BOULDER, COLORADO; WADE 
TROXELL, MAYOR OF FORT COLLINS, COLORADO; CARY WEINER, DIRECTOR 
   OF COLORADO STATE UNIVERSITY'S RURAL ENERGY CENTER; CHRIS 
 WRIGHT, CEO OF LIBERTY OILFIELD SERVICES; HEIDI VANGENDEREN, 
  CHIEF SUSTAINABILITY OFFICER FOR THE UNIVERSITY OF COLORADO 
                            BOULDER

                   STATEMENT OF SUZANNE JONES

    Ms. Jones. Chair Castor, Ranking Member Graves, and 
distinguished members of this Select Committee, thank you so 
much for coming to Boulder for this opportunity to testify.
    I am Suzanne Jones, Mayor of Boulder, and I am honored to 
share this panel with my esteemed colleague to discuss our 
climate accomplishments and talk about galvanizing a clean 
energy future.
    Like most cities, we are passionate about our community and 
its future, but already climate change is taking a toll. 
Temperatures in Colorado have risen significantly. The number 
of days over 95 degrees has doubled since 2000 and is on pace 
to double again. In the past 20 years we have had four costly 
wildfires in the Boulder area, and floods in 2013 caused 
extensive damage across Boulder County and some $4 billion of 
damage in the State of Colorado.
    So, we anticipate continued drastic changes to our 
environment, economy, and way of life unless we, at all levels 
of government and across all sectors, act decisively now. First 
we must quickly transition to 100 percent renewable energy. At 
the same time, we must electrify all aspects of our lives, from 
heating our buildings to powering our transportation, and we 
know these actions will result in significant benefits beyond 
just emission reductions. If we remove air pollutants, we save 
on health care costs. When we stabilize utility costs, we can 
pass those savings on to households; and, of course, we are 
creating more jobs and new technologies. So we should seize the 
power, the economic potential of this transition.
    And we have already begun this work. Here in Boulder, we 
have been leading on climate action in numerous ways. With 
repeated direction from our voters, we are actively exploring 
the creation of a city-run and community-owned electric utility 
so we have more control of our energy future. We co-developed 
the National Energy Advising Model, with 18,000 participating 
homes and businesses. We are now saving millions of kilowatt 
hours per year.
    We developed an aggressive building code, resulting in more 
than half of our newly-built homes in recent years being net 
zero. We have one of the highest per capita rates of solar 
energy in the country, with 39 megawatts currently installed in 
homes and businesses.
    We co-founded a 28-member coalition of Colorado cities and 
counties called the Colorado Communities for Climate Action, or 
CC4CA, and together we are successfully advocating for climate 
action at the state legislature.
    Also, using compost and other regenerative agricultural 
techniques, we are implementing state-of-the-art carbon 
sequestration efforts designed to pull carbon out of the 
atmosphere while also improving soil health and agricultural 
productivity. And we have reduced greenhouse gas emissions 16 
percent even as our population and economy grew.
    While we are very proud of these accomplishments, we have 
so much more to do, and we have some lessons to share that we 
have learned along the way.
    First off, we need systemic change. Choosing a low-emission 
lifestyle must be easy, appealing, and make financial sense. We 
cannot continue to rely on voluntary behavior change alone. 
Systemic change means reimagining the underpinning laws, 
infrastructure, and economy of our entire energy system.
    Second, this must be a just transition. As we discussed, it 
must involve fossil fuel-dependent communities. It also needs 
to address vulnerable populations who are particularly impacted 
by declining air quality, rising food and energy costs, and 
extreme weather events. So racial and economic equity must be 
at the center of all climate work.
    [Applause.]
    Ms. Jones. Third, we need new robust financial tools for 
climate adaptation projects that balance up-front costs with 
the long-term benefits.
    Fourth, despite our successes, progress has been too slow. 
Not only must we address additional sectors such as material 
management to reduce waste and create circular economies, we 
also know that carbon capture and sequestration is now 
essential.
    Finally, the scale of the climate crisis demands decisive 
state and Federal action. As discussed, the city is thrilled 
that we have a dozen new climate and energy laws in the State 
of Colorado, and we are proud to have participated in their 
creation and passage, but we need more. Moving forward, the 
city joins CC4CA in advocating for implementing the Colorado 
Climate Plan, increasing consumer energy choice, strengthening 
oversight of oil and gas drilling, including upholding local 
drilling regulations and moratoria, and other efforts to limit 
global temperature rise.
    And at the Federal level, we support efforts to achieve 
systemic, long-term emission reductions and promote the clean 
energy transition, including leveling the playing field for all 
energy sources, making substantial investment in clean energy 
infrastructure, including advanced grids, battery storage, and 
EV charging. We support expanding fuel efficiency and emission 
standards for both light and heavy-duty vehicles, pricing 
carbon emissions through a carbon tax or a cap and trade 
program, and finally expanding support for healthy soil and 
carbon sequestration efforts.
    Let me end by expressing my deep appreciation to the 
committee for elevating the urgency of the climate crisis. 
Throughout our nation's history, the Federal government has 
from time to time stepped up to major environmental crises. 
Whether it was the Dust Bowl, whether it was the burning of the 
Cuyahoga River, whether it was the hole in the ozone, we have 
done it before and we need to do it again. It is really time 
for Federal action to help harness our country's innovation and 
address this existential crisis. And if we do so and do so 
quickly, we will realize lasting benefits to our environment, 
public health, and our economy.
    So let's be bolder, as we say here. [Laughter.]
    Ms. Jones. And on behalf of the Boulder community, thank 
you so much for this opportunity, and I look forward to your 
questions.
    [The statement of Ms. Jones follows:]
                               __________

                       Testimony of Suzanne Jones

                    Mayor, City of Boulder, Colorado

  U.S. House of Representatives Select Committee on the Climate Crisis

                             August 1, 2019

                              introduction
    Chair Castor, Ranking Member Graves and distinguished members of 
this select committee, good morning. Thank you for the opportunity to 
testify today before the Select Committee on the Climate Crisis on the 
subject, ``Colorado's Roadmap for Clean Energy Action: Lessons from 
State and Local Leaders.''
    I am Suzanne Jones, Mayor of Boulder, Colorado. I want to welcome 
you to our great city and thank you for holding your first field 
hearing here. As leaders in local climate action, the Boulder community 
is honored to discuss our accomplishments, challenges and ideas for 
addressing the climate crisis with you and the American people.
    Today, I'd like to share Boulder's perspective on the importance of 
climate and clean energy action at the local level--and the urgent need 
for equivalent leadership and action at the federal level. 
Specifically, I will describe the urgent threats our communities face, 
the opportunities and benefits of responsive actions, a brief overview 
of Boulder's environmental and climate legacy that has given us decades 
of lessons learned, and my thoughts on the path forward to achieving 
our carbon-free energy and climate goals.
    As I will emphasize, this path forward must include all of us, at 
all levels of government, acting decisively and urgently to combat the 
existential threats posed by climate change and achieve a cleaner, 
healthier and more just energy system.
                              the threats
    Boulder is a community that embraces innovation and seeks answers 
to hard problems, with our national labs, vibrant start-ups, large 
manufacturing companies and Colorado's flagship university, the 
University of Colorado. We are blessed to call this place home, and 
like so many communities across the country, we are passionate about 
protecting and preserving it for future generations.
    There is global recognition and consensus that the climate is 
changing and will continue to change. It is now just a question of how 
much, when and whether catastrophic impacts can be avoided. In Boulder, 
the urgent threat of climate change is challenging our ability to 
ensure that our city remains a safe and vibrant place to live. Boulder 
has already experienced a range of climate-related impacts, including 
temperature and weather extremes, increased wildfire and drought, 
species disruptions and air quality concerns.
    Since 1983, average temperatures in Colorado have risen more than 2 
Fahrenheit and are continuing to warm, with Colorado experiencing some 
of the fastest-warming summers in the United States. We are seeing more 
destructive wildfires, more severe droughts and changing precipitation 
patterns. We have had four costly wildfires and a major flood in the 
past 20 years alone.
    The 2010 Fourmile Canyon fire burned 6,200 acres and was the most 
destructive wildfire in Boulder County's history, burning hundreds of 
homes. The September 2013 flood swept away roads, bridges and homes 
across Boulder County, and the 2013 floods across Colorado caused 
nearly $4 billion in damage. Climate scientists have found that the 
severe effects of the 2013 flood were enhanced by human-caused climate 
change. And due to milder winters, the mountain pine beetle has 
decimated more than four million acres of forest across the state.
    There are also significant economic threats to consider, as the 
cost of adapting to climate change will be substantial. In Boulder 
County alone, analysts conservatively estimate \1\ at least $100 to 150 
million of additional, non-disaster costs to taxpayers between now and 
2050 as a result of the need to adapt to increased threats from 
wildfires, heat waves and extreme weather. Specifically:
---------------------------------------------------------------------------
    \1\ Chinowsky, Paul S. The Impact of Climate Change: Project 
Adaptation Costs for Boulder County, Colorado (2018) https://
assets.bouldercounty.org/wp-content/uploads/2018/04/resilient-
analytics-report-impacts-of-climate-change-boulder-county-colorado.pdf.
---------------------------------------------------------------------------
    <bullet> The projected damage from wildfires will increase by 
almost 50% from 2020 to 2050. Mitigation efforts to prevent additional 
property damage to privately-owned homes alone are projected to total 
upwards of $20 million.
    <bullet> Increasing temperatures will impact public health costs 
due to extreme heat events and extended growing seasons, with potential 
increases in allergy and asthma symptoms.
    <bullet> More intense, short-duration precipitation events will 
impact urban drainage systems, increasing the likelihood of localized 
flooding.
    <bullet> The projected annual road maintenance cost per mile of 
road could increase from $650 per mile historically to $1,130 per mile 
by 2030 due to increased damages from higher temperatures and changes 
in precipitation and flooding events.
    <bullet> Projected improvements to Boulder County bridges could 
exceed $68 million.
    <bullet> Government-owned buildings in Boulder County will 
experience a cumulative increase in cooling costs of 31-45% by 2030 
with an increase of 54-75% by 2050.
    Such estimates do not include the additional emergency response and 
recovery costs of future natural disasters, which we know will come. 
Climate change will likely also impact macro-level factors such as food 
prices, economic stability and increased risk of contagious vector-
borne diseases. Simply put, cities can't afford the extreme weather 
events and climate change impacts that scientists are predicting and 
that we have already begun to experience.
    Further, many in our communities are at a disproportionately 
greater risk to the effects of climate change. Seniors, children and 
people with lower incomes are particularly impacted by the cost of 
recovering from events, declining air quality and rising energy and 
food costs.
    In short, without significantly drawing down carbon from the 
atmosphere, we anticipate continued drastic and possibly catastrophic 
changes in our environment, economy and way of life.
                           the opportunities
    Though the threats from climate change are daunting and the rapid 
shift to a carbon-free energy system will be challenging, we are 
presented with a real opportunity for Boulder and other cities to 
strengthen our communities and improve quality of life through the 
process of climate mitigation and adaptation.
    Based on the most recent Intergovernmental Panel on Climate Change 
(IPCC) report \2\, leading cities across the country and the world are 
quickly mobilizing to respond to the accelerated sense of urgency 
combined with the magnitude of carbon reductions needed. In Boulder and 
elsewhere, achieving the 1.5+C temperature goal will require:
---------------------------------------------------------------------------
    \2\ IPCC, 2018: Summary for Policymakers. In: Global Warming of 
1.5+C. An IPCC Special Report on the impacts of global warming of 1.5+C 
above pre-industrial levels and related global greenhouse gas emission 
pathways, in the context of strengthening the global response to the 
threat of climate change, sustainable development, and efforts to 
eradicate poverty. https://www.ipcc.ch/sr15/chapter/summary-for-policy-
makers/.
---------------------------------------------------------------------------
          <bullet> Rapidly shifting to a carbon-free energy system;
          <bullet> Accelerating existing greenhouse gas (GHG) reduction 
        goals to the goal of achieving net zero emissions;
          <bullet> Developing carbon sequestration/negative carbon 
        strategies; and
          <bullet> Focusing beyond community boundaries in setting 
        goals and tracking progress to achieve systems-level change.
    From an emissions perspective, our energy system--from how we power 
our homes and businesses, to how we get around--is the single-greatest 
opportunity to draw down carbon. We know that we need to rapidly shift 
to a carbon-free energy system, and we're not alone. Many localities 
have announced 100% clean energy or renewables goals, and momentum is 
building. In Colorado alone, Boulder is joined by 11 other cities and 
counties that have made community-wide commitments to transition to 
100% clean, renewable energy no later than 2050, some as soon as 2030.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Rapidly transitioning to an energy system that runs on 100% 
renewable energy means quickly ending the use of fossil fuels. Our 
energy future will run on the abundant and increasingly cheap renewable 
resources like the wind, water and the sun, laying the foundation for 
the electrification of all our energy needs, including heating and 
mobility. And at the same time, we must increase the energy efficiency 
of homes, businesses and other buildings, and adopt the widespread use 
of batteries to store the energy from renewables.
    This transition provides a chance to improve many aspects of our 
everyday lives. It will remove pollutants from the air we breathe 
inside and out of our homes, reducing healthcare costs for individuals 
and whole communities. It will also provide significant savings to 
customers, further protecting the most vulnerable to rising utility 
costs. In Colorado, new wind energy plus storage is becoming cheaper 
than energy from the state's existing coal plants, and new solar and 
wind is cheaper than 75% of the state's coal energy. As our state 
lawmakers have said recently, renewable energy is not the 
``alternative'' any longer. It has become the cheapest power available, 
including solar plus storage for three cents per kilowatt-hour. 
Furthermore, we know there is plenty more wind and solar that is ready 
for development in our state, as evidenced by the many low-cost 
renewable bids still left on the table after Xcel's recent Electric 
Resource Plan.
    While making this transition, we can also create an energy system 
that is more responsive, resilient and equitable. In fact, 
transitioning to a carbon-free resilient energy system is a priority in 
Boulder's Resilience Strategy, which guides our preparedness for--and 
ability to respond to--future challenges. Building on lessons learned 
as one of the inaugural cities participating in the 100 Resilient 
Cities program, this plan recognizes that we need a grid that's better 
prepared for the weather disruptions that will become more common in a 
warmer climate, such as stronger wind and heavier snow storms that can 
damage power lines. As we transition more of our energy use to carbon-
free electricity, it will become even more important to protect our 
grid from disruptions that will harm our quality of life, limit our 
economic production and threaten our critical infrastructure and 
emergency response capability.
    We also can't overlook the tools nature already provides for carbon 
reduction. We see important opportunities in using public and private 
land to sequester the carbon that's already in our atmosphere. In 2018, 
the City of Boulder and Boulder County jointly launched soil-based 
carbon sequestration initiatives. These efforts use demonstrated 
techniques such as the Marin Carbon Farming project's application of 
compost to rangelands. We are also experimenting with new and emerging 
strategies, such as innovative tillage, enhanced soil health practices 
and other regenerative agricultural techniques, to accelerate carbon 
drawdown and enhance local ecosystem productivity. When fully 
implemented, we believe these approaches could conservatively sequester 
10% to 20% of local emissions. They also provide significant 
agricultural and ecosystem benefits such as increased resistance to 
drought and extreme weather events.
    Finally, we have a chance to seize the economic potential of 
guiding this transition. We can train new work forces to power our 
energy future and invent new technologies than can be deployed in 
cities across the globe. For instance, through 2018, every dollar the 
city invested in residential energy efficiency rebates leveraged about 
$9.73 in private investment--local investments that ripple through our 
economy. In Boulder, we are increasingly seeing this challenge before 
us as an opportunity to make our community healthier, more prosperous 
and more resilient, and we will realize these benefits the sooner we 
take them.
               boulder's environmental and climate legacy
    The city's long legacy of environmental protection and climate 
action demonstrates that we are not starting from square one. We've 
been working on this topic for several decades and have success stories 
and challenges to share.
    Over the last century, Boulder has consistently served as a 
destination for individuals defined by their creative and innovative 
spirit, originating some of the most progressive policies in the United 
States. Our history of anticipating change and enacting forward-
thinking environmental policies dates back to at least 1898 with the 
public acquisition of mountain open space. In 1967, Boulder was the 
first municipality in the country to tax itself for the purpose of 
acquiring open space, of which we now have over 45,000 acres. Since the 
1990s, Boulder's transportation planning has been focused on reducing 
environmental impacts by reducing vehicle trips, expanding the network 
of our transit, cycling and pedestrian systems and integrating with 
land use planning to create walkable neighborhoods.
    In the early 2000s, Boulder's environmental consciousness turned to 
climate action. With our large concentration of scientists, many of 
whom have contributed to several IPCC reports, and an active 
constituency of environmentalists and outdoor enthusiasts, our 
community demanded that we take aggressive actions related to climate 
change. In 2002, Boulder City Council adopted a resolution to commit to 
the Kyoto Protocol goal, at a time when the federal government refused 
to sign on.
    In 2006, the city and concerned community members published a 
comprehensive Climate Action Plan that addressed energy, buildings, 
transportation, waste and natural environment impacts. The plan was 
most recently updated in 2017 and includes the following specific 
targets:

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    The Boulder community has also voted on multiple occasions to tax 
itself to pay for climate programs and services. The city's 2006 per-
kilowatt tax collected on electric utility bills became the country's 
first tax dedicated to addressing climate change, and it continues to 
fund our climate work today. Residents also voted to levy a trash tax 
that funds the city's zero waste efforts and a Utility Occupation Tax 
that funds the city's analysis of creating a local electric utility.
Accomplishments of Boulder's Climate Programs and Partnerships
    Since 2006, the city has been at the forefront of innovation in 
leading the energy transition, and through its strong partnerships with 
key public and private organizations such as Boulder County and the 
University of Colorado, Boulder continues to design new programs and 
approaches that have been replicated across Colorado.
    In partnership with Boulder County, the city developed a national 
model for delivering energy-advising services that has helped more than 
18,000 households and businesses in Boulder County implement energy 
efficiency and renewable energy improvements. Their participation in 
the EnergySmart and Partners for a Clean Environment (PACE) programs 
save 16 million kilowatt hours per year.
    Moving beyond voluntary programs, the city enacted an energy code 
for new buildings that is among the most stringent nationally, with the 
goal of achieving net zero building codes by 2031. In the past few 
years, more than half of newly constructed homes in Boulder have 
achieved a net-zero impact. The city also requires rating, reporting 
and energy efficiency requirements that reduce energy use and improve 
the quality of Boulder's existing commercial and industrial building 
stock. Participating buildings have reduced their energy use by 3% from 
2015 through 2018.
    The city also mandated minimum energy performance standards for 
rental units, called SmartRegs. Through the eight-year compliance 
timeline, over 22,000 rental units, or approximately 96% of licensed 
rental units, achieved compliance with the requirements.
    Boulder County has one of the highest adoption rate of electric 
vehicles in the state, in part by partnering with Boulder County on 
group bulk purchasing programs to lower the price for consumers. Called 
``Benefits Boulder County,'' this program also included e-bikes and 
rooftop solar.
    Boulder has achieved one of highest rates of installed solar 
capacity per capita in the United States, earning recognition as a 
Platinum-level Solar Friendly Community from the Colorado Solar and 
Storage Association, with 39 megawatts currently installed on homes and 
businesses. The city's programs support widespread solar adoption in 
the community, including a partnership with a local credit union to 
provide low-interest loans on energy-efficient and solar upgrades and 
the city's Solar Grants and Rebates program, which provides financing 
for solar power installations at homes, businesses and facilities, 
bringing solar to more income levels.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    One of the most impactful initiatives we have undertaken, in 
partnership with Boulder County, is the creation of Colorado 
Communities for Climate Action (CC4CA), a coalition of cities and 
counties across Colorado that advocate together for climate-friendly 
policies. With a current membership of 28 cities and counties, CC4CA 
represents a significant portion of the state's population and has 
already experienced significant success in influencing meaningful 
climate policy at the state legislature and state agencies.
    Finally, one of the city's most high-profile climate projects is 
municipalization, the city's effort to explore the creation of a 
community-owned, city-run electric utility that would bring clean, 
local, affordable and reliable electricity to Boulder electric 
customers. When Boulder residents first voted to explore 
municipalization in 2011, it was clear that Boulder needed to 
drastically reduce its emissions from the electricity generation sector 
in order to meet the city's GHG reduction targets. Since then, our 
community has voted several times to fund our municipalization 
exploration process. The city's analysis to date demonstrates that 
local electric utilities can better reflect the values of the 
communities they serve and have the flexibility to offer services like 
microgrids that will prepare their communities for the impacts of 
climate change. Boulder has learned a lot from Colorado's 29 other 
municipal electric utilities and is actively sharing lessons learned 
from this effort with other cities considering municipalization, such 
as Pueblo, Colorado.
    Through these actions, and through the addition of renewable 
resources by our current electricity provider, Boulder achieved its 
2020 GHG emissions reduction target of 16% below 2005 levels in 2017--
three years early--even as our community saw growth in population, jobs 
and economic activity. Achieving this reduction is largely attributable 
to two key factors: mitigating the increase in demand associated with 
population and economic growth through strong building codes and 
incentive-based efficiency programs, and reduced grid emissions due to 
state-level utility renewable energy standards and deployment of local 
solar.
    Now, in recognition of the challenges ahead, the city and county 
recently declared a ``Climate Emergency.'' This declaration comes as 
the city kicks-off a new process to mobilize city residents and 
businesses to do everything within our grasp to tackle the climate 
crisis. It's not just up to city and county governments alone to 
address the local causes and impacts of climate change--we need our 
entire community's participation, too. I believe the Boulder community 
is up to the task.
        lessons learned in the transition to carbon-free energy
    I am proud of Boulder's accomplishments and the progress our 
community has made in transitioning toward carbon-free energy, reducing 
our emissions and planning for a resilient future. We also know that we 
still have a long way to go and have learned many lessons along the 
way.
Need for Systemic Change
    Many efficiency and GHG reduction strategies that communities have 
implemented rely on voluntary, individual behavior change. While 
Boulder has seen success with these programs, they also have 
limitations. Incentives-based efficiency programs such as rebates and 
energy advising tend to influence a resident or business to choose a 
better technology when they are already considering an improvement 
project, but they are generally insufficient in motivating someone to 
undertake a project they were not otherwise considering. Mechanisms 
such as toll roads and high-occupancy vehicle lanes create some 
behavior change; yet, a key challenge is ensuring persistence of the 
change. Over time, behaviors tend to revert to what is easier or more 
convenient. Systemic change, to the point where the good choice is the 
only choice, or at least the easiest and simplest choice, is the only 
way to ensure persistent behavior change. And systemic change is not 
something Boulder--or any city--can do alone.
Just Transition Must Be at the Center of All Programs and Policies
    We have found that participation in voluntary, incentives-based 
programs tends to be limited to more affluent residents and businesses, 
leaving a significant portion of the community underserved, including 
renters and lower-income residents. Regulatory approaches, such as 
Boulder's energy codes and performance standards for buildings, must 
balance the amount of savings that can be achieved against creating 
undue financial burden for residents or businesses. The cost of 
converting an existing building from gas to electric, especially in 
older buildings that may lack the needed electrical infrastructure, is 
a significant financial burden and raises significant equity concerns.
    As a community, we need to ensure that all our buildings and 
systems remain resilient as the climate continues to change; that every 
community member prospers, remains healthy and can enjoy a good quality 
of life; and that our economy remains strong. Equity and resilience 
must be the foundation of our path forward.
Current Financial Mechanisms Are Inadequate
    Due to the need to balance the financial burden of regulation with 
the intended goals, regulatory approaches such as building codes tend 
to be limited to lower-cost, short-payback upgrades. Cities do not 
control or have enough resources to direct or manage the enormous 
changes in infrastructure needed to transition to a carbon-free energy 
economy on their own. New, robust financial mechanisms are needed to 
achieve deeper savings. Resilience will need to be a growing priority 
for public investment, and equity must be central to all planning and 
deployment to avoid continued adverse impacts to our most vulnerable 
communities.
Our Progress Has Not Been Fast Enough
    Perhaps our greatest lesson learned is that our progress, while 
substantial and ahead of schedule, has not been fast enough. Our 
existing public and private sector commitments are insufficient to 
stabilize climate, and energy-related emissions reductions will not 
alone achieve climate stabilization. The IPCC report tells us that 
carbon recapture is now essential if we are to avoid the worst of 
predicted climate impacts. In addition, we know that other significant 
warming factors beyond energy and transportation must also be 
addressed, for example, by pursuing regenerative agriculture practices 
and a circular approach to materials use that prioritizes reducing, 
reusing and recycling and composting.
Solutions Must Be Replicable
    Given that local action alone won't come close to adequately 
addressing climate change, Boulder has worked hard to coordinate and 
lead initiatives that can be replicated in other communities. Our city 
participates in several global and national coalitions, including the 
Urban Sustainability Directors' Network, Carbon Neutral Cities 
Alliance, the Under 2 Coalition and the Mayors' Compact. These efforts 
allow Boulder to interface with other cities, learning and sharing best 
practices. We've learned that our actions are most effective when they 
are replicable for other communities.
                  the path forward at the local level
    Urgent, large-scale change is needed at all levels and in all 
sectors of society, with cities continuing to play a critical role in 
the path forward. In terms of making this transition, we largely know 
what needs to happen.
    Half of Boulder's current GHG emissions continue to come from 
electricity generation and use, making continued investment in solar 
and wind power a high priority. Recognizing the central role of clean 
electricity, Boulder will continue to take innovative actions to make 
this transition. We are committed to 100% renewable electricity by 
2030, 100 megawatts of local generation by 2030, and emissions 
reductions aligned with or more aggressive than the State of Colorado's 
goal of 80% emissions goal by 2050. I expect that cities across the 
country will continue to join in making similar commitments.
    Investing in enough renewable energy to supply our current 
electricity demands is an essential step. But to fully transition to 
carbon-free energy, we need to quickly shift away from natural gas and 
petroleum and electrify all aspects of our daily lives: how we heat our 
buildings, produce hot water and power our vehicles and transit system. 
Boulder was one of the first cities in the nation to launch efforts to 
develop strategies to rapidly electrify homes. Through these efforts, 
we have also helped organize a consortium of over 20 leading cities in 
the U.S. to form the ``Building Electrification Initiative.'' This 
initiative is developing a technical assistance, policy development and 
implementation platform to accelerate building electrification 
nationwide.
    It is important to recognize, however, that this transition will 
require significant investment. The cost to electrify all 18,000 
single-family houses in Boulder will alone require approximately $700 
million. A critical task facing policy makers is the development of 
mechanisms to enable large-scale capital investments that reduce the 
upfront costs for these household investments and enable long-term 
repayment as part of improved household benefits--reduced costs, 
improved safety and greater resilience to climate impacts.
    At the same time, the city has taken a leading role in 
transportation electrification. The city is currently working on 
electrifying our fleet of 18 local buses and mapping the strategy for 
the broader electrification of transit. Again, this will require 
significant investment. For Boulder's local bus line alone, 
electrification will cost nearly $20 million. The much broader 
electrification of delivery vehicles, ride-hailing services and other 
fleets will require much greater investment across both public and 
private sectors.
    However, switching from fossil energy to electricity in 
transportation and buildings also holds tremendous potential to 
dramatically increase grid flexibility, reduce total household and 
business energy costs, and reduce air pollution and GHG emissions--a 
concept called ``beneficial electrification.'' A recent analysis in 
California found that designing new all-electric homes reduces building 
costs by $1,500-6,000 and reduces homeowner utility bills by $4,000-
10,000 over 20 years. The retrofit of existing homes to high-efficiency 
heat pumps also provides much-needed cooling in climates that 
previously did not need air conditioning. Heat pumps also significantly 
improve indoor air quality and reduce the incidence of respiratory 
health conditions, particularly in children, the elderly and other 
vulnerable populations such as pregnant women.
    There are similar and, in some cases, even greater economic 
opportunities in transportation electrification. In a recent analysis, 
Boulder-based Southwest Energy Efficiency Project (SWEEP) estimated 
that due to the higher efficiencies, lower maintenance costs, avoided 
carbon impacts and improved health outcomes, transitioning to electric 
transportation in Arizona would result in cumulative net financial 
benefits of $3.8-32 billion by 2050, depending on how quickly it is 
implemented. At a household level, electric vehicle adoption could 
result in the costs of personal vehicle use dropping by 50% or more.
    building an inclusive and transformative climate action strategy
    Recognizing that achieving changes of this magnitude will require 
the involvement of the entire community, Boulder is also embarking on a 
renewed climate commitment--our Climate Mobilization Action Plan--which 
will accelerate our targets and identify actions that will produce the 
greatest impact in reducing and capturing emissions.
    Key to this new plan is a renewed focus on systems-level change and 
the formation a new network of climate collaborators. Action at this 
scale will require new types of partnerships with a range of public, 
private, academic and non-governmental entities. It will require 
accelerating innovation, as the rate of change now taking place--both 
in the pace and impacts of climate change and in technology, social 
perspectives and policy--requires new models of rapid development, 
implementation and modification of climate action strategies. It will 
also require grounding actions in local benefits, designing strategies 
that deliver tangible, local quality-of-life benefits while 
contributing to emissions reductions.
    Cities have in many ways been on the leading edge of this work. We 
have helped pioneer big steps in energy efficiency and fostering the 
development of more renewable power. But we know we have more to do. 
Cities must continue their push for more sustainable building policies, 
take greater steps to tackle transportation emissions and better track 
progress to know which investments have the greatest impact. With our 
innovation, ingenuity and resolve, we can build prosperous and 
equitable low-carbon communities.
             the critical role of state and federal action
    Even with the growing engagement of cities, however, the scale of 
the climate crisis is far too great for local or even regional 
collaborations to solve the climate crisis on their own. While we 
believe our goals are achievable, statewide, national and global steps 
are essential for us to meet the demands of this challenge.
    As you heard from Governor Polis, during the 2019 Colorado 
legislative session more than a dozen new climate and energy bills were 
signed into law, arguably making this session the most impactful yet in 
Colorado's efforts to address the climate crisis. The city is very 
appreciative of these actions and is proud to have played a role in 
their creation and passage.
    These new bills cover an array of issues, including: regulating 
emissions from the major sectors; oversight of electric-generating 
companies; how companies must factor climate change into their 
decision-making; and new regulations on how oil and gas drilling is 
governed in the state. While the design and implementation of these new 
policies will be critical to their success, we expect that Boulder's 
efforts will be significantly supported and bolstered by this 
legislation.
    Continued leadership and action at the state level is essential, 
and Boulder will continue to serve as an active member of CC4CA to 
reach the coalition's goals of:
          <bullet> Supporting actions to implement the 2025 GHG 
        reduction goals identified in the Colorado Climate Plan, as 
        well as more aggressive goals necessary to limit the increase 
        in the global average temperature to well below 2+C above 
        preindustrial levels, and to pursue an increase of no more than 
        1.5+C;
          <bullet> Increasing consumer energy choice and innovation; 
        and
          <bullet> Supporting improvements to the Colorado Oil and Gas 
        Conservation Commission's oversight of drilling and 
        preservation of local control to adopt regulations, moratoriums 
        or other limits as necessary.
    At the federal level, we support a suite of policies and 
legislation to achieve deep, long-term reductions in GHG emissions and 
the transition to carbon-free energy, including:
          <bullet> Expanded use of regulatory mechanisms to create a 
        level playing field for all energy technologies and energy 
        sources, by adequately incorporating the full environmental 
        costs and benefits of different energy strategies;
          <bullet> Continued and expanded investment in clean energy 
        infrastructure, including advanced grids, battery storage and 
        electrical vehicle charging;
          <bullet> Continued and expanded fuel efficiency and emissions 
        standards for the entire transportation sector, including both 
        light-duty and heavy-duty vehicles;
          <bullet> Market-based programs that put a price on carbon 
        emissions, such as a carbon tax or cap-and-trade program, which 
        require emission reductions but let the private sector 
        determine the most cost-effective way to achieve them (for 
        example, House Resolution 763, the Energy Innovation and Carbon 
        Dividend Act of 2019);
          <bullet> Expanded support for carbon sequestration efforts, 
        particularly programs that support innovation and adoption of 
        carbon sequestration in the agricultural sector; and
          <bullet> Expanded use of the Natural Resources Conservation 
        Service to support regional-scale land management that improves 
        community resilience to climate change.
                             call to action
    Though the challenges of addressing climate change may seem 
daunting, our collective response is an enormous opportunity. If we 
work together across all levels of government and all sectors, we can 
strengthen our economies, improve community health, protect our 
vulnerable populations and strengthen our resilience.
    I want to express my deep appreciation for the select committee's 
leadership in elevating the urgency of the climate crisis. The federal 
government was essential in enacting solutions to past large-scale 
environmental crises--from the Dust Bowl to toxic pollution that 
poisoned our waters and air. It is now time, again, for a clear vision 
at the federal level that harnesses the innovation in our country and 
galvanizes action to tackle the existential climate crisis facing us. 
In so doing, we can realize the enormous benefits to the environment, 
public health and the economy that we can have today and for future 
generations.
    As I conclude my remarks today, I want to recognize that Boulder is 
not alone in its efforts. Communities worldwide are stepping up to the 
challenge of reducing their GHG pollution and are pressing other levels 
of government and the private sector to do much more to combat climate 
change. We are proud to collaborate closely with so many leading 
regional and global cities working to achieve carbon neutrality, which 
will engender greater economic prosperity, social equity, enhanced 
quality of life and climate resilience for the people and businesses in 
our communities. We are also deeply honored to work closely with our 
peer communities in Colorado, our close colleagues at Boulder County, 
the University of Colorado and federal agencies on such an important 
and defining issue.
    On behalf of the Boulder community, thank you for inviting me to 
testify today. I look forward to answering any questions you may have.

    Chairwoman Castor. Thank you, Mayor.
    Mayor Troxell, you are recognized for 5 minutes.

                   STATEMENT OF WADE TROXELL

    Mr. Troxell. Thank you to Chair Castor and Ranking Member 
Graves for the opportunity to address the Select Committee on 
the Climate Crisis. Thank you to Representative Neguse for 
hosting this hearing in the great State of Colorado on Colorado 
Day.
    My name is Wade Troxell, and I am the Mayor of Fort 
Collins. This is where I was born, raised, went to school and 
have my career, and now I have the honor of serving as Mayor.
    Fort Collins is a mid-sized city of 172,000 people. We are 
the fourth largest city in the State of Colorado. We are home 
to Colorado State University, with a strong, diverse economy 
and a deep commitment to innovation, resilience, and 
excellence. For context, Fort Collins was a community of 20,000 
people when I was born and is now 8.5 times that size, and it 
is even better, more dynamic and forward-thinking. We like to 
think that we punch above our weight class as a city, and our 
collaborative approach to climate action is just one example.
    Fort Collins has one of the most aggressive climate action 
plans and will celebrate 20 years of climate action this fall, 
including our unanimously adopted goals by City Council in 
March 2015 to reduce community carbon emissions 20 percent by 
2020, 80 percent by 2030, and achieve carbon neutrality by 
2050. We set these goals because it makes financial, social, 
and environmental sense for our community.
    Fort Collins is a ``plan and do'' city. While aspirational 
goals are important, what differentiates Fort Collins is that 
we have translated these goals into action-oriented, pragmatic, 
cost-effective solutions that benefit all in our community. For 
example, energy efficiency programs through our municipal 
electric utility and Platte River Power Authority are saving 
businesses almost $10 million annually from improved 
efficiencies, and their employees are more comfortable and 
productive. Efficiency and solar programs generated in excess 
of $40 million in local economic benefits last year while 
supporting over 200 jobs.
    Our climate economy strategy, along with our collaborative 
approach, has been a key to our progress, and I would like to 
share some examples.
    Platte River Power Authority and its four owner 
communities, including Fort Collins, has led the way with a 
resource diversification policy calling for 100 percent non-
carbon energy mix by 2030. Our community has committed to 100 
percent renewable electricity by 2030 as well, as have a number 
of our large local businesses, many of which are technology 
businesses. We can transition to a clean and resilient electric 
infrastructure while achieving affordability, reliability, and 
stewardship. Near-term utility-scale investments will result in 
more than 50 percent of our electricity in the coming years 
coming from non-carbon sources with, importantly, a neutral 
bill impact on our customers.
    Our ground-breaking Regional Wasteshed partnership with 
Larimer County and other municipal jurisdictions in northern 
Colorado looks towards a circular economy where waste is looked 
at as a beneficial resource. A master plan has been developed 
with new wasteshed diversion facilities, and supporting 
policies were developed to help us achieve our waste diversion 
goals.
    We are also a leader, along with Boulder, with 27 
communities in Colorado partnering to advocate state and 
Federal policy in a coalition called the Colorado Communities 
for Climate Action. This group helped pass over a dozen bills 
in the state legislature this past year.
    These efforts and investments have led to significant 
results for Fort Collins. We have seen net reductions in our 
emissions and reduced per capita emissions 34 percent since 
2005 while our population and economy have continued to grow.
    With this being said, some challenges can best be addressed 
at the state and Federal level. I offer the following for your 
consideration.
    One, encourage goal setting at all levels. Setting 
ambitious goals can help establish community direction, ensures 
accountability, and it spurs innovation.
    Two, recognize the climate economy. Scalable integration 
technologies will come from our private sector partners.
    Three, recognize the value of renewable energy solutions at 
multiple levels and at multiple scales. Systems thinking and 
integration must overlay these initiatives while vertically 
integrating with end-use prosumers. Fort Collins collaborates 
with industry and research partners, such as Colorado State 
University and the GridWise Alliance, to transform and 
modernize the grid to meet the rapidly transforming electric 
utility industry.
    With a convergence of electric and transportation systems, 
continue our investments in multi-modal and electric 
infrastructure. Thanks to Federal investments, Fort Collins has 
doubled its transit ridership in the past four years because of 
MAX, our Bus Rapid Transit system, and we will be adding seven 
electric buses to the system in the near future. In partnership 
with the Electrification Coalition, we now have electric 
charging stations at most of our large employers throughout the 
city and within our municipal parking structures.
    We need to encourage innovation. Fort Collins is currently 
featured in the Smithsonian exhibit at the U.S. Museum of 
American History as a place of invention. Fort Collins was one 
of nine award winners of the 2018 Bloomberg Philanthropies U.S. 
Mayors Challenge, and the associated $1 million prize has gone 
towards our innovative Epic program that provides for healthy 
and equitable benefits for low-to-moderate income renters by 
improving their energy efficiency with on-bill financing of 
rental homes.
    In conclusion, Fort Collins is uniquely positioned to 
demonstrate how carbon neutrality can be achieved to benefit 
all residents and businesses in an action-oriented, reasonable 
approach. I look forward to our discussion and your questions.
    [The statement of Mr. Troxell follows:]
                               __________

               Select Committee on Climate Crisis Hearing

                             August 1, 2019

                     Mayor Wade Troxell's Testimony

    Thank you to Committee Chair Kathy Castor and Ranking Member Graves 
for the opportunity to address the Select Committee on the Climate 
Crisis. Thank you to Representative Neguse for hosting this hearing in 
the great state of Colorado. My name is Wade Troxell and I am the Mayor 
of Fort Collins, where I was born, raised, went to school and have my 
career, and now have the honor of serving as Mayor.
    Fort Collins is a mid-sized city of 172,000 people, home to 
Colorado State University, with a strong, diverse economy and a deep 
commitment to innovation, resilience and excellence. As evidence, Fort 
Collins is a 2017 Malcolm Baldrige Award Winner recognized for an 
unceasing drive for radical innovation, thoughtful leadership, and 
operational excellence.
    For context, Fort Collins was a community of 20,000 people when I 
was born and is now 8\1/2\ times that size and it's even better, more 
dynamic and forward-thinking. We like to think that we ``punch above 
our weight class'' as a city, and our collaborative approach to climate 
action is just one example of that. Fort Collins has one of the most 
aggressive climate action plans and will celebrate 20 years of climate 
action this fall, including our unanimously adopted goals by City 
Council in March 2015 to reduce community carbon emissions 20% by 2020, 
80% by 2030 and achieve carbon neutrality by 2050. We set these goals 
because it makes financial, social, and environmental sense for our 
community.
    Fort Collins is a ``plan and do'' City. While aspirational goals 
are important, what differentiates Fort Collins is that we've 
translated these goals into action-oriented, pragmatic, cost-effective 
solutions that benefit all in our community, such as energy efficiency. 
Programs though our municipal electric distribution utility and Platte 
River Power Authority are saving businesses almost $10 million annually 
from improved efficiencies and their employees are more comfortable and 
productive as additional benefits. Efficiency and solar programs 
generated in excess of $40 million in local economic benefits last 
year, while supporting over 200 jobs.
    Our ``Climate Economy'' strategy, along with our collaborative 
approach, has been a key to our progress, and I'd like to share some 
examples:
    Platte River Power Authority and its four owner communities 
including Fort Collins have led the way with a resource diversification 
policy calling for 100 percent non-carbon energy mix by 2030. Our 
community also committed to 100% renewable electricity by 2030, as have 
a number of our large local businesses. We can transition to clean and 
resilient electric infrastructure while optimizing affordability, 
reliability, and stewardship. Near-term Utility-scale investments will 
result in more than 50% of our electricity coming from non-carbon 
sources with, importantly, a neutral bill impact on our customers.
    Our ground-breaking Regional Wasteshed partnership with Larimer 
County and other municipal jurisdictions looks at waste as a beneficial 
resource. A master plan was developed for new wasteshed diversion 
facilities and supporting policies were developed to help us achieve 
our waste diversion goals.
    We're also one of 27 communities in Colorado to partner on state 
and federal policy advocacy via a local government coalition, the 
Colorado Communities for Climate Action. This group helped pass over a 
dozen bills in the legislature this past session.
    These efforts and investments have led to significant results for 
Fort Collins--we've seen net reductions in our emissions, and reduced 
per capita emissions 34% since 2005, all while our population and 
economy have continued to grow.
    With this being said, some challenges can best be solved at the 
state and federal level, and we are excited to continue a partnership 
with the federal government on innovative efforts to address climate 
action.
    I would like to offer the following considerations for the 
committee:
    1. Encourage goal setting at all levels: Setting ambitious goals 
can help establish community direction, ensures accountability, and it 
spurs innovation.
    2. Recognize the ``Climate Economy'': Fort Collins is leading the 
way with its focus on the ``Climate Economy'', which we define as a 
strong, stable and innovative economy based on lower carbon solutions 
and infrastructure. Scalable integration technologies will come from 
our private sector partners.
    3. Recognize the value of renewable energy solutions at multiple 
scales: Utility-scale investments, distributed energy resources, and 
energy storage solutions, are all critical to the transition to clean 
energy systems. Systems-thinking and integration must overlay these 
initiatives while vertically integrating with end-use ``prosumers''. 
Consequently, Fort Collins collaborates with industry and research 
partners, such as Colorado State University Energy Institute and the 
GridWise Alliance, to transform and modernize the grid to meet the 
rapidly transforming electric utility industry.
    4. With a convergence of electric and transportation systems, 
continue investments in multi-modal and electric vehicle 
infrastructure: Thanks to federal investments, Fort Collins has doubled 
its transit ridership in the past four years because of MAX, our Bus 
Rapid Transit system, and we'll add seven electric buses in the next 
four years. In partnership with the Electrification Coalition, we now 
have electric charging stations at most of our large employers 
throughout the city and in municipal parking structures. We are 
advocating for statewide zero emission vehicle standards because that 
will bring public health benefits and improved electric vehicle choices 
to Coloradoans.
    5. Encourage innovation: Last year, Fort Collins was one of 9 award 
winners of the 2018 Bloomberg Philanthropies U.S. Mayors Challenge and 
the associated $1 million prize for its innovative Epic Homes program 
that provides health and equity benefits for low-to-moderate income 
renters by improving the energy efficiency of rental homes.
    In conclusion, Fort Collins is a wonderful community and is only 
getting better. Fort Collins is uniquely positioned to demonstrate how 
carbon neutrality can be achieved to benefit all residents and 
businesses through equitable solutions. Like the Fort Collins I grew up 
in, we continue to enjoy the quality of life that we intend to enhance 
and preserve for future generations. As past president of the Colorado 
Municipal League, I am reminded of the words of Frederick G. Bonfils: 
`` 'Tis a Privilege to Live in Colorado''. I look forward to our 
discussion and your questions.
    Attachments:
    Energy Policy 2018 Annual Update Infographic is available at: 
https://www.fcgov.com/utilities//img/site_specific/uploads/2018-energy-
policy-infographic-final.pdf?1563291213.
    Climate Action 2017 Annual Update Infographic is available at: 
https://www.fcgov.com/climateaction/files/fort-collins-2017-climate-
action-plan-update-report.pdf?1537204021.

    Chairwoman Castor. Thank you, Mayor.
    Mr. Weiner, you are recognized for 5 minutes.

                    STATEMENT OF CARY WEINER

    Mr. Weiner. Thank you. Thank you, Madam Chair, Ranking 
Member Graves, and committee members. Thank you for providing 
me with an opportunity to speak with you here today.
    I have been the State Energy Specialist for Colorado State 
University Extension for the last nine years and served as 
Director of Colorado State University's Rural Energy Center for 
the last seven. I have also worked as Renewable Energy Planner 
for the City of Santa Fe, New Mexico. In these roles, I have 
implemented sustainable energy measures and consulted with a 
variety of stakeholders on sustainable energy. My testimony 
today represents my own views as a specialist in the field.
    In my experience, I have found that both utility-scale 
clean energy development and community-based, collaborative 
approaches to sustainable energy are key to maximizing benefits 
to rural areas. Driven by our mission of empowering Coloradans, 
CSU Extension's work has focused on the community-based, 
collaborative framework which I will highlight through two 
examples.
    First, we have conducted community energy assessments for 
several small towns in Colorado. These assessments provide 
local leaders with snapshots of funding and technical 
assistance opportunities available to them that align with 
their needs and goals. We have done these assessments in farm 
towns, in mountain towns, and now even in a coal town. Some 
communities are motivated by climate change, while others just 
want to save money for their taxpayers.
    In Buena Vista, a small but growing town in central 
Colorado, we engaged the local Chamber of Commerce, realtors, 
non-profits, energy contractors, and utilities in our 
assessment process. Two of our main recommendations were to 
switch to more efficient lighting in town buildings and to 
install electric vehicle charging stations near the downtown 
area. In doing the lighting retrofits, the town hired a local 
contractor, took advantage of rebates from its rural electric 
cooperative, and is saving an estimated $4,000 per year in 
taxpayer money. In installing the EV charging stations, the 
town took advantage of a Charge Ahead Colorado grant from the 
state, supplied residents and tourists with places to recharge, 
and may have increased business near the charging stations 
while EV drivers charge their cars.
    Turning to agriculture, CSU Extension has been the 
recipient of two USDA Rural Energy for America Program grants 
to conduct economic feasibility assessments for solar and wind 
at 60 farms across Colorado. The Rocky Mountain Farmers Union, 
Colorado Corn Growers, Colorado Energy Office, Colorado 
Department of Agriculture, and various rural electric 
cooperatives donated in-kind cost share to market the program 
statewide. Four of our participants have gone on to apply for 
REAP grants of their own to install solar projects, and two 
were successful. The Weis family out of Holyoke, Colorado, for 
example, installed a 15 kilowatt solar array that saves $1,500 
per year on electricity for pumping water. They should recoup 
their investment in about 10 years.
    What may seem to be modest energy savings for a given local 
government, farm, household, or business can add up to a 
strong, distributed network of environmental and economic 
benefits, along with a sense of independence for rural 
Colorado. The Garfield Clean Energy program, for example, has 
helped 340 businesses, 1,200 households, and 34 government 
facilities complete energy upgrades that have saved over $2.2 
million through an innovative partnership between local 
governments, a community college, and a non-profit in one of 
the top natural gas-producing counties in the state. The 
Colorado Energy Office and the Colorado Department of 
Agriculture have engaged numerous stakeholders through USDA's 
Regional Conservation Partnership Program to save over 1 
million kilowatt-hours and $100,000 across 200 farms in the 
state. And across the country, state Extension programs have 
formed the National Extension Energy Initiative to learn from 
one another how best to maximize impact in rural areas.
    The Federal Government can strengthen community-based, 
collaborative approaches to rural sustainable energy in a few 
ways. Waiving or reducing the Rural Energy for America 
Program's cost-share requirement for small business energy 
audits could help rural businesses benefit from energy savings 
and provide local jobs. Continuing the Regional Conservation 
Partnership Program and streamlining the Rural Energy Savings 
Program will strengthen cooperation to help rural areas save 
energy and money. And restarting the pilot USDA-USDOE State 
Extension Energy Partnership Program or otherwise supporting 
Extension's capacity to meet local energy needs would be 
welcome. With a presence in nearly every county in the country 
and trusted relationships with key stakeholders, I believe 
Extension is well-positioned to coordinate and catalyze 
community-based, collaborative rural energy solutions.
    Thank you again for this opportunity.
    [The statement of Mr. Weiner follows:]
                               __________

                        Testimony of Cary Weiner

                        State Energy Specialist

                  Colorado State University Extension

  U.S. House of Representatives Select Committee on the Climate Crisis

                             August 1, 2019

          Wittemyer Courtroom, University of Colorado--Boulder

    Madam Chair and committee members, thank you for providing me with 
an opportunity to speak with you here today. My name is Cary Weiner. I 
have been the State Energy Specialist for Colorado State University 
Extension for the last nine years and served as Director of Colorado 
State University's Rural Energy Center for the last seven. I have also 
worked as Renewable Energy Planner for the City of Santa Fe, New 
Mexico. In these roles, I have implemented sustainable energy measures 
and consulted with a variety of stakeholders on sustainable energy. My 
testimony today represents my own views as a specialist in the field.
    In my experience, I have found that both utility-scale clean energy 
development and community-based, collaborative approaches to 
sustainable energy are key to maximizing benefits to rural areas. 
Driven by our mission of empowering Coloradans, CSU Extension's work 
has focused on the community-based, collaborative framework which I'll 
highlight through two examples.
    First, we have conducted community energy assessments for several 
small towns in Colorado. These assessments provide local leaders with 
snapshots of funding and technical assistance opportunities available 
to them that align with their needs and goals. We have done these 
assessments in farm towns, in mountain towns, and now even in a coal 
town. Some communities are motivated by climate change while others 
just want to save money for their taxpayers.
    In Buena Vista, a small but growing town in central Colorado, we 
engaged the local Chamber of Commerce, realtors, non-profits, energy 
contractors, and utilities in our assessment process. Two of our main 
recommendations were to switch to more efficient lighting in town 
buildings and to install electric vehicle charging stations near the 
downtown area. In doing the lighting retrofits, the town hired a local 
contractor, took advantage of rebates from its rural electric 
cooperative, and is saving an estimated $4,000 per year in taxpayer 
money. In installing the EV charging stations, the town took advantage 
of a Charge Ahead Colorado grant from the state, supplied residents and 
tourists with places to recharge, and may have increased business near 
the charging stations while EV drivers charge their cars.
    Turning to agriculture, CSU Extension has been the recipient of two 
USDA Rural Energy for America Program grants to conduct economic 
feasibility assessments for solar and wind at 60 farms across Colorado. 
The Rocky Mountain Farmers Union, Colorado Corn Growers, Colorado 
Energy Office, Colorado Department of Agriculture, and various rural 
electric cooperatives donated in-kind cost share to market the program 
statewide. Four of our participants have gone on to apply for REAP 
grants of their own to install solar projects, and two were successful. 
The Weis family out of Holyoke, Colorado, for example, installed a 15 
kilowatt solar array that saves $1,500 per year on electricity for 
pumping water. They should recoup their investment in about 10 years.
    What may seem to be modest energy savings for a given local 
government, farm, household, or business can add up to a strong, 
distributed network of environmental and economic benefits along with a 
sense of independence for rural Colorado.\1\ The Garfield Clean Energy 
program, for example, has helped 340 businesses, 1,200 households, and 
34 government facilities complete energy upgrades through an innovative 
partnership between local governments, a community college, and a non-
profit in one of the top natural gas-producing counties in the 
state.\2\ The Colorado Energy Office and the Colorado Department of 
Agriculture have engaged numerous stakeholders through USDA's Regional 
Conservation Partnership Program to save over 1 million kilowatt-hours 
across 200 farms in the state. And across the country, state Extension 
programs have formed the National Extension Energy Initiative to learn 
from one another how best to maximize impact in rural areas.
---------------------------------------------------------------------------
    \1\ In a 2010 article in Energy Policy entitled `Putting Renewables 
and Energy Efficiency to Work', Wei and Kammen found that solar energy 
produces the most jobs per gigawatt-hour of energy generated (0.87), 
with landfill gas second (0.72) and energy efficiency third (0.38). 
Distributed solar and energy efficiency can typically be supported with 
local jobs and are often found in community-based, collaborative 
approaches to sustainable energy.
    \2\ Colorado Oil and Gas Conservation Commission: COGIS Database. 
Retrieved 7/29/2019 from https://cogcc.state.co.us/data.html#/cogis.
---------------------------------------------------------------------------
    The federal government can strengthen community-based, 
collaborative approaches to rural sustainable energy in a few ways. 
Waiving or reducing the Rural Energy for America Program's cost-share 
requirement for small business energy audits could help rural 
businesses benefit from energy savings and provide local jobs. 
Continuing the Regional Conservation Partnership Program and 
streamlining the Rural Energy Savings Program will strengthen 
cooperation to help rural areas save energy and money. And restarting 
the pilot USDA-USDOE State Extension Energy Partnership Program or 
otherwise supporting Extension's capacity to meet local energy needs 
would be welcome. With a presence in nearly every county in the country 
and trusted relationships with key stakeholders, I believe Extension is 
well-positioned to coordinate and catalyze community-based, 
collaborative rural energy solutions.\3\
---------------------------------------------------------------------------
    \3\ Colorado State University Extension has for over 100 years 
acted as an impartial consultant to the public on issues such as 
agriculture, natural resources, community development, and youth 
development. The Food & Agriculture Act of 1977 expanded Extension's 
scope to provide information to the public on renewable energy, and the 
Biomass Energy and Alcohol Fuels Act of 1980 expanded our scope to 
include work on rural energy. According to a 2016 article in the 
Journal of Extension entitled `Opportunities for and Barriers to 
Renewable Energy Outreach in Extension', Thomas and Brain found that 26 
states now have centralized or distinct Extension energy programs.
---------------------------------------------------------------------------
 appendix: extension's current and potential role in sustainable energy

   (Excerpts from `National Energy Education Needs and Priorities: A 
Roadmap for the Cooperative Extension System' by the National Extension 
                    Energy Initiative, January 2018)

    The National Extension Energy Initiative (NEEI) represents the 
primary energy professionals within the Cooperative Extension System 
(CES) from more than 30 states. NEEI is well positioned to assess and 
prioritize energy education needs that can best be addressed by CES 
educators/agents (with community-based education and applied research). 
NEEI leverages the CES network at the state, regional (multistate) and 
national levels by sharing expertise and fostering collective responses 
to a range of topics, including: energy development, energy efficiency, 
and renewable energy for urban and rural communities. Members of this 
professional affiliation group meet regularly via conference calls, 
webinars and annually at the National Extension Energy Summit. NEEI 
also seeks to partner with other organizations and agencies (e.g., USDA 
and DOE) with the goal of increasing the integration of CES education 
and research with collaborators. Areas of potential partnership 
include:
          <bullet> Residential/citizen education on energy efficiency 
        and conservation.
          <bullet> Assistance to community organizations, local 
        governments and public facilities with planning, priority-
        setting, and collaborative educational programming.
          <bullet> Rural, on-farm, agricultural energy conservation/
        efficiency/independence, energy audits and applied research on 
        energy consumption and evaluating alternatives.
          <bullet> Small business development, including planning and 
        tools for evaluating energy needs.
          <bullet> Collaboration with State Energy Offices (SEOs) and 
        State Energy Programs (SEPs).
    CES has the ability to offer national experts, each with specific 
areas of expertise on a range of energy issues, problems and needs. 
Furthermore, our community energy education programs involve Extension 
educators who work closely with consumers, businesses, utilities and 
local government to develop and implement new sustainable energy 
practices. An important strength of CES is to meet unique needs with 
education and research at a local-community scale. CES also has 
developed educational materials and publications, core curriculum, and 
uniform outreach strategies that are often shared nationally within the 
land-grant university network and with other agencies and stakeholder 
groups.

    Chairwoman Castor. Terrific. Thank you very much.
    Mr. Wright, you are recognized for 5 minutes.

                   STATEMENT OF CHRIS WRIGHT

    Mr. Wright. Thank you. Chairwoman Castor, Ranking Member 
Graves, and committee members, my name is Chris Wright. I am 
the CEO of Liberty Oilfield Services, a high-tech hydraulic 
fracturing services company headquartered in Denver, Colorado. 
It is an honor and a privilege to be here today.
    The climate change issue is intimately tied to energy, the 
field that I have spent my life in. I specifically attended MIT 
to work on fusion energy. In graduate school at UC Berkeley, I 
worked on solar energy. After graduate school, I became an 
energy technology entrepreneur working in both geothermal 
energy and oil and gas.
    Climate change is global, and hence the solution must be 
global. In the quest to reduce greenhouse gas emissions, we 
must be thoughtful. A rational global approach must balance 
climate mitigation, economic growth, energy access, and, most 
importantly, human well-being.
    Energy matters. A lot. Throughout human history, global 
life expectancy was 30 to 35 years. But in the last 200 years, 
global life expectancy has doubled, to 72 years. Extreme 
poverty has dropped from 90 percent of humanity to 10 percent 
and falling. The growth in human liberty and the dramatic 
increase in available energy are likely the two main catalysts 
for this tremendous progress.
    Unfortunately, we still have a billion people in the world 
without electricity and 2 to 3 billion that still cook in the 
deadly fashion that our ancestors did: burning wood or charcoal 
indoors in open stoves, which kills 4 million people annually, 
per the World Health Organization. Liquid petroleum gas, or 
LPG, is by far the most common, clean, and safe replacement 
cooking fuel that also saves women more than an hour a day not 
spent collecting wood or dung for cooking fuel. Energy poverty 
is the world's greatest challenge.
    As my background shows, I am for any and all energy sources 
as long as they are reliable, clean, and affordable, with the 
power to lift humans up. The enormous annual growth in global 
energy demand is driven predominantly by folks rising out of 
poverty, aspiring to lives like ours.
    The U.S. shale revolution is aiding the poor abroad and at 
home via much cheaper energy, with annual consumer savings over 
$1 trillion. It has also driven natural gas to become the 
number-one source of electricity in the U.S., which helps clean 
our air and drives CO<INF>2</INF> emissions per person down to 
a 50-year low.
    Global gas-powered electricity is also surging, displacing 
coal generation and pushing down emissions. Globally, coal is 
still by far the largest source of electricity, followed by 
natural gas, hydropower, and nuclear. U.S. natural gas exports 
not only lower global greenhouse emissions, they also lower 
particulate matter, PM 2.5, the world's most lethal pollutant, 
plus other pollutants in both Asia and our Western states, like 
Colorado, which are downwind. In fact, a recent paper by an 
author at NOAA concluded that Asian air pollution was by far 
the biggest contributor to smog in the Western U.S.
    Hydrocarbons today provide a little over 80 percent of the 
world's energy, the same as they did 20 years ago. The U.S. 
Energy Information Administration projects this dropping to 
only a little below 80 percent by the year 2040, but with a 
much larger drop in greenhouse gas emissions with continued 
natural gas displacement of coal. Global energy consumption 
grew 2.3 percent last year; think millions of folks rising out 
of poverty. Solar and wind combined supplied less than 2 
percent of total global energy last year, or less than one 
year's increase in global energy demand. Hence, the trajectory 
of greenhouse gas emissions is impacted far more by the mix of 
hydrocarbons than the rate of growth in renewables.
    Oil production itself leads to emissions, from natural gas 
flaring and fugitive methane emissions. These emissions are 
much lower in countries like the U.S. than they are in Russia, 
Iraq, Mexico, or virtually anywhere else.
    Oil and gas produced in Colorado has even lower emissions 
than the U.S. average, due to rigorous regulations on methane 
capture and very little gas flaring. Even as Colorado's oil 
production has quadrupled, VOC emissions have dropped 40 
percent. This is technology at work.
    Consumers dictate oil consumption. Regulatory regimes only 
impact where oil is produced, which leads to some counter-
intuitive conclusions, like maximizing oil and gas production 
in the United States lowers global greenhouse emissions, and 
taking regulations too far, regulatory overshoot, is counter-
productive. Inhibiting production in cleaner areas like the 
U.S. or Colorado leads to increased global emissions as it 
simply moves production to less clean places. It also hands 
greater control of the global energy supply to countries that 
are hostile to the United States, such as Iran and Russia. To 
date, Colorado has been a shining star, extremely modern, low-
emission oil and gas production that is displacing dirtier 
production elsewhere. Seeking territorial-based solutions that 
would keep U.S. fossil fuels in the ground would result in an 
increase in global emissions. There is no point exporting our 
industry and jobs while importing, not avoiding, the emissions.
    Thanks for hearing me out, and I welcome any questions.
    [The statement of Mr. Wright follows:]
                               __________

August 1, 2019--Written Testimony, Colorado's Roadmap for Clean Energy 
     Action: Lessons from State and Local Leaders--Chris A. Wright

    Chairwoman Castor, Ranking Member Graves, and Committee Members, my 
name is Chris Wright. I am the CEO of Liberty Oilfield Services, which 
is headquartered in Denver, Colorado. We are a premier hydraulic 
fracturing services company. It is an honor and privilege to be here 
with you today to discuss Colorado's state and local efforts to expand 
clean energy development.
    The climate change issue is intimately tied to the energy sector, 
which I have spent my life working in. Over 35 years ago, I chose to 
attend MIT specifically to work on fusion energy. In graduate school at 
UC Berkeley, I worked on solar energy. After graduate school, I began 
my career as an energy technology entrepreneur working in geothermal 
energy and oil & gas.
    Climate change is a global problem that requires a global solution. 
In our quest to reduce global greenhouse gas emissions, we must 
recognize the realities of the global energy market and the global 
economy. A rational global approach that balances climate mitigation, 
economic growth, and energy access objectives is required. Fortunately, 
Colorado's oil & gas sector is well positioned to play its part in 
achieving all three priorities.
    Energy matters. A lot. Throughout all of human history, global life 
expectancy was 30-35 years. In the last 200 years, global life 
expectancy has doubled. Extreme poverty has dropped from 90% of 
humanity to 10% and falling. The growth in human liberty and the 
dramatic increase in available energy are likely the two main catalysts 
for this tremendous progress.
    Unfortunately, we still have a billion people in the world without 
electricity and 2-3 billion that still cook in the deadly fashion that 
our ancestors did: burning wood or charcoal indoors in open stoves 
which the World Health Organization estimates kills about four million 
people annually. Liquid Petroleum Gas, or LPG, is by far the most 
common replacement fuel (followed by natural gas) that allows clean and 
safe cooking while also saving women the more than an hour per day 
typically spent collecting wood, dung, etc. for cooking fuel. Energy 
poverty is the world's greatest challenge.
    As my background shows, I am for any and all energy sources as long 
as they are reliable, clean and affordable with the power to lift 
humans up. The enormous annual growth in global energy demand is driven 
predominantly by folks rising out of poverty, aspiring to lives like 
ours.
    The U.S. shale revolution is aiding the poor abroad and in the U.S. 
via much cheaper oil and natural gas. Our shale revolution saves global 
consumers over one trillion dollars every year. Natural gas has become 
the number one source of electricity in the U.S., helping clean our air 
and being the largest factor in driving our CO<INF>2</INF> emissions 
per person to a more than 50-year low!
    The U.S.' rapid transition from being the world's largest importer 
of natural gas to the third largest exporter of Liquified Natural Gas 
has driven down world natural gas prices, which in turn drives growth 
in global gas-powered electricity, dominantly displacing coal 
generation. This is a major force in shrinking, or slowing the growth 
of, greenhouse gas emissions. Globally, coal is still by far the 
largest source of electricity, followed by natural gas, hydropower, and 
nuclear. U.S. natural gas exports not only lower global greenhouse gas 
emissions via coal displacement, they also lower particulate matter, 
the world's most dangerous pollutant, plus SO<INF>X</INF>, 
NO<INF>X</INF>, and mercury in both Asia and the U.S. as our western 
States are downwind of East Asia. In fact, a recent paper by an author 
at NOAA (National Oceanographic and Atmospheric Administration) 
concluded that Asian air pollution was by far the biggest contributor 
to smog in the Western U.S.
    Hydrocarbons provide a little over 80% of the world's energy, the 
same as they do in the United States. The US Energy Information 
Administration projects this dropping to only a little below 80% by 
2040, but with a much larger drop in greenhouse gas emissions as the 
projections show continued displacement of coal with natural gas. 
Global energy consumption grew 2.3% in 2018--think millions of folks 
rising out of poverty. Solar and wind combined supplied less than 2% of 
total global energy last year, or less than one year's INCREASE in 
global energy demand. Hence the current global trajectory of greenhouse 
gas emissions is impacted far more by the MIX of hydrocarbons--coal 
versus natural gas, for example--than the rate of growth in renewables.
    One must also consider the emissions from the production of 
hydrocarbons. Flaring of natural gas and fugitive methane emissions are 
the main sources of production-related greenhouse gas emissions. It 
should not be surprising that both emission sources are dramatically 
lower in higher income/better infrastructure countries. Oil and natural 
gas produced in the United States results in lower emissions than oil 
and gas produced in Russia, Iraq, Mexico or virtually anywhere else. 
Further, oil and gas produced in Colorado has lower emissions than the 
U.S. as a whole, due to rigorous regulations on methane capture and 
very little gas flaring in Colorado. In fact, over the past eight 
years, Colorado's oil production has quadrupled at the same time as a 
nearly 50-percent drop in volatile organic compound (VOC) emissions 
from oil production. This is technology at work, coupled with the 
construction of new high-tech gas gathering infrastructure.
    Demand for oil and natural gas is driven by consumers and is not 
impacted by the location of oil production. Take China, for example, 
which is the largest contributor to global oil demand growth, has 
double U.S. greenhouse gas emissions that are rising rapidly up another 
50 percent between now and 2030 under the Paris Agreement. However, 
China's domestic oil production is declining rapidly. Consumer demand 
or ``pull'' is what dictates total oil consumption. Regulatory regimes 
only impact WHERE oil is produced.
    These facts lead to some counterintuitive conclusions, such as:
        <bullet> Maximizing oil and gas production in the United States 
        LOWERS global greenhouse gas emissions because of our modern 
        and closely regulated domestic industry.
        <bullet> Taking regulations too far, regulatory overshoot, is 
        counterproductive. Inhibiting production in areas with lower 
        emission profiles (cleaner production practices) leads to 
        INCREASED global emissions as it simply moves oil production to 
        less clean places. It also hands greater control of the global 
        energy supply to countries that are hostile to the United 
        States, such as Iran and Russia.
        <bullet> Colorado to date has been a shining star, having 
        extremely modern, low emission oil and gas production that has 
        been growing and therefore displacing less clean oil production 
        somewhere else.
        <bullet> The same is true outside of oil and gas production. 
        For example, the U.K. lowered their local greenhouse gas 
        emissions by driving the petrochemical sector out of their 
        country. But they did not lower global emissions, they simply 
        relocated them.
    In conclusion, I caution against exporting industry and jobs, while 
importing pollution. Climate change is a global problem that requires a 
global solution. Seeking territorial-based solutions that would keep 
U.S. fossil fuels in the ground would result in an increase in global 
emissions as dirtier producers would simply meet market demand. At the 
same time, such a climate policy would undermine U.S. national security 
interests to the benefit of Vladimir Putin and the radicals in Iran. 
Thankfully, Colorado's producers are amongst the cleanest in the world 
when it comes to the GHG profile of oil production. We should welcome 
their innovation; not punish it.
    Thanks for hearing me out and I welcome any questions.

    Chairwoman Castor. Thank you very much.
    Ms. VanGenderen, you are recognized for 5 minutes.

                 STATEMENT OF HEIDI VANGENDEREN

    Ms. VanGenderen. Good morning, Chair Castor, Ranking Member 
Graves, Representative Casten, Representative Neguse, 
Representative DeGette. It is an honor and a privilege to be 
here. Thank you for the opportunity to testify, and welcome to 
Boulder.
    My name is Heidi VanGenderen, and I am a third-generation 
Colorado native. I have spent over three decades now working to 
advance the policies, technologies, deployment, and financing 
of low-carbon strategies. The Chairwoman was kind enough to 
provide a couple of highlights of my career. I would note that 
my testimony today represents my own views based on my 
professional background.
    You have heard this morning from Governor Polis and both 
mayors about Colorado's leadership in advancing clean energy at 
the state and local level. You heard about the benefits of 
clean energy from Colorado's rural communities, in particular 
from Cary Weiner. And you heard about the role of natural gas 
and some regulatory outlook from my colleague, Mr. Wright.
    I refer you to my testimony, the written testimony, which 
addresses Colorado's energy economy and the policy landscape as 
well, and I thank my fellow panelists for covering those topics 
so ably this morning. I would augment their presentations only 
to add that the escalation of state and local policy has in 
good measure been spurred by the lack of action at the Federal 
level over the last two decades in particular.
    I would note further that the best energy policy--
Representative Casten and I spoke briefly about this this 
morning--optimally is bipartisan and trans-partisan. The 
economic, health, and community benefits derived from a willing 
diversification of our energy fuel portfolio are eminently 
evident in Colorado and elsewhere around the world and the 
country.
    The Select Committee has the opportunity to demonstrate a 
different path, and I applaud your efforts to work on these 
issues in truly bipartisan fashion.
    I turn, then, to the importance of leadership by example 
and the investment in research exemplified by the work underway 
by the state's flagship university, the University of Colorado. 
Research for all aspects of climate change and the energy 
transition is an extraordinarily important investment as 
researchers and scientists seek to provide you, the lawmakers, 
with accurate, science-based evidence on which to base 
policies, programs, and investments that can make a difference, 
at sufficient speed and scale.
    CU-Boulder became an inaugural member of the University 
Climate Change Coalition, which now boasts 20 of the top-tier 
R1 universities from Canada, the U.S., and Mexico. Our 
chancellor, Phil DiStefano, recently attended a summit hosted 
by the University of British Columbia and was able to converse 
with other university leaders about combining research 
endeavors across universities so that those research dollars 
are used as efficiently and effectively as possible.
    Roughly 74 percent of the University of Colorado-Boulder's 
research funding comes from the Federal government. Thank you 
for your awareness of the importance of the Federal 
government's role in adequately funding this critical research. 
While we cannot rely on technology development and applied 
research as the sole solution to this challenge, there is some 
remarkable work underway through breakthrough technologies at 
this university.
    Three among many examples are: one, the development of a 
long-range methane leak detection system that is a literal game 
changer in finding and capping methane leaks from oil and gas 
production. This is now a for-profit company.
    Development of nanobio-hybrid organisms capable of using 
airborne carbon dioxide and nitrogen to produce a variety of 
biodegradable plastics and fuels, literally pulling the carbon 
from the atmosphere toward sequestration of it. This innovation 
could vastly improve our ability to do just that and 
manufacture sustainable biodegradable chemicals and plastics.
    Development of an electric vehicle charging infrastructure 
begun at CU-Boulder that would be embedded in roadways and 
allow ongoing charging of EVs as they travel among those 
roadways.
    Three amazing examples.
    CU-Boulder's work in climate science, in collaboration with 
the many national labs, has been noted this morning as legion, 
and again outlined further in my written testimony.
    Last but not least, CU-Boulder also seeks to demonstrate 
leadership through its own operations in deployment of our 
campus as a living laboratory. The latter provides 
opportunities for our students through integrating research and 
education into our daily operations and creating fertile ground 
for innovation and entrepreneurship by bringing together our 
researchers, our industry partners, and venture capital, with 
the goal of taking applied research quickly to 
commercialization. The importance of partnerships like these 
cannot be underestimated.
    Thank you. I look forward to the discussion and to 
answering your questions.
    [The statement of Ms. VanGenderen follows:]
                               __________

                 Written Testimony of Heidi VanGenderen

      Chief Sustainability Officer, University of Colorado Boulder

   For Field Hearing on: Colorado's Roadmap for Clean Energy Action: 
                  Lessons from State and Local Leaders

    Good morning Chair Castor, Ranking Member Graves, Congressman 
Neguse, and other distinguished members of the Committee. Thank you for 
the opportunity to testify at today's field hearing, and welcome to 
Colorado.
    My name is Heidi VanGenderen. I am a third generation Colorado 
native and I currently serve as the first Chief Sustainability Officer 
at the University of Colorado Boulder. I have worked for over three 
decades in the public, private, non-profit, and academic sectors to 
advance the technologies, policies, deployment and financing of low-
carbon strategies.
    My comments today represent the views stemming from my professional 
background in energy and sustainability policy, and do not represent 
the official positions of the University of Colorado Boulder.
    Colorado is a wonderful state in so many ways. It sports immense 
natural beauty and natural resources, particularly in the energy realm. 
It is a western state where people pride themselves on individualism, 
but pitch in readily in community. It is a state that prides itself on 
health and well-being. It is a state whose people have strong political 
opinions and party registration is about evenly split between 
Republicans, Democrats and Independents. It is a home rule state where 
individual communities wield tremendous influence and voters aren't 
afraid to step up to the ballot box through initiative. And it is a 
state where public institutions like the University of Colorado help 
lead through education, research, convening power, and operational 
example. I will elaborate in the following.
    Colorado is a state that is blessed with abundant energy 
resources--we are literally an ``all of the above'' state that is 
``richly endowed'' with both fossil and renewable resources.\1\
---------------------------------------------------------------------------
    \1\ https://www.eia.gov/state/analysis.php?sid=CO.
---------------------------------------------------------------------------
    Several important facts about Colorado's energy economy: \2\
---------------------------------------------------------------------------
    \2\ Ibid.
---------------------------------------------------------------------------
          <bullet> Colorado's crude oil production has quadrupled since 
        2010, and the state holds about 4% of total U.S. crude 
        reserves.
          <bullet> Colorado is the fifth-largest natural gas-producing 
        state, and 11 of the nation's 100 biggest natural gas fields 
        are located in the state.
          <bullet> Colorado is the top coalbed methane-producing state, 
        and has nearly one-fourth of U.S. economically recoverable 
        coalbed methane reserves.
          <bullet> Electricity from renewable sources has more than 
        doubled since 2010 to almost 25% of Colorado's net generation 
        in 2017, led by increased wind power from the state's nearly 
        2,000 turbines.
          <bullet> Although coal production in Colorado has declined 
        64% since 2005, over half of Colorado's electricity still comes 
        from coal-fired power plants, and annual coal production in the 
        state increased for the first time in six years in 2017, as 
        foreign demand for U.S. coal rose.
    Colorado's economy overall ranks agriculture, manufacturing, mining 
and tourism as its four top contributors. Mining represents 4.8 percent 
out output and 1.2 percent of jobs. It is further estimated that each 
job in oil and gas extraction supports an additional 4.2 indirect and 
induced jobs which amplifies the effects of Colorado's fossil fuel 
economy.\3\
---------------------------------------------------------------------------
    \3\ https://www.cobizmag.com/Articles/The-economist-Whats-the-most-
important-industry-in-Colorado/.
---------------------------------------------------------------------------
    There is no free lunch for any source of energy, but Colorado also 
knows first-hand the human health effects that come, particularly, from 
the extraction and use of fossil fuels. Last year, there were 280 days 
of recorded unhealthy air quality in the state, particularly along the 
Front Range where two-thirds of the state's population resides. The 
national average is 227 days.
    As one example, a new University of Colorado Anschutz study finds 
that mothers living near more intense oil and gas development have a 40 
to 70 percent higher chance of having children with congenital heart 
defects.\4\
---------------------------------------------------------------------------
    \4\ https://www.cpr.org/2019/07/19/cu-anschutz-study-suggests-link-
between-oil-and-gas-developments-and-child-heart-defects/.
    See also: https://www.thedenverchannel.com/news/local-news/cu-
study-finds-people-living-near-oil-and-gas-may-be-at-higher-risk-of-
cancer.
    https://www.cuanschutztoday.org/those-living-near-oil-and-gas-
facilities-may-be-at-higher-risk-of-cancer-and-other-diseases/.
---------------------------------------------------------------------------
    Health can and should be one of the primary drivers in our 
collective recognition of the need (and inevitability) of transitioning 
to a genuinely low-carbon economy. The health of people, the health of 
ecological systems, and the health of all living beings should be 
squarely in our sights as we continue to consider and take steps to 
move forward from primary reliance on fossil fuels
    Renewable energy in Colorado is quite a story, as it is now in many 
states across the country. Providing new electric generation that 
reduces the energy sector's impact on public health and the environment 
and diversifying the state's electricity portfolio, thereby increasing 
the resiliency of the electrical grid are two strong components of 
Colorado's expanding renewable energy economy.
    Jobs are another important part of the equation in Colorado's 
diversification of its energy economy. While Colorado is far from one 
of the most populous states in the country with a statewide population 
of only 5.7 million, our state now ranks 7th in the U.S. in terms of 
renewable energy jobs. Approximately 17,000 workers now work in 
renewable energy with the solar industry employing nearly 8,000 people 
and the wind industry employing more than 7,000. One sector that is 
likely to increase quickly is in the electric vehicle (EV) space, which 
already employed about 3,000 people as of 2018.\5\ Overall, the state 
has 57,591 people working in clean energy industries.\6\
---------------------------------------------------------------------------
    \5\ https://www.cobizmag.com/Articles/The-economist-Whats-the-most-
important-industry-in-Colorado/.
    \6\ https://www.solarreviews.com/news/colorado-7th-us-renewable-
energy-jobs-061418/.
---------------------------------------------------------------------------
    Energy efficiency, as we are all aware, is one of the most critical 
elements in the path to ensuring a low-carbon economy. As noted, the 
energy we don't use is the cleanest, least carbon intensive and least 
expensive of all sources. The majority of clean energy jobs in Colorado 
are in energy efficiency, which employs 32,036 workers. Nationally that 
accounts for 1.4 percent of all the energy efficiency workers in the 
US.\7\
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
                             policy matters
    Energy has been a prominent and storied part of Colorado history. 
That history begins in earnest with the Pikes' Peak Gold Rush in 1858 
that brought unprecedented numbers of people into the region. That 
influx, in turn ``led to powerful social, economic, and political 
changes that brought about the creation of Colorado Territory in 1861, 
culminating in the admittance of Colorado to the Union in 1876.'' \8\
---------------------------------------------------------------------------
    \8\ https://www.historycolorado.org/mining-industry-colorado.
---------------------------------------------------------------------------
    A more recent story begins with a brown bag lunch convened nearly 
twenty years ago at the University of Colorado Denver that brought 
together business, non-profit, and academic sector energy 
representatives to explore the most effective policies that could help 
advance Colorado's energy economy. The top option identified was a 
renewable energy standards that was then, quite swiftly, declared to be 
``politically unviable'' by many of those assembled.
    Although introduced in three legislative sessions, the legislature 
did not pass a renewable energy standard. Instead, in 2004, Colorado 
became the first state to pass a citizen-initiated renewable energy 
standard (Amendment 37 that resulted in a mandate to the state's two 
investor-owned utilities to produce 3% renewably based electricity by 
2007 and 10% renewably based electricity by 2015.
    Xcel Energy serves roughly 78% of Colorado and had begun 
exploration, before the passage of Amendment 37, of wind power. Spurred 
by the RPS, Xcel stepped up its efforts and completed construction of 
the 44 turbine, 25.3 Ponnequin wind farm on the Colorado/Wyoming 
border. That wind farm enabled the family that owned that ranch land to 
both remain on their property, and provided them critical income at a 
time when they would have otherwise had to vacate a failing ranch. 
Cattle and the turbines co-exist to this day and represent a critical 
element of Colorado's renewable energy economy--namely, rejuvenation of 
Colorado's rural economy through renewable energy. You have heard more 
about that story from Cary Weiner who testified earlier.
    Xcel Energy found its wind investments to be tremendously viable 
and discovered that they were on track to meet the renewable energy 
standard well ahead of schedule. The utility then came to visit former 
Governor Bill Ritter when he was elected in 2006 to not only 
discontinue its opposition to the renewable energy standard, but to ask 
the Governor's support for doubling the standard. That standard has 
been strengthened three times since 2004 and today is at 30% by 2020, 
with 3% from distributed resources.
    Today, Xcel Energy is the number one wind producing utility in the 
country. Xcel recently came before Colorado's Public Utilities 
Commission with its Clean Energy Plan to reach 80% carbon free 
electricity by 2030 and to produce 100% carbon free electricity by 
2050. That plan was codified in the state's 2019 legislative session in 
SB 236, signed into law by Governor Polis, which also included 
cooperative utilities in the mix with a 20% renewable requirement by 
2030.
    Partnering with utilities, rather than combatting them, represents 
a new kind of politics that can supersede destructive partisanship and 
result in mutually beneficial polices and plans that advance 
economically beneficial, healthful, low-carbon strategies.
    As Governor Polis noted in his testimony, thirteen bills relating 
to strengthening Colorado's energy policies came to his desk for 
signature. SB 236, noted above, addressed another critical component of 
Colorado's evolving energy economy--namely, the many workers in the 
fossil fuel industries. While oil and natural gas workers have 
increased, along with Colorado's production, coal workers do not face 
the same story with the closure of several coal plants across the 
state.
    In recognition of the state's transition away from fossil-based 
electricity generation, SB 236 also allows utilities to pursue 
securitization (i.e., using low-cost bonds) to refinance power plants 
so as to retire them early and also requires the PUC to consider 
workforce transition issues for individuals and communities that have 
relied on jobs in the coal sector. The thoughtful and active retraining 
of workers is a role in which all societal institutions can and should 
participate: government, the private sector and educational 
institutions primary among these.
    Optimal energy policy is truly bipartisan and transpartisan. It is 
policy that recognizes its role in providing technology neutral 
platforms that can unleash the best of human capacity and enterprise. 
It is policy that recognizes the inevitability of a changing energy 
economy while recognizing the unprecedented prosperity that has been 
brought through reliance on finite fossil fuels. It is policy that can 
help bring continued prosperity to communities everywhere through 
support of diversifying our fuel portfolio, lowering our carbon 
footprint, and protecting human health. It is policy that recognizes 
the optimal roles of government as a partner in needed public-private 
partnerships that can invest the capital required for this energy 
transition: as a purchaser in that new energy economy; and as a 
regulator to ensure that all energy enterprise is conducted in 
sufficiently transparent and ethical ways.
    Over the last decade or more, energy policies have been enacted in 
the United States more at the local, state and regional levels in the 
absence of significant action at the federal level. While this is a 
global challenge, that is and will be practically addressed at a very 
local level, recognition of the now globally-connected energy economy 
is also an opportunity for rejuvenated, bipartisan effort in Congress, 
as well as continued policy enactment, as appropriate at the state and 
local levels.
                         research also matters
    Research for all aspects of climate change and the energy 
transition is an extraordinarily important investment as we seek to 
provide lawmakers accurate science-based evidence on which to base 
policies, programs and investments that can make a sufficient 
difference.
    The University of Colorado Boulder became an inaugural member of 
the University Climate Change Coalition (UC3) which now boasts 20 top-
tier Research-1 (R-1) universities from Canada, the U.S. and Mexico. 
UC3 members are committed to leveraging institutional strengths to 
foster a robust exchange of best practices and lessons learned in 
pursuit of accelerating local climate solutions that reduce greenhouse 
gas emissions and build community resilience.
    CU Boulder Chancellor Phil DiStefano just attended a UC3 Summit 
hosted by the University of British Columbia in Vancouver where he was 
able to engage in transnational conversations about how to combine 
research endeavors across universities so that critical research 
dollars are used as efficiently as possible while leveraging the 
respective strengths and expertise of the collaborating universities.
    Roughly 74% of CU Boulder's research funding comes from the federal 
government. The importance of adequate support of leading edge research 
cannot be underestimated if we are to successfully address one of the 
greatest challenges, and opportunities ever faced. While we cannot rely 
on technology development in the applied research space as the sole 
solution to this challenge, there is some remarkable work underway at 
our university, and others.
    Two among many examples in the applied space include:
          <bullet> Renewable and Sustainable Energy Institute (RASEI): 
        A team of CU Boulder, the National Institute of Standards 
        (NIST) and the National Oceanic and Atmospheric Administration 
        (NOAA) researchers led by CU's Dr. Greg Rieker has developed a 
        long-range methane leak detection system based on CU's Nobel 
        Prize winning frequency comb laser, which also resulted from a 
        collaboration between CU Boulder and NIST. The system is 
        capable of scanning several square miles in just a few minutes, 
        paving the way to improving both safety and efficiency. The 
        team formed a Colorado-based commercial spin-out company to 
        transition the technology to market. https://www.colorado.edu/
        mechanical/2017/01/26/cu-boulder-team-track-methane-leaks-
        usinglasers.
          <bullet> Chemical & Biological Engineering: Prashant Nagpal's 
        research has ``developed nanobio-hybrid organisms capable of 
        using airborne carbon dioxide and nitrogen to produce a variety 
        of plastics and fuels, a promising first step toward low-cost 
        carbon sequestration and eco-friendly manufacturing for 
        chemicals. By using light-activated quantum dots to fire 
        particular enzymes within microbial cells, the researchers were 
        able to create ``living factories'' that eat harmful 
        CO<INF>2</INF> and convert it into useful products such as 
        biodegradable plastic, gasoline, ammonia and biodiesel.'' 
        https://www.colorado.edu/today/2019/06/11/these-nano-bugs-eat-
        co<INF>2</INF>-and-make-eco-friendly-fuel.
    CU Boulder is home to some of the most renowned climate research in 
the world, and was recently ranked number one in the world for 
geosciences. Nested in a constellation of federal labs (several of 
which I understand you visited during your trip to Colorado), that 
research includes:
          <bullet> The Institute of Arctic and Alpine Research 
        (INSTAAR): Tania Schoennagel analyzes the increase in wildfires 
        in the American West over the past 30 years. Her work projects 
        how climate change will affect the trend in coming decades, 
        particularly with regard to the wildland/urban interface. In 
        Congress and elsewhere, she advocates for policies that promote 
        adaptive resilience in response to changing fire regimes. 
        https://www.colorado.edu/today/2017/04/17/new-era-western-
        wildfire-demands-new-waysprotecting-people-ecosystems.
          <bullet> INSTAAR: One of the most cited researchers in the 
        geosciences, James White was among the first to document the 
        astonishing speed and magnitude of past climate change seen in 
        ice cores. By showing that climate change in natural systems 
        tends to happen abruptly over decades, White's work has 
        contributed greatly to our understanding of the potential 
        consequences of climate change within our lifetimes. https://
        news.nationalgeographic.com/news/2013/12/131203-abrupt-climate-
        change-scienceearly-warning-report/.
          <bullet> Cooperative Institute for Research in Environmental 
        Sciences (CIRES) and INSTAAR. CIRES is a partnership between 
        the National Oceanic and Atmospheric Administration (NOAA) and 
        CU Boulder. More than two dozen CIRES and INSTAAR researchers 
        are at the heart of NOAA's global monitoring program, which 
        continually tracks and studies levels of greenhouse gases in 
        the atmosphere. Those measurements of gases, including those 
        known to cause greenhouse warming and others involved in 
        depletion of Earth's protective ozone layer, are the foundation 
        of the world's understanding of past, current, and future 
        climate change. (Carbon Cycle Greenhouse Gases group)
          <bullet> CIRES: Lisa Dilling and other researchers in the 
        CIRES-based Western Water Assessment seek to understand how 
        climate change and variability affect water and other resources 
        in the Intermountain West. The WWA team is working with water 
        managers and lawmakers to understand how cities plan for and 
        respond to natural hazards and climate change, exploring what 
        kind of snowpack data can best inform water managers making 
        decisions about water allocation and use, and working with 
        ranchers to help navigate matters like drought and insurance.
          <bullet> CIRES: CIRES scientists are among the most well-
        known experts in the world on Earth's changing frozen realms--
        the cryosphere. Led by CIRES Director Waleed Abdalati, an 
        expert in remote sensing of Greenland's dynamic and melting 
        ice, CIRES scientists track changes in Arctic sea ice, study 
        permafrost evolution, conduct field work from the South Pole to 
        the North Pole, and much more. The CIRES-based National Snow 
        and Ice Data Center tracks changes in Earth's frozen realms to 
        better understand our future: from measurements of sea-ice 
        extent in the Arctic and sea-ice forecasting for the Navy, to 
        discovering the climate impacts of melting permafrost.
    CU's engineering, environmental design, geosciences and business 
programs, supported by the work of centers and institutes such as the 
Center for Science Technology Policy Research (CSTPR) and those noted 
above are also cultivating the workforce of the near-future who will 
literally help design, engineer, build and operate the low-carbon 
economy.
    Students are prepared, in part, to do so through participating in 
our campus as a living laboratory. This refers to integrating research 
and education into our daily operations and creating a fertile ground 
for innovation and entrepreneurship by bringing together our 
researchers, industry partners, and venture capital with the goal of 
taking applied research quickly to commercialization. A brilliant and 
potentially breakthrough concept like Prashant Nagpal's as one example, 
has to be demonstrated through pilot scale deployment to prove their 
merit and ultimately their efficacy in the marketplace. What better 
place than university campuses, and the communities in which they 
reside, to provide that testing ground?
    The imperative is clear. The work underway is remarkable and 
hopeful. The respective and collective roles of each sector and 
institution you are hearing from in the course of the work of this 
Select Committee are also clear. The very fact of your work through 
this Select Committee is an indication that congress not only 
recognizes the imperative, but is looking for paths to support the good 
work at the local, state, and regional levels across this country, and 
across the world. We in Colorado applaud you, and thank you.
    Again, thank you Chair Castor, Ranking Member Graves, Congressman 
Neguse, and members of the committee, for the opportunity to testify 
today. I look forward to the discussion and to answering any questions 
you may have.

    Chairwoman Castor. Terrific. Well, thank you all very much 
for your compelling testimony.
    At this time I will recognize myself for 5 minutes for 
questions.
    Mayor Jones, last week the Boulder City Council declared a 
climate emergency, passed a resolution declaring it so. That 
resolution commits to keeping the concerns of vulnerable 
neighborhoods and neighbors at the forefront as we transition 
to the clean energy economy and kind of double down on the 
planning process.
    There is already too much inequity across this country, and 
I would like to ask you, and Mayor Troxell as well, you all 
have your finger on the pulse of your communities. What 
recommendations do you have for us at the national level as we 
develop a national climate action plan that can be impactful to 
ensure that as we deploy certain resources, make certain 
investments, that we are lifting people, that we are treating 
people equally, we are not leaving anyone out?
    Ms. Jones. Well, thank you, Chair, for that question. We 
are lucky to have a partnership with the Just Transition 
Collaborative here at CU to help wrestle with this very issue, 
and several recommendations came out of that work that I would 
pass on to you.
    One is that I think as we embark on this huge systemic 
change and transition is to make sure that underrepresented 
communities are at the table as part of the decision-making 
process and their voices are heard.
    Another is to make sure that the jobs, the solar energy 
jobs, the energy efficiency and household jobs, are going to 
those communities, to those workforces, low-income workers that 
can be trained and be a part of the solution, and so that they 
have access to that economic growth.
    And then I would also say that we want to make sure that we 
are providing the solutions, whether it is solar on the roof or 
what not, make sure that everybody has access to that. One 
example that we have here in Boulder is we have a program to 
try to do just that, so that everyone is included in the 
solution and the benefits of it.
    Mr. Troxell. And I would just like to add that in Fort 
Collins, a priority of our Council is equity and inclusion. So 
we look at everything that we do through that lens for our 
entire community so we have a community for all, and with that 
we look at investment in our infrastructure as key because it 
does benefit all in our community.
    And finally, an important part of our community is 
engagement, and engagement is really meeting people where they 
are, not coming to City Council on Tuesday night at 6 o'clock, 
but it is really engaging everyone where they are.
    So we work closely. I would state one program in 
particular, working with the Center for Public Engagement at 
Colorado State University, it really does bring people 
together. It is not the loudest people in the room, not the 
smartest people in the room, but it is everybody in the room to 
have a conversation and to really get to better solutions.
    Chairwoman Castor. Terrific.
    Mr. Weiner, it is not your parents' Extension service 
anymore. Thank you for your concrete policy recommendations for 
us.
    Will you expand upon that? Tell us a story, a real-world 
example of something where maybe you were surprised at the 
impact or you are hopeful for the opportunity if we scale 
something up on the national level.
    Mr. Weiner. Thank you for that. I think working with the 
agricultural sector has been a pleasant surprise, engaging 
their interest in renewable energy. I think we oftentimes think 
of large wind farms being planted down on farms across the 
United States, and then farmers getting the benefit of lease 
payments. But what was surprising to me was just seeing the 
interest in offsetting their own electricity use, noting how 
some of these irrigation expenses make up a pretty significant 
part of their operating expenses for running a farm, for 
example.
    So when we opened up our first Rural Energy for America 
program grant to these folks, we had space for 30, and we 
filled 50 right off the bat. So I think there is a lot of 
interest. We didn't have as many agricultural producers succeed 
in their applications as we would have hoped, but that was 
something that has been a pleasant surprise.
    Chairwoman Castor. And when you think about the struggles 
across rural America right now and so many challenges our 
farmers face, I think this is a very important area, and I hope 
the committee can focus a lot more time on this in the future.
    Thank you, and at this time I will recognize Ranking Member 
Graves.
    Mr. Graves. Thank you, Madam Chair.
    Thanks again for all of your testimony. It was a pleasure 
to meet you.
    Mayors, I have an important question to ask. I heard these 
subtle references to UC-Boulder and Colorado State University. 
Which one is better? [Laughter.]
    Mr. Troxell. Actually, we have excellent research 
universities, and I would speak to the renewable energy 
laboratory that actually brings together Colorado State 
University, University of Colorado at Boulder, and Colorado 
School of Mines in partnership with NREL and really working 
collaboratively related to our energy-related needs.
    Mr. Graves. Thank you. There wasn't a right answer. All I 
know is I think I see Saint colors on that flag over there. 
[Laughter.]
    Mr. Graves. Seriously, Mr. Weiner and Ms. VanGenderen----
    Ms. VanGenderen. Just call me Heidi. It is a lot easier. 
[Laughter.]
    Mr. Graves. Right. Oh goodness, my Dutch-German family 
would be very disappointed in me.
    But in any case, you both mentioned something that I think 
is pretty important, as did Congresswoman DeGette. We talk 
often about reducing emissions, which is, of course, an 
objective I think we all share, and we need to ensure we 
continue on this downward trajectory. But you both also 
mentioned potential opportunities for sequestration, as did the 
legislation that Congressman Neguse and Congresswoman DeGette 
were working on, the role of the biogenic environment and 
actually capturing.
    In Louisiana, one of the things that we do for 
sustainability is we engineer oyster reefs in a way where you 
can set up geometric formations to where wave energy comes in, 
hits perhaps a pyramid shape, sends the wave energy up instead 
of into our communities. Oyster reefs sequester greenhouse 
gases. They purify the water. They help to clean the water. 
They obviously provide a food source. Multiple win-win-wins as 
a result of those, and I think it is something that is really 
important that oftentimes isn't given as much respect in this 
discussion that is needed. So I appreciate both of you bringing 
it up.
    Mr. Wright, you brought up some things that were somewhat 
counter-intuitive, I think. You actually said--and don't let me 
put words in your mouth, but basically that by producing 
natural gas, we are actually resulting in cleaner emissions, 
cleaner energy solutions. Could you expand on that a little 
bit? Because I think particularly energy production in Colorado 
perhaps is cleaner than anywhere else as a result of producing 
natural gas here.
    Mr. Wright. Yes, two points on that. The first is that over 
the last decade, the significant drop in U.S. greenhouse gas 
emissions, the single largest source of that drop--there are 
different studies. Somewhere between 50 and 70 percent of the 
drop in U.S. greenhouse gas emissions has been from the huge 
surge in U.S. natural gas production, which has driven down the 
price. Coal used to be, not long ago, by far the largest source 
of electricity in the United States, at over 50 percent. Today 
it is down to about 30 percent, and natural gas has displaced 
it. So by burning natural gas instead of coal, it has halved 
the greenhouse gas emissions. That has been the biggest driver 
of reduction of the United States' CO<INF>2</INF> emissions.
    And then where it is produced, the second half of your 
question, matters too. Our wonderful governor spoke about that 
earlier today. When you produce in Colorado, which is even 
better than the country as a whole, or in the United States, we 
are just simply much more careful about gathering all the gas, 
and those technologies continue to get better. I love the 
monitoring technology. A friend of mine is involved in that 
company that Heidi mentioned. If you can collect a much larger 
percentage of the gas, therefore less leaks out, and when you 
don't have the infrastructure you have to burn the natural gas, 
called flaring--so it doesn't release methane but it burns and 
releases CO<INF>2</INF> emissions. So there is much less of 
that in the United States, particularly in Colorado, than 
production almost anywhere else in the world. So given the 
constant demand, or whatever the marketplace demands for oil 
and gas, where you produce it matters.
    Mr. Graves. I think I read recently where gas that comes 
from the United States as compared to Russia is 13 percent 
cleaner. So whenever you are using Russian gas, it results in a 
dirtier environment and greater emissions.
    When we were at NREL yesterday, I don't remember who it was 
but one of the scientists said that if we had to pivot 
immediately to renewables, that the technology, the grid--I 
think you mentioned that 2 percent of the world's energy is 
produced from renewables--that we are simply not capable at 
this point of just having this automatic transition. I noted 
that a lot of the scientists who talked to us about trucks and 
ships and planes and other areas where the energy concentration 
of renewables and the storage capacity of batteries is not 
great enough.
    The U.S. I think is viewed globally as perhaps not the 
leader on emissions reduction, but as I stated earlier, we 
actually are. Could you briefly compare the U.S. to perhaps 
Europe and our strategies for emission reduction?
    Mr. Wright. You bet, and maybe the biggest example here is 
Germany, who has certainly spent, per capita, the most of any 
country in the world. They started earlier. Germany spent 
somewhere between $200 and $400 billion on the German clean 
energy transition. Number one, they reduced their 
CO<INF>2</INF> emissions over the last decade significantly 
less than the United States has. In fact, I mentioned the world 
gets 81 percent of its energy from fossil fuels. Germany gets 
84 percent of its energy today from fossil fuels.
    Mr. Graves. And is supporting Nord Stream 2 to bring in 
more Russian gas.
    Mr. Wright. But the part that concerns me the most--to me 
it should be always focused on humans--is Germany doubled their 
electricity prices from the start of their energy transition. 
They are today three times higher than the United States, and 
from their own public health data 30,000 people are killed 
every year, premature deaths, because of the extra costs of 
energy, that they don't heat their homes. That is a significant 
problem in the U.S. More than 10 percent of Americans report 
keeping their house at unsafe temperatures, both too hot and 
too cold, because of electricity prices; 14 percent receive 
disconnection notices.
    So I loved all the ``cough'' about lower energy prices. If 
we could transition energy and drive prices down. It would be 
fantastic, but it would be a first.
    Mr. Graves. Thank you.
    Thank you, Madam Chair.
    Chairwoman Castor. Mr. Casten, you are recognized for 5 
minutes.
    Mr. Casten. Thank you, Madam Chair.
    I want to pick up on that thread, and I have to warn the 
crowd, I am going to nerd out here a little bit. But you and I 
have very similar backgrounds. I wasn't smart enough to get 
into MIT but went up the road to Dartmouth for engineering 
school and then spent 16 years as a CEO of various clean energy 
companies.
    Mr. Wright. Fantastic.
    Mr. Casten. You didn't say this in your testimony but I 
would suspect you sort of intimated. One of the theories I came 
to early on is that we consistently make the same mistake in 
our energy policy that Dartmouth and probably MIT made in their 
alcohol policy. [Laughter.]
    Mr. Casten. We assumed that we can regulate demand by 
regulating supply.
    People want energy, and that led me to really focus on 
energy efficiency and conservation, particularly on the 
generation side.
    But I want to talk a little bit, because I have some 
concerns about what you said, but I want to sort of hear your 
thoughts on this.
    For most of the beginning of my career, natural gas was 
always $3 per million BTU. It was locked in place, and the gas 
industry--if you could sell it for $5, you would rather sell it 
for $5. But a lot of the power sector built massive amounts of 
gas-fired generation in the '90s because they said at $3, we 
can compete with coal. We built 200 gigawatts--that is 20 
percent of our entire power fleet--gas-fired generation in 
about a 10-year period to chase $3 gas.
    Now, as I don't need to tell you, in 2007 the price went up 
to about $12. First of all, I am assuming that you would agree 
with me that that was basically a supply/demand balance that 
really pushed that up.
    Mr. Wright. One hundred percent.
    Mr. Casten. Okay. Post-recession and post the fracking 
revolution, the price has gone back to $3, and we have been 
basically at $3 for the last decade. And I agree with you that 
that has substantially explained the demise of coal. Renewables 
has played a big role, efficiency has played a big role, but 
gas has played a big role there.
    During that same 10-year period, European gas prices have 
been around $7 on average, roughly speaking. There was a huge 
push in the '90s to build LNG facilities to export gas to 
Europe to chase high-cost gas, because a lot of gas producers 
wanted to chase that expensive gas market.
    Your testimony suggested that if we export gas overseas, we 
will drive down the price of gas overseas. Why does supply and 
demand not still apply? Because we learned those lessons 
before, and if we raise the price of gas internationally, we 
will bring coal back.
    Mr. Wright. I appreciate very much your comments and agree 
with your assessment of history, absolutely. The difference is 
the magnitude of the shale revolution. Almost all oil and gas 
was originally produced in shales. It slowly, through geologic 
time and natural hydraulic fractures, leaks out. So before, we 
were just finding the stuff that leaked out and got trapped. 
Now we are going into the source rocks, and the reserves in the 
United States are just gigantic. I think $3 is a ceiling on 
natural gas prices for as far as the eye can see.
    The one thing I disagree a little bit with is the United 
States, we used to be the largest importer of natural gas 10 
years ago. By the end of this year we will be the third largest 
exporter of LNG in the world, and we have actually meaningfully 
depressed LNG prices. They are down 40 percent if you take a 
global average of before the start of U.S. exports and today.
    So, yes, we are growing the growth of demand for natural 
gas. Yes, supply and demand works. So more demand for natural 
gas should be, in theory, a push up on price. Right now what it 
is--that is all true, but during the years before the financial 
crisis we averaged 1,000 natural gas rigs drilling, and we were 
a large importer. Today, it has been two years before we had 
200 rigs drilling for natural gas. It is about 175----
    Mr. Casten. I guess my challenge to you, all of that might 
be true, and by the time we know for certain it is true, it is 
going to be too late to change course. If you look at the 
history of North Sea oil, we did a really good job of drilling 
when oil was expensive, and then exporting when oil was cheap, 
and I think most of those European countries would say that 
they did the opposite of buy low, sell high. If you can sell 
gas for $3 in the United States, why would you possibly invest 
in liquefaction, storage, and shipping to sell it for $3 
overseas? You are not going to get any return on your capital. 
Chesapeake had a negative return on equity for most of their 
life.
    I have a real, real concern that if the price of gas goes 
up, we are going to use a lot more coal in this country.
    Mr. Wright. A very legitimate concern. I would love to talk 
with you more about it offline. But the reserves and 
productivity of gas in the United States, there is 100 years of 
low-cost production at today's rates.
    Mr. Casten. But that is a supply question. Demand still 
matters.
    Mr. Wright. One hundred percent.
    Mr. Casten. Thank you.
    I yield back.
    Chairwoman Castor. Representative Neguse, you are 
recognized for 5 minutes.
    Mr. Neguse. Thank you, Madam Chair.
    Thank you to each of the witnesses for being here today, 
for your testimony. I can assure Representative Graves that the 
correct answer, when you represent the 2nd Congressional 
District, is that both universities are wonderful universities. 
[Laughter.]
    Mr. Neguse. So I am particularly grateful to the mayor of 
Boulder and to the mayor of Fort Collins, the mayors of the two 
largest cities in my congressional district, for their 
leadership and for showing us the way. My hope is we can export 
some of what we have gleaned from your testimony to Washington 
as we develop our recommendations.
    Mr. Wright, I do want to talk about your testimony. I 
reviewed it in great detail, your written testimony, and 
obviously your oral remarks. I disagree with your appraisal of 
natural gas in the context of poverty and the way in which you 
have characterized it in your testimony, and here is why. Most 
empirical studies that I have seen demonstrate that unmitigated 
climate change, if anything, amplifies poverty, because climate 
change will affect developing countries and poorer communities 
more than rich ones.
    In the United States, the economic toll--there was a study 
published last April that found that inaction on climate change 
by the year 2090 would cost the United States $224 billion more 
in economic impacts per year. That is the cost of health care, 
infrastructure, electricity, water resources, agriculture, and 
ecosystem. So I just respectfully disagree with the way in 
which you framed that.
    But beyond the economic arguments, I want to drill down a 
little bit here on one of the phrases that you mentioned in 
your testimony, which is this notion that natural gas is, 
quote, ``helping to clean our air.'' You are familiar with the 
acronym VOC, with volatile organic compounds; correct?
    Mr. Wright. I sure am.
    Mr. Neguse. And you would concede that some VOCs are known 
to be directly hazardous to human health; is that right?
    Mr. Wright. That is correct.
    Mr. Neguse. And some of them contribute to the production 
of ozone or other regulated pollutants; right?
    Mr. Wright. Correct.
    Mr. Neguse. And for the benefit of the folks here, 
according to the National Institutes of Health, VOCs can cause 
irritation of the eyes, respiratory tract, dizziness, visual 
disorders, memory problems, damage to the central nervous 
system, and in some cases cancer.
    Would you concede that the drilling process of hydraulic 
fracturing can release what are known as volatile organic 
compounds?
    Mr. Wright. Yes, it does.
    Mr. Neguse. Okay. And just again for the benefit of the 
record, the University of Colorado's Institute of Arctic and 
Alpine Research completed a study this year determining that 
high levels of harmful atmospheric pollutants such as VOCs are 
regularly blown into Boulder County, here where I live and 
where so many here in the audience live, from oil and gas wells 
to the east. They ran over 8,000 samples for VOCs in the study, 
and there is no other place, program, or organization in the 
state that has run that many samples for these types of gases.
    So given all of that, I suspect you will agree with me that 
fracking can cause health risks regarding air quality.
    Mr. Wright. All energy production involves health risks, 
all of them.
    Mr. Neguse. Well, I would disagree with you there. 
Obviously, a big focus of our work over the course of the last 
two days has been visiting with scientists that are part of the 
renewable energy transformation, and I can assure you that the 
health risks from the various sources of energy that we have 
been looking at, solar and wind, of course, pale in comparison 
to the health risks caused by hydraulic fracturing.
    I will just tell you that a 2016 Johns Hopkins 
epidemiological study of more than 400,000 patients showed that 
there was a significant association between fracking and 
increases in mild, moderate, and severe cases of asthma.
    Are you familiar with which industry is the top producers 
right now, a top producer I should say, of VOCs along the Front 
Range?
    Mr. Wright. The largest producer of VOCs in Colorado is 
naturally occurring sources.
    Mr. Neguse. Well, I disagree with you there, and perhaps we 
will discuss this further offline, but from the studies we have 
seen----
    Mr. Wright. I think that is reasonably well documented.
    Mr. Neguse [continuing]. The oil and gas industry is the 
top producer of volatile organic compounds along the Front 
Range, which is a region that has failed to comply with Federal 
air quality standards for more than 15 years. So this notion 
that problems in our ozone here, emissions and so forth, are 
being caused by emissions in Asia--I am sure you are familiar 
with this, that just in March of this year, our air quality in 
Denver was three times worse than Beijing.
    So I just would implore you, and I certainly implore others 
who are watching, to read the data, to talk to people in the 
communities that are being impacted here in Boulder County, 
elsewhere across the state. It is a very real, visceral issue 
for them. My wife and I have an 11-month-old daughter. We want 
to make sure that she is able to breathe clean air here in 
Colorado, in the place that we are lucky to call home.
    So with that, I would yield the balance of my time.
    [Applause.]
    Mr. Wright. May I respond?
    Chairwoman Castor. Thank you.
    Before we turn to Congresswoman DeGette, for our panel and 
for the audience, we would like to have another round of 
questions, if you all are willing to do that. Good, okay.
    Congresswoman DeGette, you are recognized for 5 minutes.
    Ms. DeGette. Thank you so much, Madam Chair.
    Well, I think I would like to follow on to Congressman 
Neguse's questions about fracking, very briefly, because as 
well as the VOCs that result from fracking and which we are 
trying to deal with on the Federal level, fracking also, of 
course, has the fracking fluid that can potentially contaminate 
ground water. So last Thursday I reintroduced the ``FRAC'' Act, 
which I have been doing for some years. What that does is it 
eliminates the Halliburton loophole that was enacted in the 
1990s which exempts only the oil and gas industry from 
reporting the chemical components of the fracking fluid from 
the Safe Drinking Water Act.
    So I guess there are a lot of environmental impacts, as 
Congressman Neguse noted, that come from fracking. So as a 
result, Mayor Jones, I know that the City of Boulder recently 
extended its fracking moratorium. I am wondering if you can 
talk about the municipality's reasons for this moratorium and 
what it has done for your local economy here, pro or con.
    Ms. Jones. Thank you, Congresswoman DeGette. We have a lot 
of concerns in our community with fracking from two angles. One 
is, as Congressman Neguse eloquently stated, there is a lot of 
public health impacts that come from oil and gas drilling and 
exploration, and I will just note that the Boulder County oil 
and gas inspector did a study to look at leaks from oil and gas 
production and found a 65 percent leak rate, which prompted the 
industry, to their credit, to go and do a big push to fix those 
leaks. But two years later I went back to see how we are doing, 
and it is a 45 percent leak rate because new leaks happened.
    I guess my point is there are a lot of air pollutants, both 
methane, which deals with climate, and VOCs, which address 
public health, that come from oil and gas production, and it is 
a concern of our community; we are downwind.
    The other side of that is our economy is very much based on 
a high quality of life, our wonderful vistas, our wonderful 
outdoors, being able to recreate and breathe clean air, and a 
lot of companies are attracted to bring their companies here 
because of that. We have a very robust economy, and fracking is 
at odds with the basis of that.
    Ms. DeGette. So one thing, Colorado has actually passed 
some of the most stringent laws around fracking in the last few 
years, but yet you are saying this leaking and some of these 
other issues, it still occurs even despite the strong laws and, 
frankly, the commitment of most of our oil and gas companies 
here in Colorado to comply with those laws.
    Ms. Jones. Yes. The methane rules that were passed were a 
great step forward. We appreciate industry's agreeing to some 
of that. However, yes, the leaks continue, and we know how much 
more potent methane is than CO<INF>2</INF>, and we know that 
when leaks get in the 10 percent range, that the benefits of 
natural gas as compared to coal are drastically reduced.
    Ms. DeGette. So let me ask you this. Would it be important 
for all of these laws, the methane, the CO<INF>2</INF>, the 
Safe Drinking Water Act, it is important to have Federal 
legislation that sets some kind of minimum standards? Wouldn't 
that be accurate?
    Ms. Jones. Absolutely.
    Ms. DeGette. Okay. I just have one last question for both 
of our mayors, because in the light of Congress' unfortunate 
inaction on climate change issues the last few years, which we 
hope to change with all due expediency, local and state 
governments really have stepped in, and your testimony today is 
perfect evidence of how that has happened. But I am wondering 
whether you can tell me, in your view, if local and state 
governments can do it without some kind of strong national 
standards.
    Ms. Jones. Do you want to go first?
    Mr. Troxell. You know, I think we have to work in 
partnership with Federal, state, and local governments. I 
represent my community, and we are committed, and we are 
committed in a way that we keep our heads down and keep working 
on what works for our community.
    Ms. DeGette. Can you do it without us, though?
    Ms. Jones. No.
    Mr. Troxell. No. That is where it doesn't stop at our local 
boundaries, and that is where working together--and that is 
where I think there is state and Federal participation as well.
    Ms. Jones. I would just add that we absolutely need your 
help, please. We have a window of time that is shrinking if we 
are going to avoid the worst impacts of climate, climate 
change, and I will just note that local municipalities cannot 
afford the extreme weather events that we are predicted to see, 
right? So we definitely need national action, and I will note 
that putting a price on carbon at the national level would be 
one of the most useful things you could do, because it could 
drive all the markets, the technology, the innovation in all of 
our communities.
    [Applause.]
    Ms. DeGette. Thank you very much.
    Chairwoman Castor. We will go to a second round of 
questions, and thank you for your thoughtful questions, 
members.
    Congresswoman DeGette, when you said unfortunate, and you 
were talking about Federal policy inaction, it struck me that 
we have really struggled with the Trump Administration's 
rollback of energy efficiency standards, rollback of fuel 
economy standards for the cars that we drive. America has 
always been a leader globally in pushing, pressing for the most 
modern technology. Under the Obama Administration, again, we 
set higher fuel economy standards for our cars, only to be 
rolled back by the Trump Administration, and many of the 
automobile manufacturers didn't want them to be rolled back. 
Just last week California and a number of the automakers 
decided, well, we can't recede, we can't cut and run in 
America, we have to move forward because we have to compete for 
the modern electric vehicles of the future. Otherwise, they 
will be built in China and in Europe. No, this is the United 
States of America, we have to continue to be the leaders.
    You all--I am going to go to our mayors again--you have 
been leaders here locally and have a lot of lessons that we can 
take away when it comes to energy efficiency and cleaner 
vehicles, electric vehicles. Can you share with us what you 
have been doing and what you would reiterate again for the 
record how important national policy is and what that would 
mean to your communities and to communities across the country?
    Mr. Troxell. Well, I will just start off. You know, we have 
to do this in partnership as well, and I think regulatory 
policy is important, but that is not the only thing. I see our 
community and our citizens really doing the right thing.
    Chairwoman Castor. I think citizens are hungry for it, and 
they know they can put money back in their pocket; right? Yes.
    Mr. Troxell. They can see that, and that is where I think 
it is a partnership. That is why we focus on the climate 
economy. With a global issue, we intend to build businesses 
that serve the nation and the world. That is the way we do it 
strategically in our community.
    Ms. Jones. Well, I will note that, for example, take 
electric vehicles, we are very proud that EVs make up about 10 
percent of the new car sales in Boulder, high above the state 
average and the national average. Part of that is because 
people care, and people can look at the savings over the life 
of the vehicle and realize that.
    But the other reason is that we have state and Federal tax 
credits that have made that much more affordable. We have also 
done bulk purchasing programs with Boulder County in order to 
deliver those savings to households. So we are working hard to 
do that.
    We also have building codes that require wiring to be in 
place for charging. We are investing in infrastructure around 
the city and working with our governor on the state level.
    So I think this is a team effort, but I think the Federal 
role in providing those tax credits is key. I will also note 
that I believe there is a bill being proposed that would raise 
the cap on the number of vehicles that a company can sell 
before they lose that tax credit, and it seems to me that it 
would be very useful to raise that cap so that the leaders in 
the industry aren't penalized by their success, because that 
help to even the playing field on this new technology is paying 
off. It is paying off right here in Boulder.
    Chairwoman Castor. So, Ms. VanGenderen, you were at DOE. 
You know how important it is for America to continue to invest 
in R&D and research so that we can maintain our leadership 
position in the world and build the clean energy economy. What 
recommendations do you have for us based upon your experience 
here 10 years after the failed, unfortunate Waxman-Markey bill? 
We are in a different place. This really is a climate emergency 
and we don't have time to waste. What do you recommend?
    Ms. VanGenderen. I recommend that the Congress of the 
United States re-find its compass once again. As was noted by 
Congresswoman DeGette, and as I also stated earlier, there has 
been a lot of state and local action in the absence of Federal 
action. I would agree absolutely with Mayor Troxell that this 
is a partnership opportunity, that it absolutely has to be 
coordinated between the Federal, state, and local levels.
    We, for example, are in the midst of helping to forge the 
transportation transformation in this region. This is a global 
issue that is going to have absolute implementation at a very 
local level. The transformation in transportation is going to 
be a partnership between the city, the county, the private 
sector, and the university in this region that looks at 
strategically mapping where electric vehicle charging 
infrastructure ought to be placed, what are the sequential 
steps in the investment to further electrify, how much of the 
transportation sector should be electrified. If you are still 
plugging those electric vehicles into 52 percent coal power, we 
are not getting to our emissions goals.
    So there are many, many parts to this puzzle, and I would 
really urge all of us to facilitate a more honest, open 
dialogue that can result in a good business plan to get us to 
sufficiently low carbon status.
    Chairwoman Castor. Thank you.
    Ranking Member Graves, you are recognized for 5 minutes.
    Mr. Graves. Thank you.
    Ms. Heidi----
    [Laughter.]
    Mr. Graves [continuing]. As chief sustainability officer, 
if tomorrow you were told you have to go to 100 percent 
renewables, can you give us just a few of the big obstacles 
that you see in being able to do that?
    Ms. VanGenderen. First I would counter that, quite 
honestly, by saying we need to mine energy efficiency first and 
foremost.
    Mr. Graves. Okay.
    Ms. VanGenderen. Let's be strategic about what our 
sustainable energy plan looks like on this campus, in this 
community, and----
    Mr. Graves. ``Efficiency'' meaning bringing down overall 
demand, therefore you can----
    Ms. VanGenderen. The cheapest, least carbon-intensive 
energy is the energy you don't use at all, and we have not put 
that on the table sufficiently. It is a business opportunity, 
again, to expand that. We have a campus where there is a very 
old infrastructure. A lot of the buildings here were built--in 
fact, the first building was built before the State of Colorado 
became a state. So welcome to Old Main. Talk about a nightmare 
for my boss who oversees facilities. It is like, oh my gosh, 
what do you do with that? Many, many aspects of the energy 
economy.
    In terms of renewables, there is the whole of the 
resilience consideration, so how much of the renewable energy 
future is going to be at utility scale versus a distributed 
scale. We are certainly looking strategically at how much we 
can produce on this campus but know that regionally there is 
going to be a broader play, again, to coordinate with our 
partners in the city, the county, and the private sector 
certainly, to get to a greater percentage of renewable energy.
    We are looking at it. We are planning. We are trying to 
figure out what our next--right now we are looking at the 2.3 
megawatts that we'll add to the roughly 2.2 we already have, 
and there are, as you know, many, many questions about how you 
keep the reliability of the system the more renewable-reliant 
it is.
    Mr. Graves. Because the intermittent power and other things 
where the solar works when the sun is out, the wind works when 
the wind is blowing.
    Ms. VanGenderen. Indeed.
    Mr. Graves. I had a few other questions for folks, so if 
you wouldn't mind, I would love it if you could just give us 
something, nothing formal, any other thoughts you have on some 
of the obstacles that you have. You have kind of this 
microcosm, and it would be very interesting to hear some of 
your other thoughts along those lines.
    Ms. VanGenderen. Be glad to.
    Mr. Graves. To all panel members, look, I get it. Everyone 
is talking about we have to migrate to this 100 percent 
renewable, and folks saying that we need to stop producing 
fossil fuels. I want to throw out a few things. Number one, I 
was reading a report a while back that talked about how, for 
battery storage technology, it takes 50 to 100 pounds of mining 
rare and critical materials, oftentimes from China, to produce 
one pound of battery, one pound--50 to 100 pounds of mining, 
one pound of battery.
    Number two, in 2011--and we had a chance to talk a little 
bit about this last night--in 2011 there was a moratorium on 
offshore energy production because of the Deepwater Horizon 
disaster that trashed much of our state. Don't get me started. 
But as a result, we significantly reduced domestic energy 
production. In 2011, the year after the BP disaster, one-half 
of this nation's trade deficit, one-half of the entire trade 
deficit, was attributable to us importing energy from other 
countries. We have had witness after witness come testify 
before our committees. So if we come in and say, hey, we are 
going to just stop producing, it doesn't stop demand because 
you have a system--I talked about the grid earlier, or the 
trucks or planes or what have you, that continue to be 
dependent upon these energy streams.
    So we still have demand or dependence upon these streams. 
So if we are going to be dependent upon those, it seems like it 
makes more sense to produce it where we can do it safest and 
cleanest, and that is the United States.
    Mr. Wright, do you want to expand on that? I think you also 
wanted to respond earlier to the question you received from Mr. 
Neguse.
    Mr. Wright. Yes, thank you. I will take both of those.
    A real quick answer to your thing, it is best to have 
honest accounting. We have a much more black-and-white dialogue 
than really represents reality. There is 100 tons of coal 
inside every wind turbine tower, 100 tons in the tower; roughly 
another 100 tons used in the thermal process to get the coking 
coal into the tower. The blades are made, in meaningful part, 
out of oil and gas. They are mined in China, they are 
transported and assembled and monitored--it is impossible to 
have a wind farm without oil and gas, impossible.
    So when we say zero emissions, we just have to do the full 
accounting. They are reduced emissions, but we should try to 
talk honestly about it.
    And Representative Neguse's comments about VOCs, which are 
definitely health hazards, absolutely, but as oil and gas 
production has grown in Colorado, VOC emissions are going the 
other way. More modern wells are more dramatically reducing the 
emissions of VOCs such that total emissions from our sector, 
with four times the production, is 40 percent lower.
    And we talked about one bad day, which was an inversion in 
Colorado, which is terrible, but we have those in Utah too, not 
from pollution in Utah. Pollution coming from out of our state 
into our state is a big issue, and we should account for and 
look at that as well.
    But I am for clean air, clean energy, clean environment, 
the same things we want. I just wish we had a more honest, 
sober dialogue about it.
    Mr. Graves. Thank you.
    Madam Chair, just begging your pardon, three quick points. 
One, I just looked it up: 83 percent of VOCs come from non-oil 
and gas sources in Colorado.
    Number two, one of the things, when we talk about these 
renewable energy jobs, I keep saying we have to get this right. 
Ninety percent--in fact, we talked about this at NREL 
yesterday. Over 90 percent of the solar panels are made in 
China. They stole our technology and are sending it back to us. 
So we have to think about how do we ensure that those jobs are 
anchored here, how do we do that differently than we have seen 
with those.
    And lastly, under Waxman-Markey, if that had been enacted--
let me put it this way. Through our emissions regime so far, we 
have actually reduced emissions greater than projected under 
Waxman-Markey with cheaper energy prices by doing it without 
Waxman-Markey, and it is an important thing to keep in mind. I 
think we can keep building on these successes.
    Chairwoman Castor. But how much farther would we have 
gotten?
    Mr. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you.
    I have a number of questions for you, Mr. Weiner, really 
with a focus on rural America. In one of the presentations we 
heard at NREL yesterday, we looked at this map of where 
renewable resources are and, of course, where the load is, 
which gets into this conversation about transmission and 
storage, and those don't overlap real well, right? I mean, the 
solar is primarily in the southwest, geothermal is primarily in 
the northwest, wind is in a lot of places but primarily this 
big stripe down the middle of the country.
    Biomass is kind of everywhere, but it is particularly 
concentrated in rural areas, and the sustainable portion of 
biomass is inseparable from wildfire risk. Forestry managers 
talk about wood on the forest floor as fuel. They don't mean 
fuel for a power plant. They mean fuel when it is a dry summer 
and a lightning strike comes along. But it is, of course, a 
source of generation fuel if we could access it. And as the 
only renewable source that is baseload and dispatchable, I 
think it is pretty important that we find some way to get it. 
And, by the way, their estimate was that that sustainable slice 
of biomass, we could make about 100 gigawatts. That is about 
the size of the whole U.S. nuke fleet, and it is about 10 
percent of the U.S. grid. It is meaningful.
    The challenge is that, as all of you know who have hiked in 
the forests around here, that wood on the forest floor is not 
necessarily near a road. It is on a steep slope, and it is 
really hard to get it out. But if we could get it, it is a 
fantastic job creation opportunity.
    So I would just like your thoughts, with as much time as we 
have left, and I suspect we have some, what could we be doing 
federally to help ensure that we can cost-effectively and 
sustainably get that fuel out of a place where it is going to 
burn and just pollute the air into a place where we might use 
it as a source of renewable energy?
    Mr. Weiner. Thank you. That is a great question, and I know 
that CSU has done some research on that. USDA did fund the 
Bioenergy Alliance Network of the Rockies project. This was 
maybe five years ago, a $10 million grant I believe through 
USDA to help our researchers look into using fallen and dead 
biomass as a liquid biofuel. So that work is ongoing, and I 
think it is about to wrap up, so hopefully CSU has some 
recommendations for the Federal Government to offer.
    I agree with your assessment of the challenges, and I 
suppose the one thing I would add is that I know the Forest 
Service, the state Forest Service in particular, is looking at 
opportunities to increase demand for biomass-based projects 
like boilers and wood heaters. So to your point earlier about 
supply and demand, I think if we see an uptick in demand and 
something like a state or a Federal Forest Service helping to 
facilitate that demand because of advantages financially or 
environmentally, then perhaps the supply can follow from that.
    Mr. Casten. Briefly, one of the companies that I used to 
run was a bioenergy company out in California, and what we 
found was really hard was that the cost of getting that 
sustainable biomass out of the woods essentially scaled with 
the cost of diesel, because we had to bring chippers into the 
forest, diesel-fuelled chippers, run those, put it on trucks 
that could haul it out, and it makes a very narrow radius 
around where you can get it, and so as a result it is hard 
economically to go after. But in the meantime you still sit 
there and say leaving aside the self-interest of various 
businesses out there, you fly over and you see all that fuel 
waiting to catch.
    So, much like the social cost of carbon, there is a 
societal benefit in getting it out of there and not indexing 
that to the cost of diesel, but I don't know that we have 
tools. So are there tools you have seen in place to help give 
people the right incentives to get that wood out of the forest?
    Mr. Weiner. I personally can't speak to those tools. It is 
not an area that I have had a lot of experience in, other than 
to say there is a biomass plant in Colorado, in Gypsum, 
Colorado, on the West Slope that has made it work for them. So 
I am happy to find some resources for you and connect you with 
them.
    Mr. Casten. Thank you.
    Ms. VanGenderen. I would note, Representative Casten, that 
the fire hazard has changed that equation somewhat on what is 
viewed as necessary and economic in recovering some of that 
wood.
    Mr. Casten. In what fashion?
    Ms. VanGenderen. In that the fire hazard in the state is so 
great because of that woody biomass, the dead trees that you 
see along I-70, that the imperative has shifted a little bit in 
terms of what is economic.
    Mr. Casten. So let's find some ways to get it out.
    Ms. VanGenderen. Yes. And as Cary noted, the Danes will 
tell you it is best used for liquid fuel, not for generating 
electricity from an efficiency standpoint.
    Mr. Casten. Okay, thank you.
    I yield back.
    Chairwoman Castor. Representative Neguse, you are 
recognized.
    Mr. Neguse. Thank you, Madam Chair.
    I do have a couple more questions for our mayors. But 
before I do that, I just want to address a prior point with 
respect to Mr. Wright's rebuttal, and that is I do think this 
is a conversation that should be sober-minded and focused on 
the data. So I will ask for unanimous consent to submit to the 
record a publication from the Journal of Geophysical Research: 
Atmospheres on ``Source Characterization of Volatile Organic 
Compounds in the Colorado Northern Front Range Metropolitan 
Area During Spring and Summer 2015.''
    Chairwoman Castor. Without objection.
    [The information follows:]
                               __________

                       Submission for the Record

                       Representative Joe Neguse

                 Select Committee on the Climate Crisis

                             August 1, 2019

    ATTACHMENT: Abeleira, A., I. B. Pollack, B. Sive, Y. Zhou, E. V. 
Fischer, and D. K. Farmer (2017), Source characterization of volatile 
organic compounds in the Colorado Northern Front Range Metropolitan 
Area during spring and summer 2015, J. Geophys. Res. Atmos., 122, 3595-
3613, doi:10.1002/2016JD026227.
    The article is retained in the committee files and available at: 
https://agupubs.onlinelibrary.wiley.com/doi/10.1002/2016JD026227.

    Mr. Neguse. And just suffice it to say that I think it 
confirms the veracity of the statistics that I mentioned 
earlier.
    I will also just quote from an article. This is two days 
ago. ``Emissions from oil and gas wells account for about 12 
percent of Colorado's total release of greenhouse gases, 
according to the state's best estimate, which it has 
acknowledged is flawed. The industry is the top producer of 
volatile organic compounds along the Front Range, a region that 
has failed to comply with Federal air quality standards for 
more than a decade.''
    That article cites--and this is one of the benefits of 
having a field hearing here in Boulder, is it cites the 
science, which is from a study that was published in July of 
2017 by scientists at NCAR, which is, of course, here in 
Boulder which we were fortunate enough to visit just yesterday.
    So with that, I would just again submit those into the 
record and proceed to my questions with the mayor.
    [The information follows:]
                              ----------                              


                       Submission for the Record

                       Representative Joe Neguse

                 Select Committee on the Climate Crisis

                             August 1, 2019

    ATTACHMENT: Process-Based and Regional Source Impact Analysis for 
FRAPPE and DISCOVER-AQ 2014. National Center for Atmospheric Research; 
Atmospheric Chemistry Observations and Modeling Laboratory, July 2017.
    The report is retained in the committee files and available at: 
https://www.colorado.gov/airquality/
tech_doc_repository.aspx?action=open&file=FRAPPE-
NCAR_Final_Report_July2017.pdf.

    So, the question to the mayor of Boulder and the mayor of 
Fort Collins, you both mentioned in your written testimony and, 
I believe, Mayor Troxell, you mentioned it in your oral 
testimony, the work that is being done with the coalition of 
cities in Colorado, I wonder if you could expound upon that a 
little bit. It just is fascinating to me, and I suspect maybe 
to some of my colleagues on the committee, that cities are very 
diverse, very different, and I am curious as to how those 
interactions have gone and how you were able to build a 
coalition of cities that are perhaps politically different, 
obviously in very different ways, to come together around this 
common goal of bold climate action.
    Ms. Jones. I will jump in there. We are proud to be one of 
the initial entities bringing this together, realizing that we 
all breathe the same air, we all like to ski in our mountains, 
and some of the entities that are participants are mountain 
communities that are very much dependent on a robust snow pack 
and not having it melt too quickly and things like that. So 
there is a lot to bring us together, and there was a 
recognition that working together across party lines, across 
geography, across sizes of towns, that we would get a lot more 
done at the state legislature, and that is certainly borne out.
    So with the 28 cities and counties, it represents a 
sizeable portion of the population of Colorado, so suddenly we 
are getting a little bit more attention. But I will just note 
that there are a lot of commonalities, and we touched on some 
of them, which is that the impacts we are already feeling from 
climate are real, they are costly, they are dangerous to our 
citizens, and they affect both our quality of life and our 
economy, and that is the same regardless of whether you are 
Republican, Independent, or Democrat.
    Mr. Troxell. And I would add to that that there are a lot 
of similarities between the communities, and I think by coming 
together we can also share best practices. Although we might be 
neighboring communities, oftentimes we don't know exactly what 
is going on in each other's community. So being able to share 
those best practices and clearly the impacts, we can discuss 
those, but also what are the solutions and what are we doing, 
because a lot of it, at least from my perspective, is 
translating the challenges into real solutions at a local 
level, because it might be land use policies in terms of 
heating, or it might be transportation policies, or it might be 
other sorts of things that we can translate what is the 
challenge into what we can do at the local level.
    Mr. Neguse. Thank you both again for your leadership. Thank 
you to each of the witnesses for their testimony. And knowing 
that we are getting closer to the conclusion of the hearing, I 
would just reiterate again my thanks to the Chairwoman and to 
my colleagues who traveled a great distance, Representative 
Graves and Representative Casten, for coming to Boulder.
    With that, I yield back the balance of my time.
    Chairwoman Castor. Thank you, Congressman Neguse.
    Congresswoman DeGette, you are recognized for 5 minutes.
    Ms. DeGette. Thank you so much, Madam Chair.
    Mr. Wright, I heard you talking, and I do agree that some 
of these emissions, the CO<INF>2</INF>, the methane, if there 
is groundwater contamination, that doesn't just stop at state 
boundaries or municipal boundaries, and I think that is what I 
heard you say. Is that correct?
    Mr. Wright. That is correct.
    Ms. DeGette. So therefore, in Colorado for example, the oil 
and gas industry, they comply with the Colorado rules around 
fracking and emissions; is that right?
    Mr. Wright. Yes.
    Ms. DeGette. Would you agree with the governor and me and 
others that Colorado has one of the strictest methane rules of 
any place in the country? Is that right?
    Mr. Wright. That is right.
    Ms. DeGette. And the industry in Colorado, to your 
knowledge, tries to comply with that methane rule; is that 
right?
    Mr. Wright. That is correct.
    Ms. DeGette. And so wouldn't it seem to you that probably 
if we want to stop methane contamination all around the 
country, we should reinstate the Federal methane rule?
    Mr. Wright. As I talked about----
    Ms. DeGette. A yes or no will work. [Laughter.]
    Mr. Wright. Not as currently----
    Ms. DeGette. You don't think so, even though methane 
emissions from other states may come into Colorado's local 
government?
    Mr. Wright. There are right ways and wrong ways to do 
things. But, yes, reducing methane emissions is a positive 
thing to do. I will mention----
    Ms. DeGette. But you don't think we should renew the 
Federal methane statute; is that right?
    Mr. Wright. In its current form, no.
    Ms. DeGette. Okay, thank you.
    Now, I wanted to ask you, Ms. VanGenderen, in your opening 
statement and in your written testimony you talked about a 
number of fabulous studies that are going on about ways to 
promote renewable energy and all kinds of carbon sequestration 
and electrification. How close are we to being able to enact 
those requirements, or how close are we to actually realizing 
that research and being able to bring it into our daily lives?
    Ms. VanGenderen. It is dependent on the specific research 
underway. I think that it is also dependent on the devoted 
resources that are given to the realization of those. Again, we 
are working on the campus to make it a living, learning 
laboratory. Each breakthrough energy technology needs to be 
deployed in demonstrated fashion in order to prove its efficacy 
in the marketplace.
    Ms. DeGette. So if you get the Federal funding that you 
need to support your research projects, will that help expedite 
the implementation?
    Ms. VanGenderen. It could absolutely speed it up.
    Ms. DeGette. Will some of this research actually help us as 
we try to move to a zero carbon emissions economy?
    Ms. VanGenderen. There are some--if brought to scale, many 
of these could be game changers, absolutely.
    Ms. DeGette. Thanks.
    I want to follow up, actually, on something that Mr. Graves 
was talking about, because we have really seen in Colorado how 
having a commitment to shifting from fossil fuels has really 
worked. I would like to talk to our colleagues in Washington 
about this.
    In Colorado, the legislature tried for some years to pass a 
renewable energy standard, and they were unable to do so 
because of the opposition of the utilities and the oil and gas 
industry. So finally, by voter initiative, in 2004, we passed 
the first renewable energy standard in the country by 
initiative, and it was 3 percent by 2007 and 10 percent by 
2015. This was so wildly popular--the people in the audience 
know this--that the legislature has now increased the standard 
three times since 2004 with the support of the utilities and 
the industry. HB-1001 set a standard of 30 percent by 2020, 
still not enough, but I am going to guarantee you, with the 
commitment of our citizens and our businesses working together, 
that we are probably going to exceed that and we are going to 
have to go in and do more.
    Xcel Energy, which is one of our big, big energy companies 
here, has made a commitment to zero carbon emissions by 2050, 
again not fast enough, not close enough, but this shows how 
fast this economy is moving, and it also shows that when you 
have a commitment by local governments and by a state to 
actually do something, and you can do it in a way that benefits 
the energy industry and that really benefits the constituents 
and the economy.
    So that is why we can't just sit around in Congress and 
say, well, if we would have passed Waxman-Markey, then that 
wouldn't have been enough. We have to be bold, we have to be 
aggressive, and we have to have strong energy standards that 
are going to not only save our planet but also improve our 
economy.
    [Applause.]
    Ms. DeGette. So thanks again, Madam Chair. Thanks for 
having us.
    Chairwoman Castor. I think that is a great statement to end 
on, but I want to thank everyone for attending today.
    It is clear that Colorado is a leader, but we need your 
passion and your energy, your commitment, because we cannot do 
it alone, as I think was established here today. We can have 
all the terrific climate action here on the local and state 
level, but unless we have a bold Federal climate action plan, 
we are not going to be able to reduce carbon pollution, we are 
not going to be able to adapt as we need to adapt our 
communities. We are all in this together.
    So I invite you all to follow the work of the committee, 
follow us on social media, be an engaged citizen, help us 
develop this climate action plan. It is only through working 
together that we will be able to develop the bold solutions 
that we need.
    So at this time, I would like to advise the witnesses that 
you may get some follow-up questions. Please work as 
expeditiously as possible to relay your answers to the 
committee.
    Thank you again to the University of Colorado-Boulder, and 
I will recognize the Ranking Member for a unanimous consent 
request.
    Mr. Graves. Madam Chair, I ask unanimous consent to enter 
into the record a document developed by CIRES, UC-Boulder, 
titled ``Accounting for Ozone,'' showing the ozone non-
attainment since 2007 and some of the causes.
    Chairwoman Castor. Without objection.
    [The information follows:]
                               __________

                       Submission for the Record

                      Representative Garret Graves

                 Select Committee on the Climate Crisis

                             August 1, 2019

    ATTACHMENT: McDuffie, E. E., et al. (2016), Influence of oil and 
gas emissions on summertime ozone in the Colorado Northern Front Range, 
J. Geophys. Res. Atmos., 121, 8712-8729, doi:10.1002/2016JD025265.
    The article is retained in the committee files and available at: 
https://agupubs.onlinelibrary.wiley.com/doi/epdf/10.1002/2016JD025265.
    A release and summary regarding the publication from CIRES is 
available at: https://cires.colorado.edu/news/accounting-ozone.

    Chairwoman Castor. And without objection, all members have 
10 business days within which to submit additional written 
questions for the witnesses. Please respond as promptly as you 
are able.
    The hearing is adjourned. Thank you.
    [Applause.]
    [Whereupon, at 11:40 a.m., the committee was adjourned.]
                               __________

                 United States House of Representatives

                 Select Committee on the Climate Crisis

                       Hearing on August 1, 2019

             ``Colorado's Roadmap for Clean Energy Action:

                 Lessons from State and Local Leaders''

                        Questions for the Record

                       The Honorable Jared Polis

                          Governor of Colorado

                       the honorable kathy castor
1. In your testimony, you noted that Colorado has adopted Low Emission 
        Vehicle standards and is considering adopting Zero Emission 
        Vehicle standards. You also noted that Coloradans could save 
        $43 billion from a transition to electric vehicles by 2050. 
        From your perspective as Governor, why is the proposal to 
        rollback the Federal standards and slow automaker investments 
        in new technologies a mistake?
    We Coloradoans place a high value on our natural environment and 
the health of our communities. That is why as Governor, I have made 
protecting and improving air quality one of my top priorities. 
Achieving dramatic reductions of air pollution from the transportation 
sector will be critical to addressing this priority. Currently, 
transportation emissions are the largest contributor to unhealthy 
levels of ozone in the Denver metro area, and with the great strides 
that Colorado is making in transitioning to renewable forms of electric 
generation, transportation will soon be the largest source of 
greenhouse gas (GHG) emissions and will persist as the top GHG emitter 
for the foreseeable future.
    To achieve the deep reductions in transportation emissions 
necessary to achieve our air quality and climate goals will require us 
to transition to lower emitting gasoline vehicles and ultimately zero 
emission vehicles. Accomplishing this transition won't be easy. We 
currently have over five million registered vehicles in Colorado, and 
turning over this existing fleet to cleaner burning and zero emission 
vehicles will take time. But given the critical nature of the problem 
and the opportunity presented by a swift transition, we must pursue all 
reasonable strategies to accelerate this work.
    Fortunately, there is a path forward. Thanks in large part to the 
new vehicle standards adopted by the Obama administration, automakers 
are well on their way to developing and implementing technologies that 
will achieve deep reductions in vehicle emissions. Every credible 
analysis that has been undertaken has shown that these standards will 
not only dramatically reduce emissions, they will also result in 
significant cost savings to consumers in the form of lower gasoline 
bills. Colorado's analysis shows that for model years 2022-2031, the 
Obama era standards will save Colorado consumers nearly 8 billion 
dollars, while eliminating over 31 million tons of greenhouse gas 
emissions to the atmosphere from Colorado vehicles. These standards, 
along with the revolutionary advances in electric vehicle technologies, 
and automakers commitments to producing and selling a rapidly expanding 
fleet of electric vehicles, means the future of a much cleaner vehicle 
fleet should look bright.
    Unfortunately, the current administration in Washington not only 
refuses to lead us to this bright future, but is actively trying to 
undermine our progress. In seeking to roll-back technically feasible 
and cost-effective standards, the current administration is engaging in 
an unprecedented attack on our environment, our health and our 
pocketbooks. And it is doing so without any reasoned support. Analysis 
after analysis, along with the statements of the Environmental 
Protection Agency's own technical staff, have shown that the 
justification for the roll-back is based on unsupported and unrealistic 
factual assumptions, and analytical sleight-of-hand.
    Further, in seeking to eliminate the rights of states to establish 
their own standards as expressly provided for under the Clean Air Act, 
the current administration is seeking to upend nearly a half century of 
precedent allowing states to go beyond the federal government in 
protecting their citizens from unhealthy air. Such an action 
demonstrates that the passionate pleas for protecting states' rights 
and preserving cooperative federalism that we so often hear from 
Washington are little more than empty slogans.
    Finally, and almost unbelievably, this attack on our environment 
the health of our communities, our legal precedent, and reasoned 
decision-making, is being undertaken in the face of stiff opposition 
from the automakers themselves. This is an industry that relies on long 
lead times for developing its products, and as such regulatory 
certainty on applicable standards is absolutely essential. By seeking 
to roll-back these standards so late in the product development cycle, 
the current administration is creating regulatory chaos that severely 
undermines the ability of automakers to plan for and develop the next 
generation of vehicles.
    We note that just this August the Colorado Air Quality Control 
Commission voted to adopt Zero Emission vehicle standards, pursuant to 
the authority granted by the Clean Air Act--and both the Alliance of 
Automobile Manufacturers and the Alliance of Global Automakers worked 
with the state on crafting the language proposed to the Commission, and 
supported adoption of the standard. The federal government should be 
seeking to foster and expand upon this type of cooperative effort 
between the states and the automobile industry to support advanced 
technology vehicles, reduce emissions and provide clear rules of the 
road allowing manufacturers to make long term investment decisions.
    Ultimately, there is nothing positive about the current 
administration's attack on the current new vehicle standards. It's bad 
for the environment, bad for the health of our communities, bad for 
consumers, and bad for business.
2. In your testimony, you mentioned that Colorado signed on to a 
        Memorandum of Understanding with several other states in the 
        Intermountain West on electric vehicle charging stations. Many 
        of these states do not yet have targets to reduce greenhouse 
        gas emissions. What are the anticipated economic benefits from 
        building out corridors for electric vehicle charging?
    There are enormous economic benefits that come from a widespread 
transition to electric vehicles (EVs). These benefits included 
significant consumer savings on fuel costs, consumer savings on vehicle 
maintenance, and downward pressure on electric rates leading to 
consumer savings for all electric ratepayers. In addition, there are 
benefits associated with the public health benefits of reduced criteria 
emissions, as well as the benefits that come from reduced emissions of 
greenhouse gases.
    In order to achieve these benefits, widespread adoption of electric 
vehicles is required. There are four key things that are necessary to 
achieve this--adequate charging infrastructure; availability of models 
that meet consumer needs; marketing to ensure consumers are aware of 
electric options; and financial incentives such as federal tax credits 
to address the up-front cost barriers during the early years of the 
market. The Regional Electric Vehicle agreement among 8 western states 
(AZ, CO, ID, MT, NM, NV, UT, WY), known as the REV West MOU, commits 
the states to working together to address charging infrastructure along 
the interstate highways linking our states, thus addressing one of the 
key issues required in order to realize these benefits.
    The State of Colorado has examined the net benefits associated with 
transportation electrification in some detail. Our analysis is based 
upon studies by the consulting firm MJ Bradley,\1\ by the International 
Council for Clean Transportation,\2\ and work done by the state Air 
Pollution Control Division in preparation for state adoption of a Zero 
Emission Vehicle standard.\3\ The MJ Bradley Study examined the net 
economic benefits to vehicle owners (lifetime fuel savings minus cost 
differential for EV purchase), the monetized value of avoided carbon 
emissions, and the benefits to electricity ratepayers. This 2017 
analysis found that under a moderate EV growth scenario, Colorado could 
experience a net present value of $7.6 billion in cumulative net 
benefits by 2050. Under a high growth scenario, these could grow to 
more than $43 billion.
---------------------------------------------------------------------------
    \1\ Plug-in Electric Vehicle Cost-Benefit Analysis: Colorado, MJ 
Bradley & Associates, April 2017.
    \2\ Electric Vehicle Costs and Consumer Benefits in Colorado in the 
2020-2030 Time Frame, International Council on Clean Transportation, 
June 2018.
    \3\ Colorado Air Pollution Control Division, Final Economic Impact 
Analysis for Colorado Low Emission Automobile Regulation, pp. 20, 22. 
(Nov. 15, 2018).
---------------------------------------------------------------------------
    One important issue to explain is why EVs provide a broad benefit 
to all utility ratepayers. The reason is that most EV charging takes 
place at night, during off-peak periods when the utilities have 
significant excess generation and transmission capacity. Adding off-
peak load spreads fixed costs over a larger number of kilowatt-hours, 
which reduces the average cost per kilowatt-hour. The MJ Bradley 
reports concludes that each additional EV in Colorado generates a $600 
net benefit to utility customers.
    In December 2018, a similar study was conducted in Arizona, which 
found $31 billion NPV in net benefits by 2050 in a high EV adoption 
scenario.\4\
---------------------------------------------------------------------------
    \4\ Plug-in Electric Vehicle Cost-Benefit Analysis: Arizona, MJ 
Bradley & Associates, December 2018.
---------------------------------------------------------------------------
    In addition to these quantified benefits, there are other important 
but harder to quantify benefits, including the creation of advanced 
vehicle technology jobs, the furtherance of EV tourism, and the extent 
to which having advanced technology and clean air can help to attract 
high quality employers and employees. I believe that Governors across 
the West, regardless of partisan affiliation, understand this broad 
range of benefits, and that is why we are all working together to 
enable widespread transportation electrification across the west.
3. In your testimony, you mentioned that shifting to clean energy has 
        helped created clean energy jobs in Colorado. Which Federal 
        policies would help expand clean energy job opportunities 
        across the United States?
    Bold climate action and a transition to a clean energy economy is 
not only a moral imperative, it's also a significant economic and job 
growth opportunity. As the U.S. Bureau of Labor Statistics reported 
earlier this year, solar installers and wind turbine service 
technicians are the two fastest growing occupations in the country.\5\ 
A recent study conducted by Advanced Energy Economy, derived from data 
collected for the 2019 U.S. Energy and Employment Report, revealed that 
in Colorado clean energy jobs grew 4% last year, twice the rate of the 
state's overall jobs growth.\6\
---------------------------------------------------------------------------
    \5\ https://www.bls.gov/careeroutlook/2017/article/occupational-
projections-charts.htm.
    \6\ https://www.aee.net/articles/colorado-advanced-energy-jobs-
exceed-those-in-hospitals-9-growth-expected.
---------------------------------------------------------------------------
    While there is growing evidence that investing in the clean energy 
economy promotes significant job opportunities, federal and state 
employment statistics and other economic data could improve 
substantially and support enhanced policy development. In Colorado, we 
strive to ensure state policies are data driven and are continuing to 
improve data collection related to the clean energy economy. However, 
without federal investment in our labor market measures to keep pace 
with an evolving economy, we are left without sound data to fully 
illuminate the job impacts of policy in this area. Specifically, we 
would advocate for the Bureau of Labor Statistics to reinstitute 
tracking of ``green jobs,'' including data on employment by industry 
and occupation for businesses that produce green goods and services; 
data on the occupations and wages of jobs related to green technologies 
and practices; and green career information publications.
    Furthermore there is a need for increased investment in federally 
funded workforce programs. Over the past decade the states have seen 
significant cuts to the Workforce Investment Act and Workforce 
Innovation and Opportunity Act formula funds, Perkins Career and 
Technical Education and Adult Education funding. These cuts create 
challenges for states to fully harness the potential of the clean 
energy economy. These cuts have left businesses struggling to find 
skilled workers and left workers without pathways to better paying 
jobs. In Colorado, a recent survey revealed that 54% of employers find 
it very difficult to identify qualified candidates for advanced energy 
jobs.\7\ Our rapidly changing economy requires investing in education 
and workforce programs now and in the future to realize the full 
potential of our clean energy future.
---------------------------------------------------------------------------
    \7\ https://www.aee.net/articles/colorado-advanced-energy-jobs-
exceed-those-in-hospitals-9-growth-expected.
---------------------------------------------------------------------------
4. In your testimony, you mentioned the just transition policies that 
        were recently enacted by the Colorado legislature. What 
        recommendations do you have for Federal policy that could 
        accomplish the same goals?
    This past spring, I signed into law House Bill 19-1314: Just 
Transition from Coal-based Electrical Energy Economy.\8\ This bill 
establishes a Just Transition Office tasked with aligning and 
delivering programming and funding to communities and workers impacted 
by a changing energy economy, in addition to disproportionately 
impacted communities who have borne the costs of pollution. Over the 
next year, an advisory committee will develop a draft Just Transition 
Plan for submission to the Governor and the General Assembly by 
December 31, 2020. The advisory committee is comprised of a diverse set 
of perspectives, ranging from impacted workers and communities, the 
private sector, legislative partners, economic and workforce experts, 
and government representatives. While it is premature to articulate 
specific Federal policy recommendations at this time, we have initiated 
an inclusive and proactive process to support and inform a just 
transition in Colorado. The Federal Government will no doubt be an 
integral partner in this work and we look forward to maintaining an 
open line of communication over the coming months.
---------------------------------------------------------------------------
    \8\ https://leg.colorado.gov/bills/hb19-1314.
---------------------------------------------------------------------------

                        Questions for the Record

                      The Honorable Suzanne Jones

                          Mayor of Boulder, CO

                       the honorable kathy castor
1. In your testimony, you mentioned that the City of Boulder and 
        Boulder County have jointly launched initiatives focused on 
        soil-based carbon sequestration. What Federal policies would 
        help local governments carry out these types of initiatives?
    As mentioned in the Mayor's testimony, Boulder and Boulder County 
have launched a collaborative effort around soil sequestration. This 
partnership is aimed at experimenting with emerging strategies, such as 
innovative tillage, enhanced soil health practices and other 
regenerative agricultural techniques, to accelerate carbon drawdown and 
enhance local ecosystem productivity. When fully implemented, we 
believe these approaches could conservatively sequester 10% to 20% of 
local emissions. They also provide significant agricultural and 
ecosystem benefits such as increased resistance to drought and extreme 
weather events.
    The city recommends the following federal policies to support local 
initiatives:
    <bullet> Increase cost share funding to United States United States 
Department of Agriculture (USDA)-natural Resources Conservation Service 
(NRCS) to foster increased adoption of climate smart agricultural 
practices, e.g., reduced tillage, cover cropping, etc.
    <bullet> Enhance crop insurance programs offered by USDA-Farm 
Service Agency (FSA) that create disincentives for cover cropping.
    <bullet> Increase USDA-Agriculture Research Service (ARS) funding 
in Colorado toward soil-carbon sequestration research priorities fitted 
to high plains agroecosystems (irrigation, soil health principles and 
their economic implications).
    <bullet> Support research and pilot projects in developing carbon 
credit marketplace for agriculture
    <bullet> Increase funding for the NRCS Conservation Innovation 
Grants Program, which is one of the most important mechanisms to foster 
multi-party collaboration and innovation around emerging soil health 
and carbon drawdown strategies.
    <bullet> Increase funding into National Institute of Farm and 
Agriculture (NIFA) sustainable agriculture and environmental resource 
and economic programs.
    <bullet> Increase funding into Foundation for Food and Agriculture 
Research (FFAR) programs.
    <bullet> Increase funding for Agricultural Extension Services.
    <bullet> Reintroduce the Healthy Fields and Farm Economies Act.
    <bullet> Amend the 45Q Tax Credit to include biochar and compost 
producers.
    <bullet> Ask NRCS to work with ARS and private sector initiatives 
to standardize soil health protocols, as lack of standardization is 
causing a confusing set of non-comparable claims.
    <bullet> Increase funding to USDA for soil health research and 
knowledge dissemination.
    <bullet> Significantly increase funding to efforts that support 
young, veteran and socially disadvantaged farmers to gain access to 
land ownership and farm establishment support such as the Conservation 
Reserve Program-Transition Incentive Program (CRP-TIP).
2. In your testimony, you explained that the City of Boulder's 
        investments in residential energy efficiency leveraged almost 
        ten times that amount in private investment. What Federal 
        policies would help cities like Boulder continue to leverage 
        private sector investments to reduce carbon emissions?
Electrification
    In cities across North America, fossil fuels that provides heating, 
cooling and hot water in buildings account for a significant portion of 
greenhouse gas (GHG) emissions--accounting for between 15% and 40% of 
emissions in a typical U.S. city. According to the Building 
Electrification Initiative (BEI), reaching ``deep decarbonization'' 
goals of 75% or greater reduction in greenhouse gas emissions will 
require eliminating most of the CO<INF>2</INF> produced by furnaces and 
water heaters across the country, alongside other measures across the 
economy.
    In the long term, major utility investments and state regulatory 
action will be needed to fully transition buildings away from fossil 
fuels. In the short term though, city action can spark the development 
of new markets and equitable approaches for transitioning to high 
efficiency electric building systems. This action will deliver 
immediate GHG and air pollution reductions, while also providing 
information on best practices and laying the groundwork for more 
ambitious efforts that will be needed at all levels of government.
    Given the scale, voluntary market development alone will probably 
not be sufficient to achieve these goals; it will require robust local, 
state, regional and federal policy regimes to transition away from 
fossil fuel-based building systems. Supporting market development 
activities will also be necessary to improve existing heat pump 
products, train and qualify contractors who can install them, and 
ensure there are customers who want heat pumps and understand their 
value.
    In its 2018 report, The Economics of Electrifying Buildings \1\ the 
Rocky Mountain Institute suggests that regulators, policymakers and 
utilities will need to make adjustments to energy efficiency programs 
and targets in order to accommodate beneficial electrification. 
Historically, most energy efficiency programs have focused on reducing 
electric energy consumption (in kWh) and natural gas energy consumption 
(in therms). Unfortunately, this approach risks providing a 
disincentive to beneficial fuel switching, either for buildings or 
transportation, if a utility will be penalized for adding kWh of 
electric consumption to the system.
---------------------------------------------------------------------------
    \1\ Rocky Mountain Institute, The Economics of Electrifying 
Buildings, based on data from the U.S. Environmental Protection Agency. 
https://rmi.org/insight/the-economics-of-electrifying-buildings/
---------------------------------------------------------------------------
    The 2016 Electricity Journal article ``Environmentally Beneficial 
Electrification: The Dawn of ``Emissions Efficiency'' \2\ suggests that 
energy efficiency targets should either be measured on a total energy 
basis--combining electricity, natural gas and other fuels--or on the 
basis of total emissions associated with the energy consumption. 
Otherwise, successful electrification could penalize utilities for not 
reducing electricity demand, even when it provides cost and carbon 
benefits. Additionally, policies that prohibit utilities from promoting 
fuel switching should be reevaluated to consider the benefits 
electrification could provide in meeting policy goals, including carbon 
reduction.
---------------------------------------------------------------------------
    \2\ Dennis, Keith, Ken Colburn and Jim Lazar, ``Environmentally 
Beneficial Electrification: The Dawn of ``Emissions Efficiency','' The 
Electricity Journal, Volume 29, Issue 6, July 2016, Pages 52-58, 
https://www.sciencedirect.com/science/article/pii/S1040619016301075
---------------------------------------------------------------------------
    The Rocky Mountain Institute report further identifies the 
importance of removing ``barriers to aggregated demand-side resource 
participation in wholesale market products, including energy, capacity 
and ancillary services.'' These barriers include prohibitions on 
aggregated demand-side resource participation in some products and 
large minimum resource size requirements for individual loads or 
aggregations. The Federal Energy Regulatory Commission (FERC) is 
currently considering action to remove such barriers by requiring 
markets it regulates to allow aggregated resources to participate 
alongside traditional resources.
    Finally, the Department of Energy and Environmental Protection 
Agency programs compare the performance of appliances to other models 
that use the same type of fuel. This approach diminishes the economic, 
environmental and grid benefits of switching from a fossil-fuel 
appliance to an electric one. States that follow these federal 
standards should be aware that the same-fuel-only comparison can reduce 
the ability to electrify. One solution is to update those standards to 
compare appliances across all fuel types.
Federal Preemptions
    Federal policy currently prevents local jurisdictions from 
requiring installed appliances, such as heating and cooling equipment, 
to perform better than federal baselines. This requires jurisdictions 
to invest significantly in rebate and other incentive programs to drive 
more efficient choices by residents and businesses. Jurisdictions must 
be able to mandate better appliance efficiency through code, which 
would allow limited rebate dollars to be freed up to further leverage 
investment in deeper savings opportunities. This would also prevent 15- 
to 20-year stranded investments by residents and businesses in lower-
performing equipment.
Financing
    Efficiency and local energy generation are critical for reducing 
greenhouse gas emissions and for enabling a successful transition to a 
post-carbon future. However, particularly in states like Colorado where 
current energy costs are among the lowest in the country, the payback 
for efficiency and renewable investments is often too long (5 or more 
years) to motivate residents and businesses to make substantial 
investments. This ultimately has the impact of tying up cash reserves 
or creating longer-term personal financial obligations. Options that 
allow efficiency and renewable improvements to be made with lower 
financial obligation and that allows the obligation to transfer with 
the property at time of sale would greatly accelerate efficiency and 
renewable adoption. Examples of mechanisms include property assessed 
clean energy (PACE) where low-to-no interest loans can be spread over 
20 years of property taxes. Similarly, tariff-based financing, where 
utilities front the cost of the investment and recover that investment 
through utility rates would help drive adoption.
3. You mentioned that the Colorado Communities for Climate Action 
        supports expanding the focus of the Natural Resources 
        Conservation Service to include regional-scale land management 
        to improve resilience to climate impacts. Could you please 
        describe this recommendation in more detail?
PLEASE NOTE: The following recommendations originate from the City of 
        Boulder rather than the Colorado Communities for Climate Action
    Recent reports from the IPCC and other sources confirm that 
significant impacts from climate change are now inescapable in the next 
10 to 30 years. According to a recent Union of Concerns Scientists 
analysis, these changes will result in dramatic impacts across the US 
\3\ including:
---------------------------------------------------------------------------
    \3\ https://www.ucsusa.org/sites/default/files/attach/2019/07/
killer-heat-analysis-full-report.pdf.
---------------------------------------------------------------------------
          <bullet> The average number of days per year with a heat 
        index above 100 +F will more than double, while the number of 
        days per year above 105 +F will quadruple
          <bullet> More than one-third of the area of the United States 
        will experience heat conditions once per year, on average, that 
        are so extreme they exceed the current NWS heat index range 
        (above 137 +F)
          <bullet> Nearly one-third of the nation's 481 urban areas 
        with a population of 50,000 people or more will experience an 
        average of 30 or more days per year with a heat index above 105 
        +F, a rise from just three cities historically (El Centro and 
        Indio, California and Yuma, Arizona).
    These findings underscore the critical importance of significantly 
expanding research and technical assistance for cities to address the 
way these conditions will be mitigated or aggravated by urban 
development and urban landscape management.
    Less recognized is the interrelationship between urban heat impacts 
and the management practices in landscapes which surround cities. There 
is growing evidence that factors like soil moisture levels in areas 
surrounding cities dramatically impact the incidence and intensity of 
urban heat extreme events.\4\
---------------------------------------------------------------------------
    \4\ https://www.climatechangepost.com/news/2019/2/18/when-soil-
dries-out-europes-heat-waves-will-become/.
---------------------------------------------------------------------------
    Additional funding and pilot project development is needed to 
explore strategies for utilizing land conservation and management 
policies to shape climate extreme resilience in both rural and urban 
communities. The NRCS provides a logical platform for managing 
resources directed to this purpose. The NRCS platform grew out of the 
original Soil Conservation Service established in 1935 at the height of 
the Dust Bowl. It has a history of conducting landscape scale 
assessment and conservation strategy development to address large scale 
environmental and social challenges.
    In more stable and prosperous times, NRCS's work focuses more on 
parcel-level technical assistance and incentives; however, in eras of 
disruptive change, NRCS has been on the forefront of landscape-scale 
strategy and action. In the 1930s, this included deploying hundreds of 
thousands of workers implementing soil conservation actions like 
erosion control or planting windbreaks. In the farm crisis of the 
1980s, NRCS was able to launch the Conservation Reserve Program which 
created connected networks of conservation areas across broad areas of 
the Plains states.
    Congress should empower and resource the NRCS to explore how it can 
use both its existing tools and programs and new management systems to 
develop landscape-scale assessments. These assessment would identify 
how to enhance the capacity of landscapes to drawdown significant 
volumes of carbon, increase water holding and infiltration capacities, 
provide enhanced regional cooling services to metropolitan areas and 
increase the fertility and productivity of lands that are now 
significantly degraded due to climate change and past management 
practices. This would start with a comprehensive soil assessment using 
standardized soil inventory procedures (see previous recommendations on 
soil health for more detail). The work identified through these 
assessments would then form the foundation for exploring Green New 
Deal-scale reinvestment strategies that could provide employment 
opportunities for a large-scale workforce.

                        Questions for the Record

                       The Honorable Wade Troxell

                       Mayor of Fort Collins, CO

                       the honorable kathy castor
 1. In your testimony, you referenced the Bus Rapid Transit system in 
        Fort Collins. What Federal policies would help expand Bus Rapid 
        Transit systems in cities like Fort Collins?
    The primary consideration when implementing MAX Bus Rapid Transit 
centered around funding. The Federal Transit Administration Section 
5309 Capital Investment Grant funding for Small Starts funded the MAX 
Bus Rapid Transit project. Small Starts is a result of the publication 
of the Major Capital Investment Projects Final Rule in January 2013 (49 
CFR Part 611). Through the MAX Bus Rapid Transit project, the City of 
Fort Collins hired consultants to assist in navigating the complex 
regulatory process required for a project of this size.
    Moving forward, the following policies and considerations could 
assist scaling Bus Rapid Transit in communities like Fort Collins:
          <bullet> A combination of increased funding dedicated to 
        planning and design, continued support of the Small Starts 
        program or similar, and continued backing for funding to 
        maintain infrastructure and ongoing operations into the future, 
        and
          <bullet> Review of current federal policies to determine 
        where existing requirements can be streamlined to reduce the 
        regulatory and application burden for communities.
 2. You mentioned that the City of Fort Collins received an award for 
        its work to expand the benefits of energy efficiency to low- 
        and moderate-income renters by promoting energy efficiency in 
        rental homes. Are there Federal policies that would expand the 
        ability of cities like Fort Collins to develop and implement 
        such programs?
    In Fort Collins' testimony, we referenced our recent $1M award from 
Bloomberg Philanthropies to launch the Epic Homes program, which 
targets renter-occupied homes for efficiency upgrades. One of 
Bloomberg's goal with each of these awards is to fund projects that 
create replicable, scalable products and solutions.
    In that process, we found one key barrier to implementing 
efficiency projects in rental homes, benefiting low- and moderate-
income residents, is the availability of low-cost long-term capital. 
The success of the federal program Rural Energy Savings Program (RESP) 
could be replicated for non-rural communities such as Fort Collins. 
Senator Merkley (OR) has proposed a Community Energy Savings Program 
with input and experience from Fort Collins on-bill financing efforts. 
The ability to access low or no interest long-term capital expands the 
opportunity for efficiency to many more homes and could be replicated 
across the country.
    In addition, the federal government could extend the 2017 Renewable 
Energy Tax Credit to include residential (non-commercial) rental 
properties. Currently principal residences and 2nd homes are eligible, 
residential rental properties are not.\1\
---------------------------------------------------------------------------
    \1\ https://www.energystar.gov/about/federal_tax_credits/
2017_renewable_energy_tax_credits.
---------------------------------------------------------------------------
 3. In your testimony, you mentioned that systems-thinking and grid 
        integration must be an important part of any clean energy 
        strategy. How should Federal policies incorporate these 
        considerations?
    The ability to integrate electric grid elements from generation and 
transmission to distribution systems and customer facilities generally 
requires transparent market mechanisms. Federal policies which support 
the establishment and operation of electricity markets would also 
support enhanced systems-thinking and grid integration. The Department 
of Energy has led effort to modernize electricity systems, e.g., 
through their Smart Grid Investment Program, and these types of 
national investments will be critical to achieving a national clean 
energy system.
    In addition, energy storage is critical to a clean energy strategy 
and supports community and national resilience. FEMA is increasingly 
funding implementation of preparedness planning as part of All Hazard 
Mitigation Plans (not just disaster response funding), which include 
energy storage and grid resilience strategies.

                        Questions for the Record

                              Cary Weiner

                 State Energy Specialist, CSU Extension

                   Director, CSU Rural Energy Center

                       Colorado State University

                       the honorable kathy castor
1. In your testimony, you mentioned that the Rural Energy for America 
        Program and the Rural Energy Savings Program should be updated 
        and revised. Could you please describe in more detail how these 
        programs could be improved?
    The Rural Energy for America Program (REAP) has incentivized energy 
improvements across the country by offering grant funding for projects, 
energy audits, and renewable energy development assistance. Colorado 
State University Extension has been the recipient of two REAP grants in 
the last five years that have allowed us to provide renewable energy 
development assistance to farmers in Colorado. Specifically, we have 
conducted economic feasibility assessments for solar and wind energy at 
60 farms across the state. These assessments provide detailed estimates 
of the financial costs and benefits of installing solar or wind on-
farm, including a 20-year cash flow, identification of potential tax 
implications, and phone calls to discuss results.
    I believe that interest has been high in our assessments for a 
number of reasons such as falling solar prices, tax credits that will 
decrease in coming years, and perceived cost savings from solar energy 
when compared to utility electricity. I also believe that the free cost 
to participate has played a significant role in attracting farmers to 
the assessment program. Because energy efficiency often offers a 
quicker return-on-investment than renewable energy, we have considered 
expanding our offerings from just renewable energy development 
assistance to include energy audits through REAP. But we have decided 
not to apply for a REAP grant to conduct energy audits because 
participating agricultural producers and small businesses would be 
responsible for a 25% cost share.
    Although it seems reasonable to ask for producers and business to 
contribute to the cost of audits, I believe that the cost share 
requirement may actually prohibit these entities from participating. If 
we were to charge $1,000 for an audit to recoup costs from travel and 
staff time, for example, a 25% cost share would mean that a farm or 
rural small business would have to pay $250. But because few small 
businesses rural Colorado have received and acted upon energy audits, 
it is difficult to convince them that a $250 investment is worthwhile. 
A simple change to the REAP energy audit program eliminating or 
reducing the 25% cost share requirement could result in demonstrations 
of the effectiveness of energy audits as effective tools in managing 
energy costs. Once audits become more established as valuable tools in 
areas where they are currently not mainstream, perhaps the federal 
government could reinstate a 25% cost share.
    In addition, of the 60 economic feasibility assessments we 
conducted for on-farm renewable energy, four went on to apply for REAP 
grants to install projects on their farms. Of these four applicants, 
only two were successful. Although the economic feasibility of the two 
farms that were rejected was comparable or better than the two 
successful recipients, they were not funded. And like with energy 
audits in some parts of rural Colorado, renewable energy projects on-
farm are still in need of demonstration and successful case studies. 
Expanded REAP funding for on-farm renewable energy projects in 
particular would allow for more projects to be installed and more case 
studies to be established, which in turn will increase interest and 
further the goal of the program.
    As far as the Rural Energy Savings Program (RESP), the program can 
have tremendous benefits for rural energy users. Rural electric 
cooperatives can borrow funds from USDA's Rural Utilities Service at 0% 
interest for re-lending to cooperative members for energy improvements. 
Some utilities can use this program to start on-bill financing programs 
for members, which can make energy improvements more financially 
attainable and seamless than other options such as borrowing from 
another lender.
    My suggestion regarding RESP comes from discussions with two rural 
electric cooperatives who have participated in the program. In both 
cases, the utilities pointed out that while reasonable precautions were 
taken by USDA around the application process, once the applications 
were approved there is a very significant time lag before funds are 
received by the utilities (as borrowers). In the case of Highline 
Electric Association, for example, there was a two year period between 
when they were approved into RESP and when they could access the funds 
(1). Looking into ways to expedite access to funds for approved RESP 
participants would both make funds available for energy projects in a 
more streamlined manner and also incentivize participation from more 
utilities that perhaps are put off by the current lengthy process.
2. You also suggested that the USDA-USDOE State Extension Energy 
        Partnership Program should be restarted. Could you please 
        describe this pilot program, its successes, and your 
        recommendations for how this program should be implemented if 
        it were to be restarted?
    The State Energy Extension Partnership (SEEP) program was developed 
based on a Memorandum of Understanding (MOU) between the US Department 
of Energy (DOE) and the US Department of Agriculture's (USDA) National 
Institute of Food and Agriculture. This effort was a project of the 
State Energy Advisory Board, which was established by the State Energy 
Efficiency Programs Improvement Act of 1990 to advise DOE on the 
operation of its federal grant and clean energy programs (2). The 
explicit purpose of SEEP was, ``. . . to identify issues, develop 
solutions, and share promising practices collaboratively across 
organizational, geographic, and programmatic boundaries to promote 
energy efficiency and renewable energy.'' This partnership funded an 
initial cohort of State Energy Office and Extension collaborations in 
Wisconsin, Nebraska, and Kentucky with DOE awards of $200,000-$250,000 
over a three-year period from 2012-2015 (3).
    The Wisconsin SEEP program formalized the collaboration between 
Wisconsin's State Energy Office and UW-Madison Extension with an MOU to 
better integrate their roles in helping create transformational change 
toward a clean energy economy in the state. UW Extension engaged local 
governments, tribes, businesses, farms, and county-based Extension 
educators in energy efficiency, renewable energy, and bio-energy 
education and projects. By training Extension agents and supporting 
community leaders, the partnership between UW Extension and the 
Wisconsin Energy Office built capacity for energy education and 
community planning as well as a formal structure for collaboration on 
energy issues which continues today (4).
    SEEP programs in Nebraska and Kentucky also increased the capacity 
of Extension to have local impact and forged meaningful partnerships 
with State Energy Offices. In addition to engaging over 2,000 farmers 
and crop consultants on irrigation energy efficiency, Nebraska 
Extension drafted a strategic cooperation document for future 
cooperation between UNL and the Nebraska Energy Office (5). In 
Kentucky, an Energy Efficiency Awareness and Action program expanded 
the capacity of Extension agents to engage in energy work, including 
helping residents and businesses better manage their energy bills and 
helping 4-H youth make their households more energy efficient (6).
    If a SEEP program was to be restarted, it should focus on the 
unique strengths of State Energy Offices and Extension to build 
capacity for community-driven energy solutions. Both State Energy 
Offices and state Extension energy programs vary widely in size, scope, 
and focus. But in general, State Energy Offices excel at prioritizing 
energy issues of importance to state leaders and providing funds to 
implement priority projects. State Extension energy programs tend to 
focus on empowering residents, businesses, agricultural producers, and 
community leaders to address sustainable energy issues through 
planning, education, and technical assistance. Working together, State 
Energy Offices and state Extension energy programs can engage 
stakeholders in collaborative energy initiatives and provide funding 
for implementation of those initiatives. This work is critical to help 
communities of all kinds reduce greenhouse gas emissions in ways that 
respect unique local situations.
    Both past SEEP pilot projects and existing Extension programs have 
provided a solid foundation from which to grow this community-based, 
collaborative approach. The University of Minnesota Extension's Clean 
Energy Resource Teams have conducted energy planning and implementation 
with local governments throughout the state. Colorado State University 
Extension has conducted numerous community energy assessments that 
identify and help acquire funding and technical assistance for local 
governments based on broad stakeholder input and community needs. A 
renewed SEEP program could build lasting relationships between State 
Energy Offices and Extension in order to broaden and deepen the impact 
of community-based collaborative energy planning and implementation 
across the country. Leveraging Extension's background to focusing on 
collaborative community energy planning and implementation in rural 
America could be an especially effective strategy for SEEP.
    I would also make two more technical suggestions for a future SEEP 
program. First, it is my understanding that funds for the three pilot 
projects came from DOE. It may be worth revisiting the MOU between DOE 
and USDA to see how each agency might contribute more equally to future 
projects. Second, State Energy Offices were the only eligible primary 
applicant in the first SEEP Request for Proposals. I would recommend 
that either State Energy Offices or Extension programs could be listed 
as the primary eligible applicant in future SEEP RFPs.
                               references
    1. Phone conversation with Dennis Herman, General Manager of 
Highline Electric Association. July 26, 2019.
    2. State Energy Advisory Board. US Department of Energy. [Online] 
[Cited: September 5, 2019.] https://www.energy.gov/eere/steab/state-
energy-advisory-board.
    3. Email correspondence with Lissa Pawlisch, Director, University 
of Minnesota Clean Energy Resource Teams. September 4, 2019.
    4. Email correspondence with Sherrie Gruder, University of 
Wisconsin Extension. September 4, 2019.
    5. Email correspondence with John Hay, University of Nebraska 
Extension. August 29, 2019.
    6. University of Kentucky College of Agriculture. Kentucky 
Cooperative Extension recognizes Energy Awareness Challenge leaders. 
[Online] [Cited: September 5, 2019.] https://news.ca.uky.edu/article/
kentucky-cooperative-extension-recognizes-energy-awareness-challenge-
leaders.

                        Questions for the Record

                           Heidi VanGenderen

                      Chief Sustainability Officer

                     University of Colorado-Boulder

                       the honorable kathy castor
1. In your testimony, you mentioned that public-private partnerships 
        are needed to gather the capital required to facilitate a 
        transition to clean energy. What types of partnerships with the 
        public and private sector would help universities like yours 
        achieve their climate and clean energy goals? What Federal 
        policies could help facilitate these partnerships? \1\
---------------------------------------------------------------------------
    \1\ My responses to these QFRs represent views stemming from my 
professional background in energy and sustainability policy, and do not 
represent the official positions of the University of Colorado Boulder.
---------------------------------------------------------------------------
    There remain a large number of technologies requiring discovery and 
development to fully realize clean energy goals. These are not only in 
clean energy generation, but also in transmission, storage, 
distribution, usage, monitoring, etc. Additionally, these needed 
technologies span numerous disciplines. While the private sector has 
commercial interest in the clean energy economy, industry's ability to 
fund this necessary technology development is insufficient for all that 
is needed to realize the clean energy future. The public sector can 
support development of these technologies by encouraging and funding 
partnerships where government, industry, and academia come together to 
investigate and solve the hard problems and help these technologies 
``cross the chasm'' from lab to commercialization. Additionally, the 
Federal Government could support these partnerships by driving a 
system-level approach for all of the technologies and systems that will 
be required to realize the clean energy future. Silo'd development will 
result in incremental change, but revolutionary change requires system-
level requirements, development, and interoperability. Individual 
technologies can be powerful, but engaging all of the required 
disciplines together in these partnerships will drive realization of 
these goals more quickly.
    The October 2018 IPCC report that focused, in part, on the 
investment required to keep warming under 1.5 degrees C noted that the 
transformation to a world powered almost entirely by clean energy will 
require a global investment in clean energy and infrastructure of $1.6 
trillion to $3.8 trillion a year (in 2010 U.S. dollars) with an average 
of about $3 to $3.5 trillion per year from 2016 to 2050. (This is 
compared to an estimated $2.4 trillion a year that would otherwise be 
invested in energy systems).
    Unleashing private sector capital in this investment need is vital 
to achieve sufficient scale. However, the private investors have 
learned over the past decade that investment in clean energy will not 
be simple given technological, economic, and political uncertainties. 
Public-private partnerships are one strategy that, when designed well, 
can attract greater net investment, unlock new management expertise and 
efficiencies, and, importantly can help strike the balance between 
protection of the public interest and generating strong return on 
investment (for both the public and private partners). Public policy 
and endorsement of emerging clean energy technology can drastically 
reduce the uncertainty of private investment. We witnessed this in 
Colorado through multiple city and state-level endorsements of the 
emerging wind and solar industries.
    Universities are distinctly positioned to provide a platform for 
innovation and to serve as a test bed of both individual technology 
demonstration, and more broadly, through the integration of new and 
existing technologies at a systems level. The resources that exist to 
do either or both of these rarely, if ever, exists within a university 
alone. Universities can effectively collaborate with the municipalities 
in which they are embedded to demonstrate the feasibility and 
scalability of clean energy and energy efficiency solutions. Further, 
universities are often the source of innovations that need the support 
of both local and federal policy in order to gain access to funding. A 
cross-fertilization between private sector and university partners 
toward research (theoretical and applied), financial capacity, 
implementation capacity, and data tracking and analytics between the 
private sector and university partners can help facilitate the required 
array of assets to achieve adequate clean energy and climate goals. 
Because universities often house faculty studying the economic, policy, 
and technological impediments, and inducements, to clean energy 
adoption, they can provide a natural facilitation role between early 
stage technology, public entities, and private investors.
    Many, such as the National Conference on State Legislatures, have 
noted that policies governing Public Private Partnerships (P3's) should 
remain largely at the state level, with the federal government 
providing overarching guidance. The federal government, however, 
importantly, can forge policies that will result in expanded funding 
for the development of technologies, its deployment and financing of 
low carbon strategies. A federal tax on carbon emissions, or the 
reduction of subsidies for fossil fuel production are two of the 
simplest potential policies that would fuel innovation and adoption in 
clean energy. Recent research has shown that both federal regulation of 
coal-fired emissions, and policies encouraging adoption of clean energy 
have had a significant impact on accelerated coal-fired electricity 
unit retirements. There are a number of current bills before Congress 
that address strategies to expand the ``seed'' and partnership capital 
that could be devoted to effective public/private/university 
partnerships working to achieve a sufficiently low-carbon economy. 
Federal endorsement can change the economic calculus of private 
investment through not only tax incentives, but also through creating a 
sense of support for new, cleaner energy technologies, sowing the seeds 
from more localized state, county, and city-level P3s.
    Well-structured, transparent, and focused partnerships between 
universities, the public sector and the private sector are imperative 
if we are to achieve our climate and energy goals. In the university 
world, expanded funding for research, and demonstration of that 
research on the university campuses and in the communities in which 
those universities reside is a critical element. Our ability to harness 
emerging research into economically sustainable industries is critical 
not only to addressing climate change, but to our nation's economic 
future.
2. You referenced some examples of innovative new technologies 
        developed by CU Boulder researchers that could improve 
        monitoring of CO<INF>2</INF> emissions and create opportunities 
        to re-use CO<INF>2</INF>. How should Federal R&D investments be 
        expanded to maximize these opportunities?
    Federal R&D investments shape the research landscape. To fully 
leverage the game-changing tools and methods that can emerge from 
university labs, the government can consider:
    <bullet> Additional investment in ARPA-E and DARPA-style funding 
for high risk/high reward projects in clean energy, resilience, and 
decarbonization. For instance, an ARPA-E grant funded a team of 
researchers from CU Boulder, CIRES, NOAA, and NIST to adapt Nobel 
Prize-winning laser technology developed at CU Boulder into an 
inexpensive, portable, robust instrument that can detect methane and 
other gas leaks from oil and gas operations as they occur, allowing 
operators to catch and control leaks. A startup company is now 
commercializing the technology. (https://cires.colorado.edu/news/
detecting-methane-miles-away)
    <bullet> Robust funding of NSF, NASA, NOAA, DOE, and other federal 
funding sources that invest in R&D, paired with a recognition that 
multidisciplinary research can often yield the most innovative results. 
Federally funded research is transforming every aspect of the energy 
landscape, including emissions detection, carbon and methane capture, 
reuse of carbon in fuels and building materials, battery storage, grid 
optimization, and many others. For example, CU Boulder researchers have 
developed nanobio-hybrid organisms that capture CO<INF>2</INF> and 
nitrogen from the air to produce fuels and plastics (https://
www.colorado.edu/today/2019/06/11/these-nano-bugs-eat-co2-and-make-eco-
friendly-fuel). Another CU Boulder team developed an innovative 
wastewater treatment process called Microbial Electrolytic Carbon 
Capture (MECC), which purifies water in a way that absorbs more 
CO<INF>2</INF> than it releases while creating renewable energy, all in 
a potentially lower-carbon, lower-cost way than that provided by 
existing carbon capture technology (https://www.colorado.edu/today/
2015/08/03/cu-boulder-researchers-use-wastewater-treatment-capture-co2-
emissions-and-produce-energy). Adequate funding--in a stable funding 
environment--can maximize the potential of this type of research.
    <bullet> Secure, sustainable funding for baseline monitoring 
projects in federal agencies on which our university research often 
depends. For example, CU Boulder laboratories are part of the Global 
Greenhouse Gas Reference Network within the NOAA framework (https://
www.esrl.noaa.gov/gmd/ccgg/index.html). The program collects air 
samples from locations around the world to measure the distribution and 
trends of the three main long-term drivers of climate change (carbon 
dioxide, methane, and nitrous oxide) and carbon monoxide that is an 
indicator of air pollution. Samples are regular, not random; and that 
steady collection of data is what makes these long term records of 
Earth's atmospheric composition so fundamentally important. It provides 
critical diagnostic information on sources and sinks of greenhouse 
gases. It is already becoming a valuable tool to validate carbon 
emission targets across continental and national boundaries, which may 
play an important role for enforcement of agreements. (For example: 
https://news.agu.org/press-release/new-monitoring-system-identifies-
carbon-dioxide-from-fossil-fuel-burning/) Many of our federally funded 
scientists conduct innovative research on emissions detection, 
monitoring, and modeling based on this ground truthed data. Yet, many 
years of flat or decreased funding have translated to significant 
virtual cuts, as rents and operational costs continue to rise unmatched 
by funding. Similar Congressional cuts have been made to virtually 
every baseline monitoring project in the environmental sciences.
    By setting a priority on funding decarbonization, resiliency, and 
clean energy efforts, expanded Federal R&D investments can unlock the 
discoveries and innovation that can help move us forward to a clean, 
resilient future.

                                  [all]
</pre></body></html>
